U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                      The Federal Bureau of Prisons’
                          Monitoring of Mail for
                           High-Risk Inmates


                                      September 2006




                    Report Number I-2006-009
                           EXECUTIVE SUMMARY


INTRODUCTION

       The Office of the Inspector General (OIG) conducted this review to
evaluate how effectively the Federal Bureau of Prisons (BOP) prevents
terrorist and other high-risk inmates from using the mail to continue or
encourage criminal behavior, threaten the public, or compromise national
security. This issue received widespread public attention in March 2005
when media reports disclosed that three convicted terrorists incarcerated at
the BOP’s Administrative Maximum (ADX) penitentiary in Florence,
Colorado, for the 1993 bombing of the World Trade Center wrote
approximately 90 letters to Islamic extremists between 2002 and 2004. 1
These extremists included Mohamed Achraf, alleged leader of a plot to blow
up the National Justice Building in Madrid and other inmates who were
members of a Spanish terror cell with links to other terrorists suspected in
the March 11, 2004, attacks on commuter trains in Madrid.

       The BOP monitors inmate mail to protect the public, BOP staff, and
inmates from other inmates continuing their criminal activities from prison.
Terrorist and other high-risk inmates are placed on mail monitoring lists,
which require that all of their incoming and outgoing mail be read by BOP
staff. The mail of inmates not on such monitoring lists is read on a random
basis. When inmate mail is in a foreign language, the BOP may have it
translated or reviewed by an individual fluent in that language. Because
many of the BOP staff members who monitor mail also monitor inmates’
telephone calls, our review also examined the monitoring of inmates’ verbal
communications over the telephone, as well as in visiting rooms and in the
cellblock. To evaluate the BOP’s monitoring activities, the OIG visited 10
BOP institutions and interviewed staff responsible for the institutions’
security and inmate communications monitoring operations. In total, we
interviewed 163 BOP employees and managers and 16 other persons in the
Department of Justice (Department).

RESULTS IN BRIEF

       We found that the BOP has not effectively monitored the mail of
terrorist and other high-risk inmates. Our review determined that the
BOP’s monitoring of inmate mail is deficient in several respects: The BOP

       1Lisa Myers, “Imprisoned Terrorists Still Advocating Terror,”
www.msnbc.msn.com/id/7046691, March 1, 2005, and Lisa Myers, “Jihad Letters From
Prison Went Far, Wide,” www.msnbc.msn.com/id/7140883, March 9, 2005 (March 21,
2005).

U.S. Department of Justice                                                         i
Office of the Inspector General
Evaluation and Inspections Division
does not read all the mail for terrorist and other high-risk inmates on its
mail monitoring lists, does not have enough proficient translators to
translate inmate mail written in foreign languages, and does not have
sufficient staff trained in intelligence techniques to evaluate whether
terrorists’ communications contain suspicious content. 2 Similarly, we
found that the BOP is unable to effectively monitor high-risk inmates’ verbal
communications, which include telephone calls, visits with family and
friends, and cellblock conversations. In addition, the Department does not
require a review of all international terrorist inmates to identify those who
should be subjected to Special Administrative Measures (SAMs), the most
restrictive conditions that can be placed on an inmate’s communications. 3

       During interviews with the OIG, BOP managers acknowledged the
BOP’s responsibility to vigilantly monitor inmate communications. They
stated that after the ADX Florence incident, the BOP initiated several
corrective actions and plans to initiate others to improve its monitoring of
international terrorist communications. For example, the BOP hired full-
time staff to translate Arabic communications, started upgrading its
intelligence analysis capabilities, and developed policies to limit high-risk
inmates’ mail and telephone calls.

       However, the Director and BOP managers stated that the BOP cannot
fully implement the planned initiatives because of budget constraints and
an increasing inmate population. Consequently, the threat remains that
terrorist and other high-risk inmates can use mail and verbal
communications to conduct terrorist or criminal activities while
incarcerated.

       We now provide a description of our main findings.

BOP does not read a sufficient amount of inmate mail.

       At each of the 10 institutions we visited, staff members told us that
their institution does not meet the BOP goal of reading all the mail of
inmates on the institution’s mail monitoring list to detect terrorism or other
criminal activity. Furthermore, the staff at those institutions reported wide



       2 Monitoring the mail consists of inspecting for drugs, weapons, explosives, and
other contraband and reading mail for suspicious content. Our report focused on the
BOP’s procedures for reading mail.

       3 SAMs are used when there is a substantial risk that communications can lead to
death or bodily harm. The Attorney General must approve each use of SAMs.



U.S. Department of Justice                                                                ii
Office of the Inspector General
Evaluation and Inspections Division
variations in the amount of mail randomly read for inmates not on mail
monitoring lists. 4

Mail Monitoring Lists

       Although the BOP has not stated it in written guidance, the BOP
expects staff to read 100 percent of the mail for inmates on monitoring lists,
according to the BOP Assistant Director for the Correctional Programs
Division. However, according to Special Investigative Supervisor (SIS) staff
at the 10 institutions that we visited, this goal has not been attained. 5 In
fact, at seven of the institutions we visited, SIS staff told us that their
reading of mail for inmates on mail monitoring lists had decreased during
the past year. The SIS staff attributed the decrease to the reallocation of
positions assigned to the SIS office as part of BOP-wide streamlining
initiatives. SIS staff members stated that with less staff, mail monitoring,
when combined with other responsibilities such as monitoring inmate
telephone calls and carrying out investigative duties, is overwhelming. They
stated that their heavy workload leaves them less time to gather and analyze
intelligence on inmate activities through reading mail.

       At three institutions we visited, the amount of mail SIS staff
monitored also was affected by the BOP’s rotational assignment policy. At
these institutions, some of the mail monitoring was done by telephone
monitors who assisted permanent SIS staff in performing both telephone
and mail monitoring. Because the telephone monitor position was a 3-
month rotational assignment, permanent SIS staff had to train a new
telephone monitor each quarter, which they described as time-consuming. 6
Unlike permanent SIS staff, the rotational staff members were not familiar
with inmates on the mail monitoring list or with what might be unusual
content in the inmates’ mail, such as suspicious language, codes, or signs
that a letter was from another inmate. The steep learning curve for
rotational SIS officers reduced the amount of communications monitored.
At the other seven institutions we visited, the BOP’s rotation policy was not
an issue because the institutions either did not have telephone monitor

        4 We relied on the statements of staff at the institutions to characterize the amount

of reading that they perform because the BOP does not collect data on the volume of inmate
mail sent or received at any institution, the amount of mail of inmates on mail monitoring
lists that is read, or how much mail is randomly read.

       5  Each BOP institution has an SIS office, which is responsible for advising executive
staff on security matters, conducting inmate and staff investigations, and gathering
intelligence through monitoring of inmate communications.

       6  An institution’s Correctional Officers may bid for a rotational assignment. The
selection for the assignment is based on seniority.

U.S. Department of Justice                                                               iii
Office of the Inspector General
Evaluation and Inspections Division
positions or the incumbents of the telephone monitor positions had
sufficient seniority to retain the positions.

       At two of the institutions we visited, the temporary assignments of SIS
staff to cover vacant security posts elsewhere in the institution further
reduced the level of mail monitoring and intelligence gathering that the SIS
offices could accomplish. SIS staff stated that as a result, when they were
able to read the mail it was done in a rushed manner that risked missing
valuable intelligence.

       Federal Bureau of Investigation (FBI) Special Agents assigned to the
institutions we visited also expressed concern about the reduced level of
monitoring and staffing in some SIS offices. Much of the agents’ knowledge
about inmates and leads on potential terrorist and criminal activities came
from the SIS offices’ monitoring of inmate mail and verbal communications.
The FBI agents said vigorous monitoring on the part of the BOP is needed to
obtain important intelligence information about subjects outside the prison
as well as about inmates.

Random Reading of Mail

        Although the BOP does not track the amount of incoming and
outgoing mail for inmates who are not on monitoring lists, we found wide
variations in the amount of mail randomly read at the institutions we
visited. Random reading of inmate mail, which is done by mailroom staff
(incoming mail) and Housing Unit Officers (outgoing mail) rather than SIS
staff, is important to gather intelligence on potential criminal and terrorist
activity, as well as to identify unusual inmate behavior. Random reading
also can detect inmates on the mail monitoring list who are attempting to
circumvent SIS monitoring by using unmonitored inmates to send and
receive mail for them.

       Despite the importance of random reading, the BOP’s policy for
inmate correspondence and mail management does not require institutions
to track the amount of incoming or outgoing mail, does not set targets for
random reading by staff, and does not require each institution to measure
the level of random reading achieved. When we asked the institutions we
visited to track the volume of incoming mail and the amount randomly read
for a short test period, the reported percentages of mail read varied from 0.3
percent to 75 percent.

      At seven institutions, mailroom staff told us that the high volume of
mail, short processing deadlines, and staff reductions have decreased the
amount of random reading of inmate mail and the amount of suspicious


U.S. Department of Justice                                                   iv
Office of the Inspector General
Evaluation and Inspections Division
content mailroom staff can identify and refer to the SIS office for follow-up.
In contrast, outgoing inmate mail is more likely to get read than incoming
mail. At each of the institutions we visited, Housing Unit Officers on the
12 a.m. – 8 a.m. shift, when inmate movement and activities are minimal,
sort, search, and randomly read outgoing mail. These officers have less
mail volume and more time than day-shift mailroom staff to review the mail
for both contraband and content.

Capability to translate foreign language mail does not sufficiently
support monitoring needs.

       Although the BOP is largely responsible for translating inmates’
foreign language communications to detect terrorism and other criminal
activities, its system for translating mail is inadequate. 7 The BOP primarily
uses staff members who volunteer to translate foreign language mail as a
collateral duty, and it does not have a comprehensive policy that
(1) provides standard procedures or requirements for staff translations,
(2) requires staff acting as translators to have a certain level of language
proficiency and be tested for proficiency, and (3) establishes a procedure to
randomly review the accuracy of translations. As a result, according to SIS
staff, BOP volunteer staff translations are inconsistent, translators have
varying levels of language proficiency, and some translations have been
faulty.

        Moreover, the BOP does not have enough staff members fluent in
foreign languages to provide all necessary translations, especially for inmate
communications in Spanish, the most frequently spoken foreign language.
The shortage of staff translators is aggravated by the BOP’s inconsistently
applied and ineffective incentives to motivate staff with needed language
skills to translate voluntarily, as well as by some supervisors’ lack of
support for such collateral translation duties. In 2005, the BOP hired its
first staff members dedicated to translating foreign language inmate
communications – three full-time Arabic Language Specialists at ADX
Florence. In late 2005, the BOP began providing intelligence training to
these Language Specialists to enable them to provide analyses of what they
translate.

     In an earlier effort to expand its capabilities, the BOP established the
Language Translation Services Project in 2003 to have international terrorist
inmates’ foreign language communications translated by General Services
Administration-approved contract translators. Services under the centrally
funded contracts are expensive and limited to terrorism inmates’

       7  The BOP is responsible for translating inmate foreign language communications,
except for the 34 inmates under SAMs who are the responsibility of the FBI.

U.S. Department of Justice                                                            v
Office of the Inspector General
Evaluation and Inspections Division
communications in Middle Eastern and Asian languages. To translate other
inmate communications, institutions must find and fund any non-BOP
translation resources themselves. We found that the institutions do not
always have the money to pay for external translation services, and federal
agencies such as the FBI that do not require reimbursement for translations
they provide often do not have enough translators to meet the institutions’
needs.

Intelligence capability to analyze the content of terrorist inmates’ mail
is not well developed.

       We found that the BOP lacks sufficient intelligence capability to
adequately analyze information from inmate mail to detect terrorist activity.
Although historically SIS staff members have analyzed intelligence to detect
and deter traditional criminal activity, they have yet to develop the
specialized capabilities needed to analyze potential terrorism
communications. SIS staff members have implemented investigative
techniques and established relationships with other law enforcement
agencies that assist them in gathering and analyzing information about
criminal activity such as the introduction of drugs and gang violence inside
the prisons. But the methods BOP staff use to analyze intelligence for
traditional criminal activity are often not sufficient for detecting terrorist
activity, which entails analyzing communications in uncommon foreign
languages, understanding extremist ideology and radicalization,
understanding world-wide terrorism networks, performing link analysis, and
overseeing the enforcement of SAMs. 8

       While the presence of international terrorist inmates in BOP
institutions makes improving the SIS staff’s ability to detect terrorist activity
essential, the BOP does not provide the intelligence training needed to
adequately undertake that work. At the institutions we visited, BOP officials
and staff told us that staff directly responsible for monitoring terrorist and
high-risk inmates need additional intelligence training to adequately analyze
inmate mail for terrorist inmates. We found that the BOP has provided only
one 3-day course to SIS supervisors in September 2005, two classes that
contained terrorism information during a mandatory 4-day introductory
course on investigative practices for all newly appointed SIS Lieutenants,
and 1 hour of training to all employees during their Annual Refresher
Training.

      We also found that the BOP has not taken full advantage of the
greater access to intelligence, information sharing, and resources it can

       8  Link analysis is the process of identifying what relationships exist between objects
that are not apparent from isolated pieces of information.

U.S. Department of Justice                                                                vi
Office of the Inspector General
Evaluation and Inspections Division
obtain through federal law enforcement task forces, particularly the FBI’s
Joint Terrorism Task Forces (JTTF). The BOP took a key step in that
direction in 1999 when it established Intelligence Operations Officer (IO)
positions at 12 of its Metropolitan Detention Centers (MDC) and
Metropolitan Correctional Centers (MCC). The IOs were intended to act as
the institutions’ link with all federal law enforcement task force operations,
including the JTTFs. But we found that neither MCC New York nor MDC
Brooklyn – which both house terrorist inmates – had their IOs serving on
the local JTTF. The MDC Brooklyn IO was not currently serving as a
member of the JTTF due to other workload demands and the MCC New York
IO was only designated to be a liaison on the JTTF. Of five other BOP
institutions we contacted, two had IOs who were full-time JTTF members;
the IOs at the other three were part-time members or liaisons. 9

Problems affecting the BOP’s monitoring of mail also affect monitoring
of telephone calls and other verbal communications.

       Similar to the deficiencies we found in the BOP’s mail monitoring, we
found that the BOP is unable to effectively monitor inmates’ verbal
communications, including telephone calls, visits with family and friends,
and cellblock conversations. Because of staffing reductions and the
limitations of the BOP’s foreign language translation capability, none of the
institutions we visited consistently met the BOP goal of monitoring
100 percent of telephone calls for inmates on telephone monitoring lists. 10
Institutions also did not consistently meet Regional Directors’ goals of
randomly monitoring 10 to 15 percent of other inmates’ calls. For the calls
that are monitored, many staff members were not adequately trained to
recognize suspicious content in terrorist inmates’ conversations. We also
found that because of these same limitations, the BOP did not monitor the
cellblock conversations of SAMs inmates or the visiting room conversations
of international terrorist and other high-risk inmates who were not under
SAMs. In addition, a lack of audio recording equipment was a further
barrier to recording cellblock and visiting room conversations at most
institutions.




       9  A member of the JTTF is supervised by and receives assignments from an FBI
JTTF squad leader. A JTTF liaison is not a participating member of the JTTF, but rather
only acts as a point of contact.

       10Institutions can track the volume of inmate telephone calls and the number
monitored through the electronic telephone system.



U.S. Department of Justice                                                            vii
Office of the Inspector General
Evaluation and Inspections Division
Telephone Monitoring Lists

       According to BOP telephone records, 8 of the 10 BOP institutions we
visited were not consistently meeting the BOP’s goal of monitoring 100
percent of the conversations of inmates on telephone Alert lists. 11 Even the
country’s highest security federal prison, ADX Florence, which houses the
most dangerous high-risk inmates, monitored less than 50 percent of the
calls of inmates on the Alert list in fiscal year (FY) 2005.

       At seven of the institutions we visited, staff members told us that
three factors reduced the amount of calls being monitored for inmates on
the Alert and regular telephone monitoring lists along with the amount of
intelligence gathering and analyses that could be conducted: the rotation of
staff in the SIS telephone monitor position, the loss of those positions in
some institutions, and the use of SIS staff to cover vacant security posts
elsewhere in the institutions. Additionally, as with mail monitoring,
telephone calls conducted in foreign languages were often not translated
and therefore not monitored, including calls from inmates on the telephone
Alert list. BOP staff who conducted telephone monitoring in 5 of the 10
institutions we visited stated that if the institution did not have a staff
member readily available to translate a foreign language telephone call, it
was unlikely to get translated, even though calls are recorded. As a result of
the limited monitoring of Alert and foreign language telephone
communications, important intelligence information can be missed.

Random Telephone Monitoring

       In addition, we found only three institutions met or surpassed the
monthly goals set by Regional Directors for randomly monitoring 10 to
15 percent of all other telephone calls placed by inmates. Random
telephone monitoring can be conducted by any BOP staff member granted
access to the telephone system, not just by SIS staff. Nonetheless, most of
the institutions we visited did not consistently meet their monthly goals.
Also, according to BOP staff who monitor inmate telephone calls, translation
of foreign language calls remains a problem during random monitoring.

Audio Recording of Cellblock Conversations and Visits

      Only one of the four institutions we visited that house SAMs inmates
recorded those inmates’ cellblock conversations as authorized under federal
regulations and SAMs procedures. SIS and other management staff at the

       11  Alert lists are a subset of the telephone monitoring lists and include inmates that
meet special criteria, including those convicted of terrorist activities. Alert calls trigger a
signal on the telephone system so that SIS staff know they are to monitor the call “live.”

U.S. Department of Justice                                                               viii
Office of the Inspector General
Evaluation and Inspections Division
other three institutions stated that while they wanted to monitor such
cellblock conversations, they were constrained by a lack of equipment, staff,
and translators. ADX Florence was able to record SAMs inmates’ cellblock
conversations because the prison already had recording equipment available
as part of the cellblock construction.

       We also found that the BOP has no guidelines specifying when
cellblock conversations of SAMs inmates are to be recorded. In addition,
neither the FBI nor the U.S. Attorneys’ Offices (USAO) for the sites we
visited had ever requested that the BOP record cellblock conversations of
SAMs inmates.

       Inmates under SAMs are permitted to have only non-contact visits
that are recorded and monitored live by the FBI. 12 However, terrorist and
high-risk inmates not under SAMs are permitted contact visits, and none of
the 10 institutions we visited had the capability to make audio recordings of
conversations in the institutions’ large contact visiting rooms. 13 BOP staff
stated that inmates realize that their telephone conversations and mail are
monitored and consequently direct their family and friends to visit because
they know that audio monitoring is not conducted in the visiting rooms.
Therefore, BOP staff told us that they want the capability to listen to visiting
room conversations of selected inmates not under SAMs to detect planned
terrorist and criminal activities or other inappropriate behavior.

       However, the BOP does not have a policy addressing the recording of
social visits for non-SAMs terrorist and high-risk inmates to guide
institutions on when and how to carry out this type of monitoring. Further,
recording visiting room conversations would be difficult because the rooms
are often noisy and, without specialized equipment, specific conversations
would be inaudible among the many other ongoing conversations. In
addition, the institutions’ limited SIS, visiting room, and translator staff
members would be further stretched by the additional responsibility of
recording and listening to contact visit conversations.



        12 Non-contact visits do not allow any physical contact between inmates and their

visitors. Non-contact visits are conducted in special booths separate from the “contact”
visiting rooms, and the booths have physical barriers such as glass partitions. Only a
small number of inmates are required to have non-contact visits: inmates under SAMs and
inmates whose visitation privileges have been restricted as a result of disciplinary action.

       13  Contact visits allow inmates to meet with visitors without physical barriers
between them. Limited physical touching is permitted, such as a quick kiss, embrace, or
handshake at the beginning and end of the visit. Contact visits are conducted in a large,
open visiting room with numerous inmates and visitors in the room at the same time.

U.S. Department of Justice                                                              ix
Office of the Inspector General
Evaluation and Inspections Division
The Department’s coordination and information sharing for
international terrorist inmates are inadequate.

      The Department does not have a policy requiring that all inmates
arrested for international terrorism-related crimes be reviewed to determine
whether they should be placed under SAMs. Without a requirement for a
SAMs review, there is no guarantee that international terrorist inmates will
be considered for SAMs. Consequently, terrorist inmates who pose a risk of
continuing their terrorist activities may not receive the heightened security
and communications monitoring they require during pretrial and post-
conviction incarceration.

      We also found that the FBI’s intelligence gathering and information
sharing on incarcerated terrorists vary widely among FBI field offices. At
two of the five FBI offices at the sites we visited, FBI agents conducted little
to no proactive intelligence gathering regarding the activities of the terrorist
inmates or inmates described as terrorist associates. For example, the FBI
agent assigned to ADX Florence did not closely monitor terrorist inmates
housed at that facility until August 2004 – when Spanish authorities told
the FBI that the three 1993 World Trade Center bombers housed at the ADX
had been corresponding with Islamic extremists in Spanish prisons and
elsewhere. The ADX Florence SIS staff told us that the FBI showed little to
no interest in the international terrorist inmates prior to that time. We
believe that better information gathering and intelligence sharing between
the BOP and the FBI could have identified the need to place those three
ADX inmates under SAMs.

       Officials at institutions housing SAMs inmates also told us in January
2006 that they were experiencing backlogs of FBI mail and telephone
translations for these inmates. SAMs provisions require the FBI to complete
translations of inmate communications within 60 days. Staff members in at
least three of the institutions we visited reported delays of 6 to 18 months in
obtaining Arabic translations of SAMs inmate letters from the FBI. An FBI
official said the FBI does not have enough Arabic translators to meet the
demand for translations for all the FBI’s ongoing counterterrorism efforts.
Consequently, the official said the FBI must prioritize the translation
workload, which leads to delays in obtaining translations. These delays in
translations for SAMs inmates pose a security risk because plans for
terrorist and criminal activities could be communicated to or by inmates
through the mail or telephone and implemented by outside contacts before
translations are completed and the intelligence gleaned from them shared.

     Further, staff at MCC New York told us that law enforcement agencies
and USAOs do not provide adequate information about newly incarcerated


U.S. Department of Justice                                                   x
Office of the Inspector General
Evaluation and Inspections Division
terrorist inmates to allow the staff to determine the level of mail monitoring
and other security measures required. The BOP depends on the arresting
agency and the USAO to provide information on the inmates’ background,
criminal history, and security threat. However, staff at MCC New York
reported that they routinely receive pretrial terrorist inmates with little
background information other than the charges under which the inmates
are being held. The staff told us that the lack of information about inmates
puts the security of staff and the institution at risk.

BOP Initiatives

       The BOP has several ongoing and proposed initiatives to improve the
monitoring of communications for terrorist and other high-risk inmates.
The initiatives include building stronger foreign language translation and
intelligence analysis capabilities within the BOP, consolidating all terrorist
inmates in a few institutions in order to concentrate the resources required
to monitor them, limiting the volume of mail and other types of
communication available to terrorists or other high-risk inmates, and
eliminating unsolicited (junk) mail for all inmates.

      Arabic Translators - In 2005 the BOP hired three full-time Arabic
Language Specialists at ADX Florence. These Language Specialists also are
available to translate for other institutions. The Language Specialists are
required to have Top Secret security clearances and be certified proficient in
Arabic by the FBI.

      Language Translation Software - The BOP is exploring the use of
language translation software. BOP officials said that although such
language software is promising, it does not yet meet BOP standards for
accuracy. Therefore, the BOP plans to use language translation software
only to initially assess inmate communications in the absence of a qualified
translator.

      Counterterrorism Unit - The BOP is developing a headquarters-level
Counterterrorism Unit where four additional full-time Arabic Language
Specialists will be co-located with BOP Intelligence Analysts. The BOP
believes that co-locating the Language Specialists will improve the accuracy
and timeliness of translations of inmate communications. The goals of the
unit are to consolidate counterterrorism intelligence, produce intelligence
products for BOP institutions, improve information sharing on terrorism
matters with the FBI and other federal and state law enforcement agencies,
and manage BOP translation services.




U.S. Department of Justice                                                  xi
Office of the Inspector General
Evaluation and Inspections Division
      Counterterrorism Training - The BOP said it is collaborating with the
FBI to develop training targeted to the BOP’s specific needs of managing
high-risk inmates. BOP officials said they are assessing various
counterterrorism and intelligence training to determine which topics would
be most applicable to the correctional setting.

       Link Analysis Database - In June 2004, the Intelligence Section at
BOP headquarters created a terrorist inmate database to conduct link
analyses. The database includes information on inmate correspondence,
telephone calls, and financial transactions. The BOP is seeking to enhance
its link analysis capabilities to include all existing data systems that contain
inmate information.

       Consolidation of International Terrorist Inmates - The BOP is planning
to consolidate all international terrorist inmates in approximately six
institutions for enhanced management and monitoring. The BOP believes
that this consolidation will allow it to achieve better counterterrorism
coverage with its limited intelligence, counterterrorism, and translation
resources, while allowing the remaining institutions to concentrate on gang-
related activity and other prison-based issues.

       Limiting Mail and Verbal Communications - The BOP is developing a
new policy that would permit it to limit the communications of inmates
detained or charged with any terrorist-related activity upon request from the
FBI or other law enforcement agency, or if BOP identifies a need to impose
such restrictions. Under this policy, the BOP could limit an inmate to
communicating only with immediate family members, courts, the inmate’s
attorney, members of Congress, law enforcement agencies, and other
specified entities. In addition, the BOP is considering other limits on such
inmates’ communications. As of July 2006, the BOP was coordinating the
final policy with the Department.

      The BOP also is developing a policy to limit or eliminate unsolicited
junk inmate mail. This limitation would reduce the overall volume of mail
so that institutions could better focus their efforts on inspecting the mail for
contraband and reading it for evidence of criminal activity. The BOP
anticipated sending this proposed policy to the Department for review in
August 2006.




U.S. Department of Justice                                                  xii
Office of the Inspector General
Evaluation and Inspections Division
FBI Initiatives

       The FBI Assistant Director for Counterterrorism told us that during
FY 2005 the FBI sought to identify more systematically where terrorists are
incarcerated, as well as better monitor their activities and identify who they
are communicating with. Toward that end, the FBI directed all field offices
to open case files on all incarcerated international terrorist inmates within
their jurisdictions. Before this change in policy, the FBI case agent who had
arrested an inmate was responsible for monitoring that inmate, no matter
where the inmate was eventually incarcerated. The FBI expected this policy
change to increase communication between the FBI and the BOP because
the jurisdiction and responsibility for monitoring international terrorist
inmates now resides with the FBI office closest to where the prison is
located. Additionally, the FBI has agreed to assist in training BOP staff in
counterterrorism issues.

CONCLUSION AND RECOMMENDATIONS

       Our review found that the BOP has not ensured that mail for terrorist
and other high-risk inmates on its monitoring lists is consistently read and
analyzed to detect terrorism, criminal activities, or other inappropriate
behavior. Although the BOP expects 100-percent monitoring of inmate
communications for inmates on monitoring lists, we found that BOP
institutions do not read all the mail for these inmates. The BOP also does
not have enough trained staff to translate foreign language mail or adequate
staff trained in terrorism and intelligence techniques to analyze the content
of mail to and from inmates convicted of terrorism-related offenses.

       The problems that we found with mail monitoring also have
implications for the BOP’s monitoring of verbal communications. For
example, BOP institutions do not always monitor the telephone calls of
inmates on telephone monitoring lists, and as with mail monitoring, the
foreign language translations and intelligence analyses of inmate telephone
calls and other communications are not consistently performed.

      Our report contains 15 recommendations to help the BOP improve its
monitoring capabilities for inmate mail and verbal communications, among
them:

       •   We recommend that the BOP ensures that all mail of inmates on
           its mail monitoring lists is read and that targets are set and
           measured for random reading of other inmate mail, including
           translation of foreign language mail.



U.S. Department of Justice                                               xiii
Office of the Inspector General
Evaluation and Inspections Division
       •   For inmate communications requiring translation, we recommend
           that the BOP issue guidance that establishes procedures for
           conducting quality in-house translations and offer more language
           training, especially in Spanish, to staff who perform collateral
           translation duties.

       •   We recommend that the BOP provide advanced and continuing
           counterterrorism intelligence training to its full-time Language
           Specialists, SIS staff, and intelligence staff, and strengthen its
           access to intelligence information through membership on the
           FBI’s Joint Terrorism Task Forces.

       •   We recommend that the BOP ensure that all telephone calls of
           inmates on the telephone monitoring lists are monitored, including
           foreign language calls, and that random monitoring of other inmate
           telephone calls includes a target for monitoring a percentage of
           foreign language calls.

       •   We recommend that the BOP consider implementing audio
           monitoring of cellblock conversations of all SAMs inmates. In
           addition, we recommend that the BOP issue guidance to its
           institutions that explains how recording cellblock conversations
           and visits will be used within the BOP for detecting, deterring, and
           investigating terrorist and criminal activities.

       •   We recommend that the Criminal Division and the National
           Security Division, on behalf of the Department, develop a
           coordinated and mandatory review process for the FBI, USAOs, the
           Criminal Division, and the National Security Division to determine
           applicability of SAMs for all inmates incarcerated for terrorism-
           related crimes, pretrial and post-conviction.




U.S. Department of Justice                                                      xiv
Office of the Inspector General
Evaluation and Inspections Division
                                 TABLE OF CONTENTS


LIST OF ACRONYMS

GLOSSARY

BACKGROUND ......................................................................................1

SCOPE AND METHODOLOGY OF OIG REVIEW ..................................16

RESULTS OF THE REVIEW.................................................................19

        The BOP does not read a sufficient amount of inmate mail....19

                The BOP does not read all the mail of inmates on
                SIS mail monitoring lists....................................................19

                The BOP does not adequately manage the amount
                of mail for inmates that is randomly read...........................22

                The BOP does not track the amount of incoming or
                outgoing foreign language mail or maintain data on
                the foreign languages that inmates use ..............................27

                Developments and future plans .........................................27

                Recommendations .............................................................28

        The BOP’s capability to translate foreign language
        mail does not sufficiently support monitoring needs..............29

                The BOP does not have agency-wide standard
                procedures for conducting in-house translations ...............30

                The BOP volunteer staff who translate inmate
                communications are not subject to language proficiency
                requirements, and the BOP has no policy requiring
                translations be checked for accuracy .................................33

                The BOP does not have enough staff to translate inmate
                communications, especially for inmate communications
                in Spanish .........................................................................34



U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
               The BOP does not offer effective incentives to motivate
               staff with needed language skills to translate voluntarily
               and some supervisors do not support translating as a
               collateral duty ...................................................................35

               The BOP does not offer sufficient intelligence training
               to full-time Language Specialists .......................................37

               The Language Translation Services Project is a
               valuable but limited resource for institutions that house
               international terrorist inmates ...........................................38

               Developments and future plans .........................................41

               Recommendations .............................................................43

       Intelligence capability to analyze the content of
       terrorist inmates’ mail is not well developed ..........................44

               The BOP does not provide its SIS staff with the
               intelligence training needed to adequately monitor
               terrorist inmate mail..........................................................44

               The BOP does not take full advantage of existing access
               to information and intelligence through its Intelligence
               Operations Officers ............................................................48

               Developments and future plans .........................................50

               Recommendations .............................................................51

ADDITIONAL ISSUES ..........................................................................52

       The BOP does not monitor a sufficient amount of inmate
       telephone calls ..........................................................................52

               Alert telephone calls of terrorist and other high-risk
               inmates are not always monitored .....................................53

               Telephone calls of other inmates on telephone
               monitoring lists are not consistently monitored..................54

               The frequent rotation of telephone monitors and the
               reallocation of some positions in the SIS offices reduce
               intelligence gathering and analysis ....................................54

U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                Translation of foreign language telephone calls is
                sporadic ............................................................................56

                Although some institutions meet or exceed their goals
                for random telephone monitoring, random monitoring
                is still inconsistent ............................................................57

                Developments and future plans .........................................58

                Recommendations .............................................................58

        Audio recording of cellblock conversations of SAMs
        inmates occurs at only one institution....................................58

                Recommendation ...............................................................59

        The BOP has limited capability to monitor conversations
        of terrorist and other high-risk inmates during social
        visits ..........................................................................................59

                Recommendation ...............................................................60

        The Department does not have a mandatory review
        process to require that all international terrorist inmates
        are considered for SAMS upon initial incarceration and
        after conviction.........................................................................61

        The FBI’s intelligence gathering on terrorist inmates and
        information sharing with BOP institutions are inconsistent ..62

        MCC New York does not receive adequate information
        about newly incarcerated terrorist inmates to determine
        required monitoring ..................................................................66

        Recommendations ....................................................................67

CONCLUSION ......................................................................................68

APPENDIX I:              BOP PROGRAM STATEMENT 5265.11, POLICY
                         FOR REJECTING INMATE CORRESPONDENCE.....70

APPENDIX II:             JOB DUTIES OF SIS POSITIONS ............................71




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX III:        INMATE RESTRICTIONS AND FBI
                      RESPONSIBILITIES RELATED TO SPECIAL
                      ADMINISTRATIVE MEASURES ...............................75

APPENDIX IV:         THE FEDERAL BUREAU OF PRISONS’
                     RESPONSE...............................................................77

APPENDIX V:          OIG’S ANALYSIS OF THE FEDERAL BUREAU
                     OF PRISONS’ RESPONSE ........................................86

APPENDIX VI:          THE CRIMINAL DIVISION’S RESPONSE.................94

APPENDIX VII:         OIG’S ANALYSIS OF THE CRIMINAL DIVISION’S
                      RESPONSE ..............................................................96

APPENDIX VIII: THE FEDERAL BUREAU OF INVESTIGATION’S
               RESPONSE ..............................................................99

APPENDIX IX:          OIG’S ANALYSIS OF THE FEDERAL BUREAU
                      OF INVESTIGATION’S RESPONSE........................100




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                             LIST OF ACRONYMS


   ADX                Administrative Maximum Facility
   ATAC               Anti-Terrorism Advisory Council
   BOP                Federal Bureau of Prisons
   CTS                Counterterrorism Section
   FBI                Federal Bureau of Investigation
   FCI                Federal Correctional Institution
   FDC                Federal Detention Center
   FY                 Fiscal Year
   GSA                General Services Administration
   INTRUDR            Inmate Trust Fund Digital Recorder
   IO                 Intelligence Operations Officer
   ISM                Inmate Systems Management
   ISO                Inmate Systems Officer
   JTTF               Joint Terrorism Task Force
   LSCI               Low Security Correctional Institution
   MCC                Metropolitan Correctional Center
   MDC                Metropolitan Detention Center
   NCIC               National Crime Information Center
   NJTTF              National Joint Terrorism Task Force
   OEO                Office of Enforcement Operations
   OIG                Office of the Inspector General
   R&D                Receiving and Discharge
   SAMs               Special Administrative Measures
   SIS                Special Investigative Supervisor
   USAO               U.S. Attorney’s Office
   USP                U.S. Penitentiary




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                      GLOSSARY


Bid Position – A bid position is a post in which a BOP Correctional Officer
can make a request for assignment. Post assignments are generally based
on seniority.

BOP Administrative Facilities – Administrative facilities are institutions
with special missions, such as the detention of pretrial offenders; inmates
with serious medical problems; or the containment of extremely dangerous,
violent, or escape-prone inmates. Administrative facilities include
Metropolitan Correctional Centers, Metropolitan Detention Centers, Federal
Detention Centers, and Federal Medical Centers, as well as the
Administrative Maximum U.S. Penitentiary at Florence, Colorado.
Administrative facilities are capable of holding inmates in all security
categories.

BOP Intelligence Operations Officer (IO) – The IO position exists at BOP
institutions in select metropolitan areas such as the Metropolitan
Correctional Centers and Metropolitan Detention Centers. This
management-level position is supervised by the Intelligence Operations
Officer (IO) located at the BOP Central Office in Washington, D.C. The IO
works with law enforcement agencies and the courts to obtain information
regarding inmates pending indictment or already in BOP custody. The
information is to be used for determining the inmate’s security risk to the
BOP and the public.

BOP Unit Manager – The Unit Manager directs and manages an inmate
housing unit and is responsible for the unit’s operation and security. The
Unit Manager also is responsible for planning, developing, implementing,
supervising, and coordinating individual programs for inmates, such as
educational and vocational training, substance abuse treatment,
counseling, and medical and health treatment.

Joint Terrorism Task Force (JTTF) – JTTFs are squads within the FBI’s
field and select resident agency offices that focus primarily on addressing
terrorism threats and preventing terrorist incidents. JTTFs are operational
units that respond to terrorism leads and conduct terrorism investigations.
The JTTFs pool the resources and expertise of multiple law enforcement
agencies, federal, state, and local, to collect and share counterterrorism
intelligence.




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
JTTF Liaison – A JTTF liaison is not a participating member of the JTTF,
but rather acts as a point-of-contact for an agency and may periodically
attend JTTF meetings.

JTTF Member – A member of the JTTF is supervised by and receives
assignments from an FBI JTTF squad leader. These assignments could
include assisting the JTTF in developing leads, conducting investigations,
interviewing subjects, providing intelligence to the FBI on BOP inmates, and
planning strategies for investigations to be conducted inside the BOP.

Link Analysis – Link analysis is the process of identifying what
relationships exist between objects that are not apparent from isolated
pieces of information.

Metropolitan Correctional Centers (MCC) and Metropolitan Detention
Centers (MDC) – MCCs and MDCs are administrative facilities
housing federal male and female inmates of all security levels who are
primarily pretrial and holdover inmates (i.e., they have been convicted but
are being held temporarily for a federal court appearance).

National Crime Information Center (NCIC) – NCIC is a computerized index
of criminal justice information (i.e., information on criminal histories,
fugitives, stolen properties, missing persons, foreign fugitives, immigration
violators, violent gangs, and terrorist organizations) maintained by the FBI.

National Joint Terrorism Task Force (NJTTF) – The NJTTF is a multi-
agency task force run by the FBI with representatives from the intelligence,
law enforcement, defense, diplomatic, public safety, and homeland security
communities. The NJTTF provides administrative, logistical, policy,
financial, and training support and guidance to the JTTFs. According to the
FBI, the NJTTF serves as the “point of fusion” for terrorism intelligence for
the JTTFs, member agencies, and others in the intelligence community.




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                  BACKGROUND


        In March 2005, news media reports revealed that three convicted
terrorists, Mohammed Salameh, Mahmud Abouhalima, and Nidal Ayyad,
incarcerated at the Federal Bureau of Prisons’ (BOP) Administrative
Maximum facility (ADX) in Florence, Colorado, for the 1993 bombing of the
World Trade Center, wrote over 90 letters to Islamic extremists outside the
prison between 2002 and 2004. 14 These extremists included inmates who
are members of a Spanish terror cell with links to other terrorists suspected
in the March 11, 2004, terrorist attacks on Madrid commuter trains. One of
the letters from Salameh was found in the possession of Mohamed Achraf,
described as the leader of a radical Muslim cell, who was charged in October
2004 in Spain for plotting to blow up the National Justice Building in
Madrid, which is Spain’s “nerve center” for investigating Islamic terror. 15
Salameh also praised Osama bin Laden as a hero in a letter sent to Arabic
newspapers. According to the March 2005 news reports, at least 14 letters
were exchanged between the three terrorists in ADX Florence and the
Spanish terror cell. In addition, 1 of the 17 people arrested in Spain for
recruiting suicide operatives used these letters in his recruitment efforts.
One of the news articles reported that a BOP employee who translated some
high-profile terrorism communications warned in 2003 that many “Arabic
letters and phone calls are unmonitored due to a lack of Arabic-speaking
staff.” 16

      The Office of the Inspector General (OIG) conducted this review to
evaluate how effectively the BOP prevents terrorist and other high-risk
inmates from using the mail or the cover of a foreign language to continue
or encourage criminal behavior, threaten the public, or compromise national
security. Because many of the BOP staff members who monitor mail also
monitor the inmates’ telephone calls, our review also examined the
monitoring of inmates’ verbal communications.

       14Lisa Myers, “Imprisoned Terrorists Still Advocating Terror,”
www.msnbc.msn.com/id/7046691, March 1, 2005, and Lisa Myers, “Jihad Letters From
Prison Went Far, Wide,” www.msnbc.msn.com/id/7140883, March 9, 2005 (March 21,
2005).

        Associated Press, “Spain Says Terrorist Plotted ‘Biggest Blow,’ ” October 20,
       15

2004, www.msnbc.msn.com/id/6282532 (March 6, 2006).

        16 We interviewed the employee and obtained a copy of the memorandum he sent to

his Warden in 2003 stating that Arabic communications were unmonitored because of a
lack of Arabic-speaking staff in the BOP. In this memorandum, he proposed that the BOP
direct all inmate correspondence and telephone calls in Arabic to three Arabic-speaking
BOP staff for translation. He never received a response to his proposal.


U.S. Department of Justice                                                      1
Office of the Inspector General
Evaluation and Inspections Division
The BOP’s Mission, Operations, and General Inmate Monitoring
Procedures

       The stated mission of the BOP is to protect society by confining
offenders in safe, humane, cost-efficient, and appropriately secure prisons
and community-based facilities that provide self-improvement opportunities
that assist them in becoming law-abiding citizens. 17 As of July 2006, the
BOP reported an inmate population of 191,224, an increase of 70 percent
from 10 years ago when the population was at 112,289. 18 The number of
high-risk inmates who have been identified as needing heightened security
monitoring, such as gang leaders, gang members, international and
domestic terrorists, also has increased over the last 10 years by
approximately 60 percent. As of July 2006, the BOP had identified 19,720
such inmates. During this same 10-year time period, the number of BOP
staff grew at a more modest rate of 14 percent, from 30,212 to 34,655. 19

       The BOP has a sizable percentage of foreign-born inmates and
inmates of Hispanic ethnicity. As of June 2006, 21.1 percent of inmates
were foreign citizens of Spanish-speaking countries, 6.0 percent were listed
as foreign citizens of other countries (non-Spanish-speaking) or unknown
citizenship, and 31.5 percent of the inmate population was of Hispanic
ethnicity (whether U.S. citizens or foreign citizens). 20

       Based on security and program needs, an inmate is assigned to a
particular BOP institution with an appropriate security level. An
institution’s security level is based on such features as the presence of
external patrols, towers, security barriers, or detection devices; the type of
housing within the institution; internal security features; and the staff-to-
inmate ratio. 21 As of June 2006, the breakdown of the BOP’s inmate
population at each security level was: minimum, 18.7 percent; low,


       17   BOP, State of the Bureau 2005, p. 5.

        BOP, Weekly Population Report, July 27, 2006,
       18

www.bop.gov/locations/weekly_report.jsp (July 27, 2006), and BOP, State of the Bureau
1997, www.bop.gov/news/PDFs/sob97.pdf (May 5, 2006).

       19 State of the Bureau 1997, BOP, www.bop.gov/news/PDFs/sob97.pdf (May 5,
2006), and “Quick Facts About the Bureau of Prisons,” June 24, 2006,
www.bop.gov/about/facts.jsp (July 14, 2006).

      20 BOP, “Quick Facts About the Bureau of Prisons,” June 24, 2006,

www.bop.gov/about/facts.jsp#1 (July 14, 2006).

      21 BOP, “Prison Facilities, Prison Types, General Information,”

www.bop.gov/locations/institutions/index.jsp (March 9, 2006).

U.S. Department of Justice                                                    2
Office of the Inspector General
Evaluation and Inspections Division
39.6 percent; medium, 26.3 percent; high, 10.3 percent; and unclassified,
4.9 percent. 22

Inmate Communications

       While in BOP custody, inmates are granted certain communication
privileges to maintain family and community ties. According to BOP policy,

       Contact with the public is a valuable tool in the overall
       correctional process. Toward this objective, the Bureau
       provides inmates with several means of achieving such
       communication. Primary among these is written
       correspondence, with telephone and visiting privileges
       serving as two supplemental methods. 23

       The BOP has established rules governing use of communication
privileges, and various staff members in the BOP institutions are
responsible for monitoring these communications to ensure that inmates
adhere to the rules and do not use any communication method to carry out
criminal behavior or behavior that would be considered a threat to the
security of the institution or the public. To monitor inmate
communications, institutions develop mail and telephone monitoring lists of
high-risk inmates, terrorists, and other inmates who are suspected of
criminal or suspicious activity. According to the BOP Assistant Director for
the Correctional Programs Division, the BOP’s goal is to monitor
100 percent of the mail and telephone communications for the inmates
placed on these monitoring lists.

      Mail. The BOP encourages correspondence that is directed to socially
useful goals. Inmates are therefore permitted to send and receive, with
minimal restrictions, correspondence to and from family, friends, or anyone
in the community. 24 Inmates also can receive a variety of publications such
as newspapers, magazines, and periodicals. The BOP’s limited restrictions
on inmate mail are consistent with American Correctional Association
standards, which state:



       22 The BOP also has administrative facilities with special missions, such as the
detention of pretrial offenders, inmates with serious medical problems, or inmates who are
extremely dangerous, violent, or escape-prone. The administrative facilities are designed to
securely house all security-level inmates.

      23 BOP, Telephone Regulations for Inmates, Program Statement 5264.07,

January 31, 2002.

       24   BOP, Correspondence, Program Statement 5265.11, July 9, 1999.

U.S. Department of Justice                                                       3
Office of the Inspector General
Evaluation and Inspections Division
       When the inmate bears the mailing cost, there is no limit on the
       volume of letters the inmate can send or receive or on the
       length, language, content, or source of mail or publications
       except when there is reasonable belief that limitation is
       necessary to protect public safety or institutional order and
       security. 25

       Inmate correspondence, however, can be rejected by the BOP based
on the content of the correspondence. Federal regulation
28 C.F.R. § 540.14d (2002) and BOP policy authorize prison officials to
review and reject inmates’ incoming and outgoing correspondence “if it is
determined detrimental to the security, good order, or discipline of the
institution, to the protection of the public, or if it might facilitate criminal
activity.” See Appendix I for the BOP’s policy on rejecting inmate
correspondence.

      To protect the security of its institutions, the BOP has the authority to
inspect and read all inmate mail. Inspection of mail is intended to detect
drugs and other contraband while reading inmate mail is intended to reveal,
for example, plans to commit criminal acts. 26 According to BOP policy, staff
are required to open and inspect all incoming mail prior to distributing it to
the inmates. Additionally, all incoming general correspondence is subject to
random reading by staff. 27 Inmates are notified in writing upon arrival at
an institution that the BOP has the authority to open all mail addressed to
inmates. If the inmate does not agree to this requirement, any mail
subsequently received for that inmate is returned to the post office. In
addition, a BOP Warden may place an inmate on restricted general
correspondence based on a misconduct or security needs. 28

       All outgoing mail in medium- and high-security and administrative
institutions is subject to random reading by staff. Outgoing mail from
inmates in minimum- or low-security institutions may be sealed by the
inmate and not read by staff unless:



        ACA Standard 4-4488, Standards for Adult Correctional Institutions, 4th edition,
       25

2003. American Correctional Association standards are considered the national
benchmark for the effective operation of correctional systems throughout the United States.

       26   BOP, Mail Management Manual, Program Statement 5800.10, November 3, 1995.

        27 BOP, Mail Management Manual, Program Statement 5800.10. Legal and other

specified special mail is opened and processed in the presence of the inmate.

       28 Restricted correspondence is general correspondence that is limited to a list of

authorized correspondents, such as the inmate’s immediate family.

U.S. Department of Justice                                                        4
Office of the Inspector General
Evaluation and Inspections Division
       •    The correspondence would interfere with the orderly running of the
            institution, be threatening to the recipient, or facilitate criminal
            activity.

       •    The inmate is on a restricted correspondence list.

       •    The correspondence is between inmates.

       •    The envelope has an incomplete return address. 29

      According to BOP policy, inmates are prohibited from corresponding
with inmates in other correctional institutions, unless the proposed
correspondent is a member of the inmate’s immediate family or is a party or
witness in a legal action in which both inmates are involved. In each
instance, the inmate’s Unit Manager must approve the correspondence, and
the approval of the Wardens of both institutions is required if one of the
inmates is housed at a non-federal institution. 30

       Telephone. The BOP extends telephone privileges to inmates as part
of its overall correctional management. The BOP considers telephone
communications “a supplemental means of maintaining community and
family ties that contribute to the inmate’s personal development.” 31
Inmates may submit up to 30 telephone numbers on their official Telephone
Number Request Form. 32 The numbers may be of immediate family
members or anyone else they choose, with the understanding that these
calls will be monitored. Inmates are issued an individual personal access
number and are allowed up to 300 minutes of calls per month to the
numbers listed on their forms, with each call generally limited to 15
minutes. Inmates are responsible for the expense of telephone use.

      The BOP can impose limitations and conditions on an inmate’s
telephone privileges to ensure the safety, security, and good order of the



       29   BOP, Correspondence, Program Statement 5265.11, July 9, 1999, pp. 9-10.

       30  A Unit Manager directs and manages an inmate housing unit and is responsible
for the unit’s operation and security. The Unit Manager also is responsible for planning,
developing, implementing, supervising, and coordinating individual programs for inmates.

      31 BOP, Telephone Regulations for Inmates, Program Statement 5264.07,

January 31, 2002.

        32 An Associate Warden may authorize the placement of additional numbers on the

list based on the inmate’s individual situation, such as the size of the inmate’s family.


U.S. Department of Justice                                                     5
Office of the Inspector General
Evaluation and Inspections Division
institution or to protect the public. 33 Unit management staff are
responsible for reviewing the inmate’s telephone list and verifying that the
numbers belong to the individuals listed. The Associate Warden may deny
placement of a telephone number on the inmate’s list if the Associate
Warden determines that there is a threat to institution security or public
safety. All inmate calls are recorded and subject to monitoring. The BOP
may restrict telephone privileges for any inmate who violates its telephone
policy, such as by using the telephone to engage in criminal activity.

      Visits. Inmates are permitted visits by family, friends, and community
groups. Inmates are required to submit a list of proposed visitors to their
unit management staff. Although there are no limitations on the number of
family members on the list, an inmate’s visiting list is generally limited to no
more than 10 friends and associates. 34

       BOP staff are required to obtain background information on potential
visitors who are not immediate family members before placing them on the
inmate’s approved visitor list in medium- and high-security and
administrative institutions. If insufficient background information is
available, visiting may be denied. The BOP conducts National Crime
Information Center (NCIC) checks as part of the background investigations
on proposed visitors. 35 Visits may be restricted or suspended for violation of
the visiting guidelines or if an inmate’s behavior indicates that the inmate
would be a threat to the security of the visiting room.

Foreign Language Translation Services

      The BOP cannot identify how many of its inmates communicate in a
foreign language. However, approximately 27 percent of the total BOP
inmate population comprises non-U.S. citizens, and some portion of these
inmates’ written and verbal communications requires translation for
monitoring purposes. The BOP primarily uses three sources for translation
services: volunteer staff members, three full-time staff Language Specialists,
and outside contractors.



       33BOP, Telephone Regulations for Inmates, Program Statement 5264.07,
January 31, 2002.

       34   BOP, Visiting Regulations, Program Statement 5267.07, April 14, 2003.

        35 NCIC is a computerized index of criminal justice information (criminal record

history information, fugitives, stolen properties, missing persons, foreign fugitives,
immigration violators, violent gang and terrorist organizations) maintained by the FBI.


U.S. Department of Justice                                                       6
Office of the Inspector General
Evaluation and Inspections Division
        The BOP relies mainly on staff who volunteer to translate foreign
language communications as a collateral duty. 36 The names of these
volunteers are listed in a BOP Directory of Translators, which is distributed
to all institutions. The BOP also has three full-time Arabic Language
Specialists at ADX Florence, hired in 2005, whose services are available to
other BOP institutions as well. To procure translation services from outside
contractors for what it deemed “exotic” languages, the BOP created the
Language Translation Services Project in 2003. 37 Intended to address the
increase in the number of international terrorist inmates whose foreign
language communications required translations, the project uses
contractors approved by the General Services Administration (GSA). In
addition, the BOP can use outside sources, such as universities or other law
enforcement agencies, for translations.

Special Investigative Supervisor Office Monitoring Responsibilities

       Every BOP institution has a Special Investigative Supervisor (SIS)
office, which is responsible for advising executive staff on security matters,
setting security policy, conducting inmate and staff investigations, and
gathering intelligence through monitoring of inmate communications.

       In each BOP institution, at least one lieutenant is assigned to carry
out the SIS responsibilities. In most institutions the position is either a GS-
12 Special Investigative Agent or a GS-11 Lieutenant (SIS Lieutenant) who
has successfully completed Advanced Lieutenant’s training, SIS training,
and a minimum of 6 months as a shift supervisor at the assigned
institution. The Special Investigative Agent position is non-rotational, but
SIS Lieutenants ordinarily rotate at 18-month intervals. The Warden has
the authority to assign additional staff to the SIS office. 38 SIS Technicians,
Intelligence Research Specialists, or Inmate Telephone Monitors are
assigned to the SIS office according to an individual institution’s staffing
level. The duties of each SIS position are described in Appendix II.

      To monitor inmate communications, SIS offices develop mail and
telephone monitoring lists. The names of high-risk, terrorist, and other

       36  The FBI, not the BOP, translates foreign language mail and telephone calls for
inmates under Attorney General Special Administrative Measures, which are discussed
later in the report.

       37 The BOP defines “exotic” languages as Middle Eastern, Pacific Island, and South

Asian languages.

      38 BOP, Role Authority and Scope of SIS Duties, Program Statement 1380.05,

Chapter 1, August 1, 1995, p. 1.


U.S. Department of Justice                                                       7
Office of the Inspector General
Evaluation and Inspections Division
inmates who are suspected of criminal or suspicious activity within the
institution are placed on the lists, and according to SIS staff, all their mail
and telephone communications are to be monitored. The BOP Central
Office, through various memorandums, requires 100-percent mail and
telephone monitoring for the inmates on these lists. In addition, the BOP
Assistant Director for the Correctional Programs Division stated in our
interview with him that the BOP expects 100 percent monitoring of mail and
telephone communications for these inmates.

      Mail. The SIS office at each institution is responsible for reading all
outgoing and incoming mail of inmates on the mail monitoring list, as well
as reading mail identified as suspicious through random reading
accomplished by mailroom staff and housing unit officers.

       Telephone. SIS staff monitor inmate telephone calls through the
following three methods:

       1. Telephone monitoring list – SIS staff at each institution develop a
          telephone monitoring list as a tool to monitor inmates under
          investigation, those suspected of engaging in criminal activity or
          violations of institutional rules, or based on prior behavior. The
          SIS office adds other inmates to the list based on information or
          intelligence it gathers from internal or external sources that
          indicates a need for monitoring. Many of the inmates who are on
          the telephone monitoring list also are on the mail monitoring list.
          The BOP Assistant Director for the Correctional Programs Division,
          and SIS staff told us that the goal is to monitor 100 percent of the
          inmates on the telephone monitoring list.

      2. Alert list – As a subset of the telephone monitoring list, some SIS
         offices maintain an Alert list for specific high-risk inmates. 39
         When these inmates make a telephone call, a symbol appears on
         the Inmate Trust Fund Digital Recorder (INTRUDR) system to alert
         staff that this inmate is currently on the telephone. 40 To the
         extent possible, Alert calls are to be listened to live; if staff are
         unable to listen live, they must listen to the recorded call later.
         The BOP goal is to monitor 100 percent of the calls of inmates on
         the Alert list.

       39 Some institutions, such as MDC Brooklyn and MCC New York, have a single
telephone monitoring list, which they refer to as their “Alert” list.

        40 INTRUDR records all inmate telephone calls, except calls to the inmates’

attorneys. During fiscal year (FY) 2005, INTRUDR recorded more than 39.3 million inmate
calls. BOP staff randomly monitored about 5.5 million (14 percent) of these calls.


U.S. Department of Justice                                                   8
Office of the Inspector General
Evaluation and Inspections Division
       3. Random monitoring – Each of the BOP Regional Directors
          establishes a percentage of inmate phone calls to be randomly
          monitored by the institutions in their region. Generally,
          institutions are required to monitor between 10 and 15 percent of
          all inmate calls per month. INTRUDR tracks the number of calls
          monitored and the identity of the staff members performing the
          monitoring. 41 SIS staff oversee random telephone monitoring.

Inmate Systems Management and Housing Unit Officers Mail Monitoring
Responsibilities

       The Inmate Systems Management (ISM) department in an institution
supervises mailroom operations to ensure the timely processing and
handling of inmate and official mail. Mail service is provided to inmates
Monday through Friday. ISM staff are responsible for ensuring that all
incoming and outgoing letter mail is ordinarily processed within 24 hours,
and incoming and outgoing packages processed within 48 hours, excluding
weekends and holidays. Staff are not required to keep records on the
volume of outgoing and incoming mail processed. ISM staff are required to
open and inspect all incoming mail for contraband (unauthorized material)
prior to distribution. They open all incoming packages in an outside
storeroom or warehouse (except at minimum-security institutions).
Inspection of mail may include the use of x-ray machines, metal detectors,
and manual or visual inspection. By BOP policy, all incoming
correspondence is subject to random reading by ISM staff. The ISM staff
also is responsible for separating the incoming mail of inmates on the mail
monitoring list and forwarding that mail to the SIS office for reading and
analysis, along with any other mail randomly read that contains suspicious
content.

      In addition to mailroom operations, the ISM department includes the
inmate records management and the receiving and discharge (R&D)
functions. The staff who work in the mailroom and R&D are called Inmate
Systems Officers (ISO). The ISOs generally rotate between assignments in



       41   The goals developed by the Regional Directors for random telephone monitoring
are as follows: Northeast Region, 10 percent; Mid-Atlantic Region, 15 percent; Southeast
Region, 15 percent; North Central Region, 10 percent; South Central Region, 15 percent;
Western Region, 15 percent. In addition to SIS staff, at some institutions Counselors, Unit
Managers, Associate Wardens, and other staff have access to INTRUDR from their desktop
computers. At one type of institution, U.S. Penitentiaries, primarily tower officers listen to
inmate telephone calls. There are no set procedures for randomly selecting inmate
telephone calls to monitor.


U.S. Department of Justice                                                         9
Office of the Inspector General
Evaluation and Inspections Division
the mailroom or R&D functions for fixed periods of time. 42 On heavy mail
volume days, such as Mondays or around holidays, or when the mailroom is
short-staffed, the mailroom enlists staff from the other ISM functions to help
process the mail and ensure timely delivery.

       Housing Unit Officers on the 12 a.m. to 8 a.m. “morning watch” shift
inspect and randomly read outgoing inmate mail. 43 They set aside and
deliver letters from inmates on the mail monitoring list to the SIS staff for
reading and analysis. If they find suspicious content while randomly
reading other inmates’ letters, they deliver these letters to the SIS office as
well.

     Figure 1 outlines the mail processing procedures for outgoing and
incoming inmate mail.




        42 R&D duties include processing inmate admissions and releases, including

identification (photography and fingerprints), data entry, and inmate property.

       43   The BOP has not established procedures for conducting “random reading.”

U.S. Department of Justice                                                     10
Office of the Inspector General
Evaluation and Inspections Division
        Figure 1: BOP Institution Inmate Mail Processing Procedures


                            Outgoing Mail                                               Incoming Mail


      Housing Unit                    The officer inspects       The ISO brings back to                  At the institution, staff
      Correctional Officer            each envelope for          the institution incoming                conduct an x-ray
      gathers inmate mail             contraband.                mail from the Post                      inspection of all mail to
      from mailboxes.                                            Office.                                 screen for weapons
                                                                                                         and explosives.




                                                                  ISO matches each piece                 ISO checks each
       The officer separates          The officer                 of mail individually                   package against the
       mail from inmates on           randomly reads the          against the inmate                     “approval list.”
       the SIS mail                   general population          roster, reviews return
       monitoring list and            mail.                       addresses and checks
       sets it aside.                                             for contraband.




                                                             ISO sets aside mail       ISO randomly             Unapproved
                                                             for inmates who           reads some               packages are
       Mail from inmates on           The officer seals      are on the SIS mail       incoming inmate          returned to the
       mail monitoring and any        the envelopes and      monitoring list.          mail, if time            Post Office.
       suspicious mail are            delivers the mail to                             permits.
       forwarded to SIS.              the mailroom.




 Inmate Systems Officers              An ISO delivers the
                                                                             Mail for inmates on         ISO reseals envelope
 (ISO) separate and                   outgoing mail to
                                                                             the mail monitoring         and delivers mail to the
 process the previous                 the local U.S. Post
                                                                             list and any                inmates the same day if
 day’s outgoing mail from             Office each
                                                                             suspicious mail is          no suspicious content is
 inmates and staff.                   weekday.
                                                                             forwarded to SIS.           found.




U.S. Department of Justice                                                                                     11
Office of the Inspector General
Evaluation and Inspections Division
Monitoring Through Special Administrative Measures

       Special Administrative Measures (SAMs), approved by the Attorney
General, may be applied to inmates whose communications require more
restrictive conditions. SAMs, developed in May 1996 and overseen by the
Department’s Office of Enforcement Operations (OEO) within the Criminal
Division, serve two purposes:

       •     Under 28 C.F.R. § 501.2 (1997), to prevent the unauthorized
             disclosure of national security information (classified information);
             and

       •     Under 28 C.F.R. § 501.3 (1997), to prevent acts of violence and
             terrorism. 44

     The Attorney General may authorize the BOP Director to implement
SAMs upon written notification to the BOP,

       That there is a substantial risk that a prisoner’s
       communications or contacts with persons could result in death
       or serious bodily injury to persons, or substantial damage to
       property that would entail the risk of death or serious bodily
       injury to persons. 45

The C.F.R. further states:

           These SAMs ordinarily may include housing the inmate in
           administrative detention and/or limiting certain privileges,
           including but not limited to, correspondence, visiting,
           interviews with representatives of the news media, and use of
           the telephone, as is reasonably necessary to protect persons
           against the risk of acts of violence or terrorism. 46




       44  The OEO oversees the use of investigative tools, such as SAMs, all federal
electronic surveillance requests, and requests to apply for court orders permitting the use
of video surveillance. The OEO also reviews requests by federal agencies to use federal
prisoners for investigative purposes and reviews the transfer of prisoners to and from
foreign countries to serve the remainder of their prison sentences.

       45   28 C.F.R. § 501.3 (1997).

       46   28 C.F.R. § 501.3 (1997).

U.S. Department of Justice                                                        12
Office of the Inspector General
Evaluation and Inspections Division
       Inmates who are under SAMs are restricted to communications and
visits with only immediate family members, and all such social
communications are monitored by the FBI. The BOP forwards all mail to
and from the SAMs inmates to the FBI for analysis and approval. The FBI is
required to return the approved mail to the BOP for delivery to the inmate or
addressee within 14 days. A period of 60 days is permitted if foreign
language translation is required or if there is reasonable suspicion that a
code was used and decoding is required. Telephone calls must be
monitored contemporaneously by the FBI and recorded. All calls must be in
English unless a fluent FBI translator is available to contemporaneously
monitor the call. The FBI listens later to the recordings to analyze whether
                                           the communication includes
    Relationship of the FBI to the BOP     messages that solicit or encourage
                                           acts of violence or other crimes or
Under 28 U.S.C. § 533, the FBI shares      attempts to circumvent the SAMs.
responsibility for investigating crimes on
federal property, including federal prison
facilities. (The OIG also has authority and
                                                          Except for visits with their
responsibility   to  investigate  allegations      lawyers, SAMs inmates are limited
regarding BOP employees and contractors.)          to visits with one adult immediate
                                                   family member. The visits are
Each BOP institution has an FBI Special            non-contact only and monitored
Agent assigned to investigate crimes that
occur within the prison. Depending on the
                                                   contemporaneously by the FBI.
size of the FBI field or resident agency office,   All communications during the
the prison, and the workload, the FBI may          visit must be in English unless a
assign one agent to cover criminal issues and      fluent FBI-approved translator is
a second agent to handle terrorism issues.         available. SAMs also can be
Criminal cases are investigated by local FBI
Special Agents with oversight by the Criminal
                                                   invoked to allow for monitoring of
Investigative Division at FBI headquarters.        conversations of inmates and their
BOP terrorism cases are investigated by the        attorneys and to screen inmates’
local Joint Terrorism Task Force, with             correspondence with their
oversight by the Counterterrorism Division at      lawyers. 47
FBI headquarters.

Because of the numbers of pretrial inmates at   SAMs may be recommended
BOP Metropolitan Correction Centers and  on a case-by-case basis by the FBI
Metropolitan Detention Centers, numerous and prosecuting U.S. Attorney’s
FBI agents interact with the BOP as case Office (USAO) independently or
agents at these facilities. These case agents
are responsible for communicating and
                                         jointly through the OEO and are
                                         initiated during either the pretrial
coordinating with the BOP concerning these
pretrial inmates.                        or post-trial period. The OEO
                                         reviews the initial SAMs requests,
and after obtaining the necessary supporting documentation, prepares a
memorandum to the Attorney General presenting the request and the

       47   28 C.F.R. § 501.3 (1997).


U.S. Department of Justice                                                   13
Office of the Inspector General
Evaluation and Inspections Division
measures to be implemented. The Attorney General approves all original
impositions of SAMs, and the Assistant Attorney General for the Criminal
Division can approve SAMs extensions or modifications to existing SAMs.
After the OEO drafts and submits an application for SAMs, it has no role in
implementation or oversight, except during the renewal process. SAMs can
be ordered for a year at a time and renewed at 1-year intervals indefinitely.
The requesting agency must renew a SAMs application through the OEO,
which reviews the request to determine the continued need for the special
monitoring measures. Since March 2005, the BOP has worked with the FBI
and OEO to standardize the conditions set forth in each SAMs to ensure
consistency in application and monitoring of the SAMs inmates by the BOP
and FBI. As of May 2006, there were 34 BOP inmates under SAMs.

      The FBI’s specific responsibilities related to monitoring pretrial and
post-conviction inmates with SAMs are summarized in Appendix III. The
FBI also is responsible for conferring with the USAO when SAMs are initially
proposed. The USAO’s primary role in monitoring communications is to
work with the FBI to identify inmates who are appropriate for SAMs. On
occasion, a USAO is involved in the actual monitoring of inmate
communications. In those instances, the USAO receives copies of
communications from the FBI, and both components review the
communications and any translations.

      Although the USAO ordinarily drafts SAMs requests to the OEO, on
one occasion the Counterterrorism Section (CTS) in the Criminal Division
has originated such requests. 48 In March 2005, when the three World
Trade Center bombers incarcerated at ADX Florence were discovered to be
corresponding with other Islamic extremists in prisons abroad, the CTS
drafted SAMs for these three inmates after requesting and receiving
documentary justification from the FBI’s Counterterrorism Division.
Although there is no requirement for the USAO, FBI, or OEO to coordinate
SAMs requests for terrorism inmates with the CTS, they are encouraged by
the CTS to do so. 49




       48   The CTS oversees “the design, implementation, and support of law enforcement
efforts, legislative initiatives, policies and strategies relating to combating international and
domestic terrorism.” In addition to investigating and prosecuting terrorism cases, CTS
attorneys act as terrorism advisors or consultants to the USAOs and provide training on
terrorism-related topics to Department personnel, law enforcement and intelligence agency
personnel, the private sector, and the general public.

       49   Criminal Division, Guidance on Special Administrative Measures, March 2006.


U.S. Department of Justice                                                            14
Office of the Inspector General
Evaluation and Inspections Division
The BOP Cost Savings Plan

       In 2004, the BOP initiated a cost savings plan in response to budget
cuts that has reduced institutions’ SIS and ISM staffing, including staff
responsible for mail and telephone monitoring. During one phase of the
plan, the BOP is centralizing key ISM functions – sentence computation and
security classification – to a single facility in Grand Prairie, Texas, thereby
eliminating 124 positions. In the nine institutions we visited with
mailrooms, this centralization of ISM functions had decreased the number
of ISM staff available to help sort, screen, and randomly monitor inmate
mail when needed. 50

       During another phase of the cost savings plan, the BOP implemented
the Mission-Critical Roster on March 27, 2005. The Mission-Critical Roster
developed a standardized staffing roster of Correctional Officer posts based
on the size and mission of an institution. BOP staff from the SIS office and
other departments can be required to cover critical Correctional Officer
posts when vacant. The BOP developed the Mission Critical Roster with
three key objectives: (1) establish posts that would be vacated only under
rare circumstances, (2) reduce the reliance on other departments to cover
Correctional Services posts, and (3) reduce overtime costs. 51 In 7 of the 10
institutions visited, the Mission-Critical Roster had resulted in a reduction
of SIS positions that were used to monitor inmate mail and telephone calls.
These SIS positions were reallocated to other security posts elsewhere in the
institutions.




      50 The 10th institution we visited, the Beaumont Correctional Complex, which

comprises three separate institutions, has a centralized mailroom.

       51   Harley G. Lappin, Director’s Message to All Staff, BOP, January 5, 2005.

U.S. Department of Justice                                                        15
Office of the Inspector General
Evaluation and Inspections Division
           SCOPE AND METHODOLOGY OF OIG REVIEW


       This review focused on the BOP’s process for reading the mail of
terrorist and other high-risk inmates, such as gang leaders, in medium- and
high-security and administrative maximum institutions. The review also
focused on the BOP’s foreign language translation services, which may be
required for monitoring inmate mail, telephone calls, and visits.

       Our fieldwork, conducted from June to December 2005, included in-
person and telephone interviews, document reviews, site visits to BOP
institutions, data analysis, and direct observation of mail and telephone
monitoring.

Interviews

      We interviewed 179 officials and staff from the BOP, the FBI, the
Criminal Division, and a USAO. Table 1 lists the sites visited or contacted
and the officials we interviewed.

                          Table 1: Officials Interviewed

 Department
                        Site                       Official(s) Interviewed
 Component

BOP              Central Office       Director
                                      Assistant Director, Correctional Programs Division
                                      Deputy Assistant Director, Correctional Programs
                                      Division
                                      Chief, Intelligence Section
                                      Administrator, Correctional Services Branch
                                      Administrator, Inmate Systems Management
                                      Intelligence Officer, Intelligence Section
                                      Legal Staff Member, Office of General Counsel
                                      National Joint Terrorism Task Force
                                      Representative (2)
BOP              Regional Office(s)   Regional Director (2)
                 Institutions:        Warden (10)
                 LSCI, FCI, USP       Associate Warden (17)
                 Allenwood            Captain (13)
                 FCI, USP             Special Investigative Agent (10)
                 Beaumont             SIS Lieutenant (8)
                 MDC Brooklyn         SIS Technician (6)
                 ADX, USP Florence    Intelligence Operations Officer (1)
                 MCC New York         Phone Monitor (2)
                 FCI Sheridan         Inmate Systems Manager (7)
                 FDC Houston          Mailroom Staff (6)


U.S. Department of Justice                                                    16
Office of the Inspector General
Evaluation and Inspections Division
 Department
                        Site                         Official(s) Interviewed
 Component

                 FDC Miami              Unit Manager (14)
                 FDC Oakdale            Case Manager (1)
                 FDC Philadelphia       Translator (13)
                 FDC SeaTac             Union President (8)
                 MCC San Diego          Visiting Room Officer (20)
                                        Housing Unit Officer (8)
                                        Tower Officer (2)
                                        Finance Manager (5)
FBI              Headquarters           Assistant Director, Counterterrorism Division
                 Beaumont, TX           Supervisory Resident Agent
                 Allenwood, PA          Special Agent (9)
                 Beaumont, TX
                 Brooklyn, NY
                 Florence, CO
                 New York, NY
                 Sheridan, OR
Department of    Criminal Division      Attorney, Office of Enforcement Operations (2)
Justice                                 Attorney, Counterterrorism Section
USAO             Southern District of   Chief, Organized Crime and Counterterrorism
                 New York               Assistant U.S. Attorney

Data Analysis and Document Reviews

       We reviewed data from a week’s mail volume from the BOP
institutions we visited. We asked the 10 institutions to record the number
of incoming and outgoing letters during the week of November 21-25, 2005.
We also analyzed data on the monitoring of inmate telephone calls from the
BOP’s INTRUDR system.

       We reviewed BOP Program Statements, budget documents, Post
Orders, manuals, reports, memorandums, monthly intelligence reports, and
SIS record keeping logs. We also reviewed the Department of Justice
Strategic Plan for 2003-2008 and Department memorandums and guidance
concerning SAMs. Additionally, we reviewed congressional testimony, news
articles, and other reports that were related to the monitoring of inmate
communications.

Site Visits

       We completed 10 site visits to the following BOP institutions:

       •   Allenwood, Pennsylvania – the Low Security Correctional
           Institution (LSCI), Federal Correctional Institution (FCI), and U.S.
           Penitentiary (USP);


U.S. Department of Justice                                                       17
Office of the Inspector General
Evaluation and Inspections Division
       •   Beaumont, Texas – the FCI and USP;
       •   Brooklyn, New York – the Metropolitan Detention Center (MDC);
       •   Florence, Colorado – the ADX and USP;
       •   New York, New York – the Metropolitan Correctional Center (MCC);
           and
       •   Sheridan, Oregon – the FCI.

We selected the institutions based on a variety of factors, choosing
institutions in different regions of the country and institutions of various
security levels.

Observations

       At the 10 institutions we visited, we observed the monitoring of
inmate mail and telephone calls, as well as monitoring procedures in the
visiting rooms and housing units.




U.S. Department of Justice                                            18
Office of the Inspector General
Evaluation and Inspections Division
                            RESULTS OF THE REVIEW


       The BOP’s process for monitoring inmate mail is deficient
       in several respects: The BOP does not read all the mail for
       terrorist and other high-risk inmates on its mail monitoring
       lists, does not have enough proficient translators to
       translate inmate mail written in foreign languages, and
       does not have sufficient staff trained in intelligence
       techniques to evaluate whether inmate communications
       contain suspicious content.

The BOP does not read a sufficient amount of inmate mail.

       We found that the BOP is unable to effectively monitor the mail of
terrorist and other high-risk inmates in order to detect and prevent
terrorism and criminal activities. Institutions did not read all the mail of
inmates on mail monitoring lists as required, citing staffing shortages.
Further, BOP staff said random reading of inmate mail is a lower priority
than timely delivery of mail, and the amount of mail randomly monitored is
not tracked. In addition, foreign language mail is less likely to get read
because the BOP does not require translations of inmate mail for those on
the mail monitoring lists or for randomly read mail and institutions do not
always have ready access to proficient translators.

The BOP does not read all the mail of high-risk inmates on SIS mail
monitoring lists.

       Although the BOP Assistant Director for the Correctional Programs
Division, told us that the BOP expects that 100 percent of the mail for
terrorist and other high-risk inmates on the SIS mail monitoring lists will be
read by the SIS office in each institution, our site visits showed that an
unknown amount of mail was not being read. We sought information about
the volume of incoming and outgoing mail for all inmates on the mail
monitoring lists and the amount or percentage of mail that was read by BOP
staff. However, the BOP does not require institutions to collect complete
data on their mail monitoring and translation activities. In the absence of
data, we relied on the statements of SIS staff responsible for mail
monitoring at the institutions to characterize the level of reading that they
perform. At each of the 10 institutions we visited, SIS staff stated the 100-
percent target, which includes translating and reading foreign language mail




U.S. Department of Justice                                          19
Office of the Inspector General
Evaluation and Inspections Division
was not being consistently met. Therefore, letters from high-risk inmates
sometimes went unmonitored. 52

       Moreover, at 7 of the 10 institutions we visited, the SIS staff told us
that reading mail for inmates on mail monitoring lists had decreased since
FY 2005 because some positions assigned to the SIS offices had been
reallocated as part of the BOP-wide streamlining initiatives. SIS staff at
these institutions could not quantify how much reading had decreased, but
said that two additional factors contributed to it. Remaining SIS staff at
some institutions who were responsible for mail and telephone monitoring
had been regularly detailed to cover vacant security posts elsewhere in the
institutions, while other SIS staff had been reassigned because of the BOP’s
quarterly rotation policy for certain positions. The effects of the reallocation,
rotation, or detail of SIS staff are discussed below.

     Reallocation. Because of the BOP’s cost savings plan (see Background
Section) institutions have lost positions directly responsible for monitoring
inmate mail and telephone calls. For example, SIS staff at one USP stated
that they had approximately 175 names on the mail monitoring list and
1,162 other high-risk inmates who also must be monitored for criminal
activities and misconduct. Previously, the SIS office had four full-time staff
members responsible for monitoring these inmates’ communications.
However, in 2006, the four positions were reallocated to other functions
outside of the SIS office, and all the monitoring work had been divided
among the remaining three SIS staff. These staff members stated that
keeping up with monitoring mail and other high-risk inmates, in addition to
their regular SIS investigative duties, was overwhelming and that the heavy
workload left them less time to gather and analyze intelligence on inmate
activities through the mail.

       At 5 of the 10 institutions we visited, an SIS telephone monitor
position that was also used to assist other SIS staff in monitoring mail had
been reallocated elsewhere on the Correctional Officer roster. Overall, SIS
staff in eight of the institutions identified reduced staffing as the greatest
obstacle to effective inmate monitoring. 53 Further, one Warden stated that
he does not believe his institution has adequate resources to comply with
BOP “mail and telephone monitoring goals.” At this institution, one of two
telephone monitor positions as well as one intelligence officer position were
reallocated from the SIS office. The Warden stated, “We still read the mail,
but I can’t say it’s as thorough.”

      52 International terrorist inmates who are not under SAMs are always on the mail

monitoring lists.

       53   The other two institutions did not have staff reallocated from their SIS office.

U.S. Department of Justice                                                           20
Office of the Inspector General
Evaluation and Inspections Division
       Rotation. The telephone monitor positions are 3-month rotational
assignments, which affect the level of monitoring performed. Unlike
rotational staff, permanent SIS staff are familiar with all of the inmates on
the mail monitoring list and are more likely to recognize suspicious content
and gather intelligence on terrorist and other criminal activities.
Additionally, time spent training new monitors, coupled with the new
monitors’ learning curve, reduces the amount of mail read by the SIS staff
overall and the amount of intelligence that can be gathered.

      Two FBI Special Agents assigned to BOP institutions voiced concern
about the reduced level of monitoring and staffing for SIS offices. One agent
stated:

       [T]he FBI is missing a whole lot of stuff, also inmate informant
       recruitment will be affected. I’m so dependent on them . . . it’s
       nightmarish to rotate SIS every quarter [after] I have them
       trained. I count on them to have institutional memory.

The other agent stated, “There has to be full-time intelligence staff. You
need continuity and experience.”

       Details to Vacant Posts. Temporary assignments frequently reduce
inmate monitoring by SIS offices. For example, the Special Investigative
Agent for ADX Florence reported that on three consecutive days during the
week prior to our July 2005 visit to ADX Florence, two or three of the SIS’s
seven SIS technicians were pulled from their SIS duties to fill vacant officer
positions on the housing units. Further, the SIS Technician responsible for
monitoring all communications of all terrorist inmates at ADX Florence
stated that in the week prior to our October 2005 interview with her, she
was pulled from her SIS duties for 4 of her 5 work days to fill a vacant post
elsewhere in the institution. The ADX’s Special Investigative Agent stated
that the temporary assignments happened frequently and reduced the level
of monitoring and intelligence gathering that the SIS office could
accomplish. As a result, SIS staff members at the ADX Florence told us that
they cannot achieve 100-percent monitoring as required and that when they
are able to monitor communications, they “speed up reading the mail or
monitoring the telephones and maybe miss something by rushing through
it.”

       At ADX Florence, decreased reading of mail and intelligence gathering
can have significant security consequences. The institution houses
approximately 400 of the BOP’s most dangerous and violent inmates. SIS
staff told us that one-half of the population comprises high-risk inmates
and many of the inmates had either attempted to kill, or have killed,


U.S. Department of Justice                                            21
Office of the Inspector General
Evaluation and Inspections Division
another inmate or a correctional officer. Additionally, the ADX houses the
most terrorists – including the 1993 World Trade Center bombers – Ted
Kaczynski (the Unabomber), convicted spy Robert Hanssen, and leaders of
violent street gangs. Fifteen of these ADX Florence inmates are under
SAMs, the largest number of SAMs inmates at any BOP facility.
Approximately 70 percent of the ADX Florence inmate population is on the
mail monitoring list as well. Therefore, the need to provide intensive
monitoring of inmate mail is critical to ensure the safety and security of the
institution and public.

      The assignment of SIS staff to other posts at ADX Florence is not an
anomaly. At MCC New York, we were told that two of the three SIS staff had
been detailed from their monitoring duties to work other institution posts
three to four times per week for the past year. MCC New York houses many
high-profile, unsentenced terrorists, organized crime figures, and gang
leaders. Because the MCC is a pretrial facility, the BOP receives little
background information on the inmates it admits other than the crime with
which they are charged. Mail monitoring of these inmates is important to
determine if an inmate is continuing criminal or terrorist activity and to
plan for the appropriate level of security.

The BOP does not adequately manage the amount of inmate mail that is
randomly read.

       We found that the BOP has not met its goal of reading 100 percent of
mail of inmates on mail monitoring lists, but it also does not know the
amount of mail randomly read for other inmates. The BOP does not require
institutions to track the volume of mail sent and received by all inmates, set
targets for random reading, or measure the level of random reading
achieved. Random reading of inmate mail is important to gather intelligence
on potential criminal activity as well as to monitor unusual inmate behavior.
Additionally, inmates on the mail monitoring list may use unmonitored
inmates to send and receive mail. At seven institutions we visited, ISM staff
members who manage the mailroom told us that while random reading is
not measured, they believed random reading of incoming inmate mail and
the amount of suspicious content they can identify and refer to the SIS
office have decreased since early 2005. They attributed the decrease to one
or more of the following factors: the high volume of mail, short processing
deadlines, and staff reductions in the ISM departments.




U.S. Department of Justice                                           22
Office of the Inspector General
Evaluation and Inspections Division
      With few exceptions, the bulk of BOP inmates can correspond with
anyone, and the amount of incoming and outgoing letters is unrestricted.
We found that incoming inmate mail is less likely to have adequate
monitoring through random reading
than outgoing mail. The large
volume of daily incoming mail           Outgoing Inmate Mail More Likely to Be
causes the BOP to focus primarily                     Randomly Read
on inspection for contraband and        While outgoing inmate mail also must be
timely delivery of mail rather than     processed within 24 hours, it has a much
on random reading for potential         higher likelihood of being randomly read
criminal activity. An ISM staff         than incoming inmate mail.        Outgoing
                                        mail is sorted, inspected for contraband,
member we interviewed at a
                                        and randomly read by the “morning
correctional complex stated that the    watch” Correctional Officer (12 a.m. –
challenge for staff is timeliness,      8 a.m.) assigned to each housing unit.
saying that with the high volume of     The    morning     watch    officers   are
mail and reductions in staff, getting   responsible for sorting and inspecting
                                        each piece of mail, as well as randomly
mail processed in a timely manner
                                        reading some.
was the overriding concern.
                                           We interviewed morning watch Housing
       BOP policy states that             Unit Officers at all 10 institutions we
“[d]elivery of letters may not be         visited. Because the morning watch is the
                                          shift with the least amount of inmate
delayed and shall ordinarily be
                                          movement and activities, each Housing
accomplished within 24 hours of           Unit Officer has more time to review the
receipt, excluding weekends and           letters for both contraband and content.
holidays.” 54 One correctional            Four Housing Unit Officers in different
complex’s local mail supplement           institutions reported reading 20 to 50
stated, “It is imperative the             letters per night.
scanning or spot-checking of both
incoming and outgoing general correspondence not interfere with the
prompt handling of all mail.” Consequently, because BOP staff are working
to meet a strict mail delivery deadline, the amount of mail randomly read by
ISM staff varies greatly by institution and overall may be less than what is
advisable for security purposes.

       One obstacle in managing the random reading of inmate mail is the
volume of mail institutions receive. The BOP Director compared monitoring
inmate communications to searching for “a needle in a haystack.” He stated
that because of the large volume of mail and telephone calls generated by
inmates, the challenge is in “overseeing and managing the massive amount
of information.” The BOP Assistant Director for the Correctional Programs
Division stated that the BOP’s biggest challenge in monitoring inmate mail
is the “volume of mail and the current regulations [that] allow virtually

      54 BOP, Mail Management Manual, Program Statement 5800.10, Chapter 3,

August 19, 1998, p. 4.

U.S. Department of Justice                                               23
Office of the Inspector General
Evaluation and Inspections Division
unlimited correspondence.” Similarly, one Warden stated, “Our problem lies
in the area where inmates can communicate with anyone in the country.”
Another Warden recommended that the BOP “limit the number of letters
[inmates send and receive] each week.”

       Since the BOP does not track the volume of incoming mail and
amount randomly read, we requested that the institutions we visited track
their incoming mail and the number of pieces of mail they randomly read
during a 1-week period. Although all incoming general correspondence and
outgoing mail is subject to reading by staff, the BOP has no established
target percentage of mail to be read. 55

       We found that the lack of BOP-wide guidance for random reading had
resulted in wide variances in the amount of reading accomplished by
institutions with similar workloads and staffing. For example, the
percentage of incoming mail randomly read during the test week at the 10
institutions ranged from 0.3 percent (about 24 mail items) to 75 percent
(about 3,000 mail items). 56 Four of the institutions read less than 5 percent
of the incoming inmate mail. Table 2 shows the volume of mail the
institutions reported receiving and the amount of mail randomly read.




       55   BOP, Mail Management Manual, Program Statement 5800.10, Chapter 3, p. 3.

       56  The results of our request that institutions track their random reading for a week
may not be representative in all instances of the reading that usually occurs because the
institutions knew their 1-week efforts were being recorded. Moreover, the data provided to
us show that although some institutions report higher levels of random reading, they have
limited time to read. For example, USP Allenwood reported that its two staff members read
75 percent of 4,218 pieces of mail during the 4-day (32-hour) work week. This equates to
over 1,500 letters per staff member. Even with no other duties, this only would allow
approximately 30 seconds to read each letter to identify possible criminal or terrorist
activity.

U.S. Department of Justice                                                        24
Office of the Inspector General
Evaluation and Inspections Division
                   Table 2: Incoming Mail Processed and Randomly Read
                   by Mailroom Staff during November 21 – 25, 2005,
                              as Reported by Institutions

                                                   Pieces of Incoming Mail Processed
                                                                                                             Percentage
                           Number
               Number                                                                                       of Mail Read




                                                                Wednesday
                              of




                                                                              Thursday
                                                     Tuesday
                                          Monday
 Institution      of                                                                                         Randomly




                                                                                                   Weekly
                                                                                          Friday
                           Mailroom




                                                                                                    Total
               Inmates                                                                                      by Mailroom
                             Staff
                                                                                                                Staff


 LSCI                                                                                                          average of
                  1,385        2        2,070       1,249      1,024        Holiday      1,284      5,627
 Allenwood                                                                                                          1.8%
 FCI
                  1,417        2        3,545       2,629      2,694        Holiday      3,538     12,406         33.0%
 Allenwood

 USP
                  1,156        2        1,802         938        780        Holiday       698       4,218         75.0%
 Allenwood

 FCC
                  3,905        5        4,422       2,236      2,186        Holiday      1,832     10,676         10.0%
 Beaumont
 ADX                                                                                                           average of
                    394        2          578         639        411             378      458       2,464
 Florence                                                                                                           1.8%
 USP                                                                                                           average of
                  1,079        4        1,678         926        678        Holiday       501       3,783
 Florence                                                                                                         12.9%
 MCC New
                    900        2        2,035       1,740      1,070        Holiday      1,275      6,120         50.0%
 York
 MDC            approx.                                                                                        average of
                               4        2,320       1,425      1,425         1,425       1,425      8,020
 Brooklyn         3,000                                                                                             0.3%
 FCI                                                                                                           average of
                  1,128        2        1,808       1,007      1,119        Holiday      1,988      5,922
 Sheridan                                                                                                           4.8%

Source: BOP institutions
Notes: All mail volume counts include first-class mail, legal mail, newspapers, magazines, and staff mail.
Because the three institutions at FCC Beaumont share a central mail processing center, the numbers
include counts from the low- and medium-security and USP facilities. At the time of this mail volume
report, the inmate population at the Beaumont complex was reduced by 1,668 inmates due to a
temporary evacuation during Hurricane Rita. The normal population at that time would have been 5,570
inmates and the amount of mail processed considerably higher. ADX Florence tracked mail volume the
week of November 28 through December 2, 2005. MDC Brooklyn provided its mail volume data for the
period September 19 through September 23, 2005, during our site visit.



           During our site visits, mailroom staff stressed that random reading is
    not a priority when compared with screening mail for contraband and timely
    delivery of mail. The staff also provided us with general estimates of the
    volume of incoming mail and how much random reading they believed they
    achieved. For example, at MDC Brooklyn where the mailroom staff told us
    they processed 1,400 pieces of mail per day, a mailroom supervisor stated

    U.S. Department of Justice                                                                               25
    Office of the Inspector General
    Evaluation and Inspections Division
that on a slow day staff were instructed to read 5 pieces of first-class mail
each. At LSCI Allenwood, the 2 mailroom staff members stated that they
might read 25 of the approximately 1,400 to 1,500 daily incoming letters.
The ISO also stated that on Mondays, when mail volume was the heaviest,
they only skimmed through the mail. 57 At the FCI Allenwood, the ISO
stated that while he had a pile of 40 to 50 letters on his desk daily to read,
he might read only 8 or 9. At other times, he said he just scanned or read a
paragraph in each letter. At FCI Sheridan, the 2 mailroom staff members
stated that they could process 1,400 incoming letters or publications daily
and might read approximately 65 letters. The 5 staff members at the
Beaumont Correctional Complex processed mail in a shared services
mailroom for approximately 5,600 inmates housed in three institutions.
The mailroom staff stated that because of the high volume, they primarily
inspected mail for contraband. They stated that they might read 10 percent
of the mail, but they did not have a specific target for random reading
because there were no national guidelines.

       The elimination of certain ISM positions at BOP institutions and the
attrition of some ISM staff have resulted in understaffed mailrooms and
decreased random reading of incoming mail. Mailroom staff we interviewed
generally said they had time only to inspect the mail for contraband rather
than read the mail for suspicious or criminal activity. On high-volume days,
mailroom staff at the institutions we visited stated that previously they had
“borrowed” staff from other ISM functions such as inmate records and
receiving and discharge (R&D). However, with the consolidation of key ISM
functions, many of these staff positions had been eliminated, transferred to
other departments or institutions, or transferred to a centralized facility in
Grand Prairie, Texas, leaving fewer staff members available to assist in the
mailroom. For example, Allenwood’s three institutions lost two ISMs and
two Assistant ISMs, resulting in reduced random reading of mail.
Beaumont’s ISM department lost four positions, which, according to the ISM
manager, has affected the unit’s ability to effectively conduct mailroom
operations. The manager told us, “The workload has been increasing, but
the staff is decreasing.” Of the nine mailrooms we visited, six were
processing the mail with two staff members, two USPs had four staff
members, and a correctional complex processing mail for three institutions
had five staff members.




       57 According to mailroom staff, mail volume on Mondays may be double that

received on a typical Tuesday thought Friday.

U.S. Department of Justice                                                  26
Office of the Inspector General
Evaluation and Inspections Division
The BOP does not track the amount of incoming or outgoing foreign
language mail or maintain data on the foreign languages that inmates use.

       BOP institutions do not track the amount of foreign language mail for
most inmates, but mailroom and SIS staff we interviewed said the amount is
significant. BOP staff are required to translate and read all foreign language
mail for inmates on mail monitoring lists, as well as translate and read
foreign language mail randomly selected for reading. 58 However, staff who
monitor the mail at two institutions we visited told us that if they were
reading outgoing mail and selected a letter in a foreign language, they would
let the letter go out without having it translated because there was no
requirement for translation. At six other institutions, staff said they
forwarded randomly selected foreign language mail to the SIS office for it to
translate and read. Yet, staff in the SIS offices said they were already
having difficulty reading mail for inmates on mail monitoring lists, and
random reading of other mail was unlikely.

      The BOP also does not maintain information on the types of foreign
languages that inmates use to communicate in writing or verbally. The BOP
also does not track the languages translated or the number of hours spent
translating. Therefore, the BOP has no baseline to plan the translation
resources it needs for its monitoring responsibilities.

Developments and Future Plans

       In a May 2006 interview, the BOP Director and the Assistant Director
for the Correctional Programs Division both emphasized to us that mail
monitoring was a priority for the BOP and that institutions should be
reading 100 percent of the mail for inmates whose names are on the mail
monitoring lists. They stated that they would review the standards for
which inmates are placed on the mail monitoring lists to ensure that those
listed are appropriate and that the resulting amount of inmate mail
monitoring could be achieved. The Director and Assistant Director also said
they planned to clarify their expectations for random reading of mail for
inmates not on monitoring lists.

       The BOP Director also told us that a shift was occurring in the BOP’s
approach to communications for terrorist inmates not on SAMs. He stated
that in the past, the BOP encouraged inmates – even inmates convicted of
terrorism-related offenses – to communicate and maintain links with

        58 The FBI is responsible for translating communications of all inmates under

SAMs, including international terrorists, and the BOP is responsible for translating
communications of non-SAM international terrorist inmates. As of May 2006, the BOP
classified 146 inmates as international terrorists, and held 25 of them under SAMs.

U.S. Department of Justice                                                     27
Office of the Inspector General
Evaluation and Inspections Division
families and friends with few limitations. However, the Director said that as
a security measure the BOP was developing a policy that would reduce the
communication privileges of international terrorist inmates not under SAMs.
The new policy would limit the communications of inmates detained or
charged with any terrorist-related activity upon request from the FBI or
other law enforcement agency, or if BOP information indicated a strong need
to impose such restrictions. Rather than allowing unlimited
communications, under this proposal the BOP could limit the inmates to
communicating only with immediate family members, U.S. Courts, the
inmate’s attorney, members of Congress, law enforcement agencies, and
other specified entities. In addition, communications with family members
could be limited in frequency and volume as follows:

       •   Correspondence could be limited to three pieces of paper, double-
           sided, once per week to a single recipient.

       •   Telephone communications could be limited to a single completed
           telephone call up to 15 minutes in length per calendar month.

       •   Visiting could be limited to 1 hour each calendar month.

       By limiting the frequency and volume of specific communications for
terrorist inmates not on SAMs, the proposed policy would reduce the
amount of communications requiring monitoring and allow the BOP to
better scrutinize the communications it monitors. As of July 2006, the BOP
was coordinating the final policy with the Department.

       The BOP also was developing a policy to limit or eliminate unsolicited
(junk) mail. This policy would reduce the overall volume of mail for all
inmates so that ISM staff could better focus their efforts on inspecting for
contraband and randomly reading mail for evidence of terrorist or criminal
activities. The BOP anticipated sending the proposed policy to the
Department for review in August 2006.

Recommendations

1. The BOP should ensure that all mail of inmates on its mail monitoring
   lists is read, including translating and reading foreign language mail, and
   that the institutions’ monitoring of this mail is tracked.

2. The BOP should set minimum target percentages of incoming and
   outgoing mail for random reading, including translating and reading
   foreign language mail, and track the institutions’ efforts to comply with
   these goals.


U.S. Department of Justice                                            28
Office of the Inspector General
Evaluation and Inspections Division
The BOP’s capability to translate foreign language mail does not
sufficiently support monitoring needs.

       For translation of many inmate communications, the BOP primarily
relies on staff who volunteer to translate as a collateral duty. The names of
these volunteers are placed on a BOP Directory of Translators, which is
distributed to all institutions. Because the BOP does not have enough
volunteer staff for Arabic translations, particularly for its terrorist inmates,
in 2005 the BOP hired three full-time Arabic Language Specialists at ADX
Florence. These Language Specialists are the BOP’s first full-time staff
translators. The Language Specialists translate mainly for ADX Florence,
but other BOP institutions can request their assistance in translating
Arabic. Additionally, in 2003 the BOP created the Language Translation
Services Project to procure contractors to translate foreign language
communications of international terrorist inmates. The BOP also can use
outside sources such as universities or other law enforcement agencies for
translations.

      Despite these resources, we found deficiencies in the BOP’s ability to
translate inmate mail:

       •   For volunteer staff translators:

           o The BOP did not have agency-wide standard procedures for
             conducting in-house translations.

           o The BOP staff used to translate inmate communications were
             not subject to language proficiency requirements, and the BOP
             had no policy requiring translations be checked for accuracy.

           o The BOP did not have enough staff to translate inmate
             communications, especially inmate communications in
             Spanish.

           o The BOP did not offer effective incentives to motivate staff with
             needed language skills to translate voluntarily. In addition,
             some supervisors did not support translating as a collateral
             duty for their staff.

       •   For full-time staff Language Specialists, the BOP did not offer
           sufficient intelligence training.




U.S. Department of Justice                                             29
Office of the Inspector General
Evaluation and Inspections Division
       •   For contract translation services, the BOP’s Language Translation
           Services Project was a valuable but limited resource for institutions
           that house international terrorist inmates.

       The sections below discuss these deficiencies more fully.

Volunteer Staff Translators

The BOP does not have agency-wide standard procedures for conducting in-
house translations.

       The BOP has no written standard procedures or requirements for staff
translating inmate mail or telephone calls. We found a wide range of
translation practices at the 10 institutions we visited. Translations
performed by staff were generally not word for word, but instead resulted in
a brief summary of the contents or a handwritten note on a letter from the
translator saying “OK” without any summary. According to the volunteer
staff translators we interviewed, the SIS staff did not always provide
adequate direction when requesting a translation. However, the SIS staff
members said they did not receive adequate direction from BOP
headquarters on translating foreign language inmate communications.
While some translators we interviewed believed that effective monitoring of
inmate communications required only simple “common sense,” others
stated that they could provide better translations if they received better
guidance.

      National guidance is not clear and complete. The only guidance that
the BOP has issued for translation services was a March 15, 2005,
memorandum from the Assistant Director for the Correctional Programs
Division. 59 Staff at most institutions we visited stated that this
memorandum was not specific enough and did not provide adequate
guidance. For example, this memorandum did not provide detailed
guidance on the amount of mail to be translated; whether staff translators
should be asked first to translate terrorist inmates’ communications prior to
seeking translation services with outside contractors; what type of
translation product is acceptable; or the time frame for completing a
translation. The memorandum stated in part:

       Due to the continued increase in the number of incarcerated
       inmates speaking various exotic Middle-Eastern, Pacific Island,
       and South Asian languages, and the agency’s need to maintain
       security of its institutions through mail and telephone

        59 John H. Vanyur, Language Translation Services, BOP CT Translation Special

Project Funding, Correctional Programs Division, BOP, March 15, 2005.

U.S. Department of Justice                                                   30
Office of the Inspector General
Evaluation and Inspections Division
       monitoring, it is necessary to procure translation services . . . .
       Translation services for inmates affiliated with
       international terrorist organizations or for any other
       inmate with special circumstances will be used for non-legal
       inmate mail and telephone calls . . . . Please note that every
       effort must be made to [ensure] BOP staff are utilized to
       translate common foreign languages, i.e., Spanish, Italian, etc.
       to promote cost containment. 60

      However, staff told us that they were not certain if they are required to
obtain translations for all international terrorist inmates and that if they do
seek exotic language translations whether they should do so first through
volunteer staff translators rather than through General Services
Administration (GSA) contracts. The staff said the memorandum was
confusing because it stated that staff translators should be utilized to
translate “common” foreign languages, which excludes Arabic. BOP staff
also were unsure whether translations were required to be word for word or
whether a summary or just an “OK” was adequate.

     The March 2005 memorandum also failed to establish time frames for
completion of requested translations. An SIS Lieutenant told us:

       We don’t get adequate guidance from BOP on translations. We
       fend for ourselves trying to get stuff translated. I don’t think
       there’s any direction as to what to do with the things that have
       to be translated. Unless BOP has a translation department
       where SIS can funnel their referrals, using BOP staff that are
       currently working [full time] is not working . . . . [T]hey [staff
       translators] had their own jobs and we never got [the
       translations] back.

Further, because the March 2005 memorandum only addressed
translations for international terrorist inmates, the BOP has no foreign
language translation guidelines for any other group of inmates. As a result,
the priority placed on obtaining translations for any inmates other than
inmates convicted of terrorist-related offenses is left to the discretion of each
institution’s staff, primarily the SIS staff.

       Translation practices are not standard at every institution. At 7 of 10
institutions we visited, SIS staff and volunteer translators told us that SIS
staff often gave inmate letters to the translators or asked them to listen to
telephone calls without providing any background information on what they
should be looking for or instructions on the type of translation to be

       60   Language Translation Services, BOP CT Translation Special Project Funding.

U.S. Department of Justice                                                      31
Office of the Inspector General
Evaluation and Inspections Division
performed (i.e., word for word, summary, or just an “OK”). The SIS staff in
the other three institutions provided context, instructions on what to look
for, and whether word-for-word translations or just a summary was
required.

      Because of the lack of guidance from SIS staff to translators, we found
varied translation practices applied to the communications of terrorist and
other high-risk inmates. These varied practices may not provide adequate
translations for SIS staff to fully analyze the communications for suspicious
content that was not recognized by translators. For example:

       •   One volunteer staff Arabic translator told us he never received
           instructions from the SIS staff on how to perform translations and
           rarely communicated with SIS staff, even though translations took
           up 30 to 40 percent of his time. He said he did not read the
           letters, but rather scanned them. He never wrote summaries of
           translations, but wrote only “OK” on the communication. If
           something looked suspicious, he wrote a memorandum explaining
           why it was suspicious. When he recommended rejecting a letter,
           he said he cited the reason.

       •   At one facility, the volunteer staff translator told us that she read
           10 to 15 Spanish letters per day, but was not required to provide a
           written translation or summary for any of the letters. She stated
           that she read all the letters but only notified SIS staff verbally if
           she detected anything suspicious.

       •   At one pretrial facility, a Special Investigative Agent told us that he
           used a volunteer staff translator from another institution to screen
           inmate mail written in Arabic, but did not provide instructions to
           the translator as to the expected product. Consequently, the
           translator wrote only “OK – general conversation” on the letters
           with no translation if he found nothing suspicious. If he thought
           something was suspicious, he wrote a summary of that content.

       At other institutions, SIS staff provided some background information
to translators and required complete or partial word-for-word translations:

       •   At a medium-security institution, one staff member, a native
           Spanish speaker, translated mail and telephone calls from Spanish
           as a collateral duty. SIS staff usually told him what they were
           looking for in inmate letters. Normally, he wrote a summary of the
           letter, with a word-for-word translation of any suspicious sections.



U.S. Department of Justice                                              32
Office of the Inspector General
Evaluation and Inspections Division
       •   At a low-security institution, a staff member who translated
           Spanish as a collateral duty for the SIS office told us that an SIS
           technician usually explained the context and what SIS was looking
           for in the correspondence. SIS required word-for-word
           translations, which she provided in handwritten form.

The BOP volunteer staff who translate inmate communications are not subject
to language proficiency requirements, and the BOP has no policy requiring
translations be checked for accuracy.

       The BOP does not require staff who provide translations as a
collateral duty to have a certain level of language proficiency, does not test
staff for language proficiency, and does not have a procedure to randomly
review the accuracy of communications that are translated. The lack of
proficiency testing and quality controls could result in security
vulnerabilities due to mistranslated or untranslated materials.

       BOP staff volunteer annually to be listed in the BOP Directory of
Translators and self-report their proficiency levels. The BOP Central Office
distributes this directory to all institutions, which are directed to use staff
listed in it before seeking outside translation assistance. Since the BOP
does not maintain minimum standards for collateral duty translators, the
BOP staff who volunteered as translators at the institutions we visited had
varying levels of proficiency. The examples below show some of the
proficiency differences at these institutions:

       •   At one medium-security institution, a staff member helped
           translate telephone calls and letters in French for the SIS staff. He
           considered himself to be at the “intermediate” level in reading and
           writing and at the “basic” level in speaking. He looked or listened
           for key words and phrases and provided summaries of the
           communications to the SIS office.

       •   Another BOP employee who translated Japanese stated that while
           he was proficient in the language, it required considerable time
           and effort for him to translate, depending on the complexity of the
           writing, and he sometimes sought the assistance of his wife, a non-
           BOP employee.

       •   At one institution, a staff member who is a native speaker of Arabic
           stated that he understood 90 percent of the Middle Eastern
           languages, but that he was not proficient in Pakistani and Afghan
           languages. He said these languages were totally distinct from



U.S. Department of Justice                                             33
Office of the Inspector General
Evaluation and Inspections Division
            Arabic and were best translated by native speakers rather than by
            him.

        Staff at the institutions we visited commented that mail and telephone
translations were often done by BOP staff who were not native speakers and
therefore were unfamiliar with some phrases in the foreign language. The
large number of regional dialects and colloquialisms in many languages
increases the risk of inaccurate or unreliable translations from untested
staff. For example, an Arabic translator (native speaker) recounted the time
an inmate stated that he was waiting for some “green olives.” The translator
said that another person translating may have interpreted this expression
literally, but in his country this expression meant money.

      In addition, the BOP does not have standard procedures for ensuring
the accuracy of staff translations. SIS staff told us that they had little
choice but to trust the volunteer staff who translated for them because they
did not know the languages themselves. One SIS Lieutenant told us that he
took a Spanish document that one staff member had translated to another
Spanish-speaking staff member for verification and learned that the
translation was inaccurate.

The BOP does not have enough staff to translate inmate communications,
especially for inmate communications in Spanish.

      In 5 of the 10 institutions we visited, Spanish language mail and
telephone calls chosen for random monitoring are not always translated
because of insufficient staff translators. Approximately 28 percent of the
BOP’s inmates are from Spanish-speaking countries. However, we found
that even institutions in parts of the country that have a large Hispanic
population had a shortage of Spanish-speaking staff. 61

      We visited high- and medium-security facilities at two BOP complexes
with substantial Hispanic inmate populations in different parts of the
country: Beaumont, Texas, and Allenwood, Pennsylvania. Over a quarter
(663 inmates) of Allenwood’s high- and medium-security population of 2,480
inmates was Hispanic. 62 However, between the two Allenwood institutions,
only 12 Spanish-speaking staff covered three shifts a day and helped with
translations. Staff at Allenwood reported that the shortage of Spanish-
speaking correctional staff was a major challenge. Almost one-third of
Beaumont’s inmate population (1,009 of 3,116 inmates) at its medium- and

       61  The Hispanic population for all BOP institutions constituted approximately 32
percent of the inmates. Not all Hispanics communicate in Spanish.

       62   BOP, Inmate Characteristics Report, May 2005.


U.S. Department of Justice                                                      34
Office of the Inspector General
Evaluation and Inspections Division
high-security institutions was Hispanic, which matched the percentage of
Hispanics in Texas as a whole. 63 However, the BOP employed only 42
Spanish-speaking staff at the Beaumont complex (3 institutions, 3 shifts a
day), which an Associate Warden said was not enough to translate the
amount of Spanish communications that must be monitored.

       The BOP periodically provided a Spanish language immersion course
for BOP staff. 64 However, the course was not offered to staff for over 2
years, from July 2003 until November 2005, because of budget constraints.
According to some Correctional Officers and other staff we interviewed, they
have repeatedly requested the course, but have never been enrolled. Prior
to 2003, the BOP offered the Spanish immersion course six times in
FY 2002, and five times in FY 2001. The BOP offered the course only once
in FY 2006 with a class of 25 participants, and stated it is uncertain about
this course offering in FY 2007.

      The BOP has not regularly provided training for staff in languages
other than Spanish. We interviewed one volunteer staff translator who
maintained his proficiency in Arabic by speaking with inmates because
there was no training available to him.

The BOP does not offer effective incentives to motivate staff with needed
language skills to translate voluntarily, and some supervisors do not support
translating as a collateral duty.

       The BOP allows nominal monetary awards or written
acknowledgements for staff who volunteer for collateral translation duties,
but these incentives are applied inconsistently. Additionally, translating
may affect the employee’s regular duties, and not all supervisors support
this labor-intensive collateral duty. Because of these factors, employees
often are discouraged from volunteering to translate inmate mail and other
communications.

       Each Warden determines how much of a priority translation services
will be in his or her institution and what kind of recognition staff will receive


       63  The Hispanic population in BOP institutions is made up of both U.S. citizens and
foreigners. The BOP tracks inmates’ citizenship and ethnicity, but not the languages they
speak.

        64 The Spanish immersion course is intended to give staff the ability to understand

key words and to communicate with Spanish-speaking inmates. Staff who are more
proficient in Spanish are then encouraged to participate as interpreters during disciplinary
hearings, intake screening, and monitoring of phone calls to pick up words, phrases, or
conversations that may be suspicious.

U.S. Department of Justice                                                       35
Office of the Inspector General
Evaluation and Inspections Division
for providing these additional services. 65 Some staff translators we
interviewed stated that supervisors promised that they would be considered
for a bonus, but the translators never received it. However, according to
staff translators we interviewed, monetary rewards are not the only
successful incentives. One staff member proficient in Arabic cited lack of
any recognition as the primary disincentive to taking on the added work of
translating. Consequently, he said that he would only translate for fellow
staff in his department, but not anyone else. At another institution, we
found that the BOP was paying an outside vendor to translate inmate
communications even though a full-time BOP employee fluent in the
required language worked less than 30 minutes away at another BOP
institution. This employee said he used to translate often, but told us that
he stopped providing translation assistance because he received no
recognition or other incentives.

        Some staff said that their supervisors were not supportive of their
conducting translations during regular work hours. One staff member who
translated Arabic told us he received so many requests for assistance from
the SIS offices in both his institution and others that during some weeks he
spent 8 or more hours translating. At one point, the staff member said he
was admonished by his supervisor, who told him that the BOP “hired you as
an accounting technician, not a translator.” From that point on, the staff
member required all external requests for his translation services be sent to
his Associate Warden, who was more supportive of his collateral translation
activities. Another staff person we interviewed said that he had the support
of the Warden and received compensatory time in one facility when he
translated inmate communications in Arabic as a collateral duty. However,
the situation changed when he transferred to another institution where his
name was left out of the BOP-wide Directory of Translators, even though he
submitted his name for inclusion and is a native Arabic speaker. He said he
still received many requests for translations, which affected his ability to
carry out his duties, so he translated largely on his own time. Hence, he
received no compensatory time or overtime pay for his translation services.

      The staff members we interviewed who translated inmate
communications as a collateral duty did not track the number of hours they
devoted to translating because the BOP does not require or even recommend
this. Without any type of tracking system to document the total number of


        65 According to a BOP Program Statement, a supervisor is responsible for

submitting a nomination for an employee to receive a cash award for translations done as a
collateral duty. Wardens may approve up to $1,500, Regional and Assistant Directors may
approve up to $3,000, and the BOP Director may approve up to a $5,000 cash award.
BOP, Bureau of Prisons’ Awards Program, Incentive Awards, Program Statement 3451.047,
July 10, 2001.

U.S. Department of Justice                                                     36
Office of the Inspector General
Evaluation and Inspections Division
hours staff spend translating as a collateral duty and the type of language
translations provided, the BOP cannot accurately allocate resources or plan
for hiring an appropriate number of full-time Language Specialists.
Institutions also cannot properly carry out the incentive and rewards
program without knowing how many hours individual staff are devoting to
this collateral responsibility.

Full-time Arabic Language Specialists

The BOP does not offer sufficient intelligence training to full-time Language
Specialists.

      In 2005, the BOP hired its first full-time staff translators – three
Arabic Language Specialists assigned to ADX Florence – and officials said
they planned to hire four more Arabic Language Specialists for the BOP’s
new Counterterrorism Unit (described later in this report). However, the
BOP did not provide counterterrorism intelligence training to the full-time
Language Specialists at ADX Florence in their first year that would assist
them in analyzing what they were reading. One of these translators had
translated all communications for Arabic-speaking international terrorist
inmates at ADX Florence since 2001 without any intelligence training, first
as a collateral duty and then full-time beginning in June 2005. 66 A former
Special Investigative Agent at ADX Florence told us that he tried to get the
Arabic translator intelligence training when he was a volunteer translator,
but the BOP’s response was “unless you were in the SIS shop, do not even
bother nominating someone.”

      The translators’ need for intelligence training was addressed in the
BOP’s internal March 2005 After Action Report on Terrorist Issues. The
report focused on the ADX Florence letter-writing incident and listed several
recommendations related to terrorist inmate issues:

       •    “[Foreign language communications] should be reviewed by
            suitably trained resources to identify potential intelligence from
            cultural contexts of communications.

       •    “Institution linguistic staff should be given suitable training and
            security clearances to facilitate local review of [foreign language
            communications].




       66   Until 2005, the employee was assigned as an Education Specialist at the USP
Florence.

U.S. Department of Justice                                                      37
Office of the Inspector General
Evaluation and Inspections Division
       •   “Telephone communications by non-SAMs [international terrorists]
           should be live monitored by suitably trained staff (linguistically
           and intelligence background) rather than just recorded.

       •   “Consider requiring [international terrorist inmates’] visits be
           contemporaneously monitored by suitably trained staff
           (linguistically and intelligence background).”

       In November 2005, one of the three Language Specialists attended a
1-week SIS training course, which focused on crime scene procedures and
general investigative topics and contained only minimal counterterrorism
information. In February 2006, the other two translators attended the same
training. However, as described later in this report, this training did not
adequately train the Language Specialists (or SIS staff) to perform
intelligence analysis on communications for terrorist inmates not on SAMs.

Language Translation Services Project

The BOP’s Language Translation Services Project is a valuable but limited
resource for institutions that house international terrorist inmates.

       In 2003, the BOP created the Language Translation Services Project
under which institutions can obtain translations from GSA-approved
contractors for “exotic” languages. 67 Through this project, institutions can
obtain complete word-for-word translations of non-SAMs international
terrorist inmates’ mail and telephone calls that enable the SIS offices to
monitor and analyze the communications. We found the project was viewed
favorably by staff at all the institutions we visited, not only because the
institutions can have certain non-SAMs international terrorist inmates’
communications translated by professionals, but also because the costs are
funded out of the Central Office budget rather than the institutions’
budgets.

      However, as we will discuss in more detail below, the project has some
drawbacks. The services of contract translators are very expensive, the
project does not cover non-terrorist inmates, and obtaining a contract
translation involves a cumbersome approval process. Additionally, officials
at one institution said they experienced several months’ delay in receiving
translations from a GSA-approved vendor. Aside from the Language
Translation Services Project contracts, however, BOP institutions have few
options for obtaining external translation services.


        67 As mentioned previously, the BOP defines exotic languages as Middle Eastern,

Pacific Island, and South Asian languages.

U.S. Department of Justice                                                     38
Office of the Inspector General
Evaluation and Inspections Division
       The high cost of the Language Translation Services Project has limited
its availability. The BOP Central Office, in a July 2003 memorandum,
recognized the potential high costs associated with contracted translation
services and stated that “every effort must be taken to ensure BOP staff
translators are utilized to the greatest extent possible prior to utilizing the
National Language Translation Services Project.” 68 The BOP Central Office
issued a second memorandum in March 2005, after the ADX Florence
letter-writing incident, reminding institutions of the project and encouraging
close coordination with the Central Office on its use. The memorandum
stated in part:

       In light of the recent events related to the monitoring of
       inmates that require special monitoring, I want to
       emphasize the availability and use of these services and
       encourage all BOP facilities to work closely with the
       Central Office Correctional Services section in making a
       determination when translation services need to be
       utilized. Note: When translator services are deemed necessary
       the cost will be funded via utilization of a Central Office
       National Fund Code. 69

       According to SIS staff, the wording of the 2003 memorandum led
institutions to rely on BOP staff to translate Arabic and other languages for
non-SAMs international terrorist inmates’ communications until the March
2005 memorandum was issued. (The BOP staff who provided these
translations at the institutions we visited informed us that most
translations were just summaries or a note to the SIS staff stating “OK.”)
We found that after the March 2005 memorandum was issued the
institutions began to actively make use of the contract translation services
for non-SAMs international terrorist inmates, although they continued to
use staff translators as well.

      In FY 2005, 16 BOP institutions used outside translation contractors
compared with 10 institutions in the previous year. The amount of money
the BOP spent on contract translations increased from $47,289 in FY 2004,
to $743,381 in FY 2005. For FY 2006, the BOP budgeted $2 million for
contractor translation services. According to both the BOP Director and the
Assistant Director for the Correctional Programs Division, the BOP planned
to continue funding the project despite the cost because, in the absence of

       68 Michael B. Cooksey, Language Translation Services for Inmates Affiliated with

International Terrorism, Correctional Programs Division, BOP, July 25, 2003.

        69 John H. Vanyur, Language Translation Services, BOP CT Translation Special

Project Funding, Correctional Programs Division, BOP, March 15, 2005.

U.S. Department of Justice                                                     39
Office of the Inspector General
Evaluation and Inspections Division
other options, it provided a needed service for the institutions housing non-
SAMs international terrorist inmates.

       The Language Translation Services Project is not available for all
translation needs. The project can only be used to translate
communications that took place after March 2005 in Middle Eastern, Pacific
Islands, and South Asian languages for specific international terrorist
inmates. At one institution, the SIS office had untranslated
communications from an international terrorist inmate in Japanese but
could not use Language Translation Services Project contracts because the
letters were written before March 2005. The SIS office was relying on a BOP
employee at another institution to translate the communications. A
considerable backlog remained because of the collateral nature of the
employee’s translation work and the lack of other Japanese-speaking staff.

      For translation needs that do not qualify for funding by the project,
the BOP encourages institutions to use local resources whenever possible.
Some institutions reported using AT&T’s translation service in the past, but
could no longer do so because of budget cuts. 70 Other institutions have
approached universities in their regions, but the universities expected
payment for their services. Some institutions have sought non-traditional
resources, such as electronic dictionaries and web sites, to look up words in
Arabic. Some institutions also have asked the FBI for translation
assistance, but according to the SIS staff we interviewed the FBI does not
have enough translators to meet the demand in a timely manner.

       The process for accessing the Language Translation Services Project is
cumbersome. The request and approval process for using the Language
Translation Services Project takes several weeks because the BOP Central
Office requires institutions to submit paperwork for each separate request
for translation. To avoid creating a purchase order for each letter or
telephone call, institutions usually save several weeks’ worth of letters or
compact discs of telephone call recordings and submit them as a single
request. We found at the institutions we visited that the turnaround time
from the initial request to sending the job to the translation contractor
ranged from 15 to 60 days. This does not take into account the time needed
to actually have a document or telephone call translated. Figure 2
illustrates the procedures for using the Language Translation Services
Project contracts.




      70 AT&T Language Line Services offers live “over-the-phone” translation in over 140

languages for a fee.

U.S. Department of Justice                                                     40
Office of the Inspector General
Evaluation and Inspections Division
                            Figure 2: Procedure for Accessing the
                            Language Translation Services Project


   n    An SIS staff member           o                                p
   estimates the required                 The SIS staff member
   translation (counts the number                                          The Intelligence Section
                                          sends a memorandum to
   of words in each inmate letter                                          reviews the appropriateness
                                          an official in the
   or number of minutes for each                                           of the request and notifies
                                          Intelligence Section at
   telephone call). This workload                                          the institution of approval,
                                          Central Office requesting
                                                                           usually via e-mail.
   estimate gives the BOP Central         funding through the
   Office an indication of the cost       contract.
   of the translation.




   s                                  r                                q
       After the translation is                                            SIS drafts a purchase
                                          The SIS staff member
       completed, the                                                      order and sends it to the
                                          sends copies of letters or
       institution’s business                                              institution’s business
                                          CDs of telephone call
       office processes the                                                office along with a copy
                                          recordings to the vendor
       transaction and charges                                             of the approval from
                                          for translation.
       the cost to the Language                                            Central Office.
       Translation Services
       Project accounting code.




Developments and Future Plans

      Since the discovery in March 2005 that the three 1993 World Trade
Center bombers incarcerated at ADX Florence were corresponding with
Islamic extremists, the BOP Executive Staff has taken several steps toward
addressing the increased security monitoring and translation needs posed
by the international terrorist inmates. A summary of the steps related to
the BOP translation capabilities follows.

       •   Arabic Language Specialists. As discussed previously, three full-
           time Arabic Language Specialists were hired at ADX Florence in
           2005, the BOP’s first full-time translators. The three employees
           translate communications primarily for ADX inmates and sometimes
           for other institutions. In addition, at the time of our review, the
           three Language Specialists were undergoing Top Secret security
           background clearances and obtaining language proficiency
           certification by the FBI. The three Language Specialists had passed
           some, but not all, segments of the proficiency test.

       •   Language Translation Software. BOP officials said that language
           translation software was promising, but does not yet meet BOP

U.S. Department of Justice                                                                  41
Office of the Inspector General
Evaluation and Inspections Division
         standards for accuracy. A representative from the Interagency
         Language Roundtable told us that while technology to translate
         typed text is available, a program that can effectively translate oral
         communications will not be developed for many years. Therefore,
         the BOP plans to utilize language translation software to initially
         assess inmates’ foreign language communication in the absence of a
         qualified translator.

     •   Counterterrorism Unit. The BOP is developing a headquarters-level
         Counterterrorism Unit at a field site where four new full-time Arabic
         Language Specialists will be co-located with BOP intelligence
         analysts. The BOP believes that co-locating the Language
         Specialists and intelligence analysts will produce “consistent and
         cost-effective” translation of inmate communications. Additionally,
         the BOP plans to have a centralized “traffic cop” at this unit to make
         decisions as to who (GSA translator, Language Specialist, or
         volunteer staff translator) should be translating particular terrorist
         inmates’ communications based on a risk assessment. The BOP will
         collect and disseminate counterterrorism information and
         intelligence at the Counterterrorism Unit to representatives from
         different agencies, such as the FBI. According to the BOP, the goals
         are to consolidate counterterrorism “intelligence, produce products
         for the field, enhance linkages to other agencies, and manage
         translation services.” As of June 2006, the BOP had half of the
         Counterterrorism Unit staff on-board and expected to have the unit
         fully staffed by October 2006. While we believe the unit is beneficial,
         the intelligence analysis capability of the SIS offices at institutions
         where terrorists are housed also needs to be increased. The SIS
         staff at institutions work firsthand with terrorist inmates and need
         the ability to analyze the activities of these inmates so that they can
         recognize and pass on the appropriate intelligence to the BOP
         Central Office Counterterrorism Unit.

     •   Counterterrorism Training. The BOP informed us that the FBI, Drug
         Enforcement Administration, and Bureau of Alcohol, Tobacco,
         Firearms and Explosives are working together to develop general and
         component-specific intelligence analyst training that will be available
         to all agencies in the Department. The training will address the
         needs of the BOP for managing high-risk inmates, and BOP staff will
         attend the training in phases.

     •   National Virtual Translation Center. The BOP has used the center,
         an interagency entity established to provide translation of foreign
         language communication for Intelligence Community clients, to


U.S. Department of Justice                                            42
Office of the Inspector General
Evaluation and Inspections Division
        translate some terrorist inmate communications. The BOP entered
        into a memorandum of understanding with the center in May 2006
        and plans to use its services as a potentially less expensive option to
        the Language Translation Services Project.

      Additionally, during a May 2006 interview the BOP Director and the
Assistant Director for the Correctional Programs Division told us that the
BOP would provide further direction to the institutions concerning the use
of contractors and volunteer staff to translate inmate communications.

Recommendations

3. The BOP should develop a policy for in-house translation services that
   includes:

       a. Guidelines for when and how translations are to be conducted,
          (e.g., when word-for-word translation or a summary is required),
          including translations of communications to and from
          international terrorist inmates.

       b. Guidelines for the random verification of the accuracy of staff
          translations;

       c. Guidelines on the minimum proficiency levels for volunteer BOP
          staff who translate communications for terrorist inmates, inmates
          on mail or phone monitoring lists, or other high-risk inmates;

       d. Guidelines requiring supervisors to support collateral translation
          duties, and when work conflicts exist, to seek resolution with the
          Associate Warden or Warden;

       e. Guidelines that require BOP staff who volunteer as translators to
          track the number of hours and the languages for which they
          perform translation services as a collateral duty to allow future
          resource needs to be determined; and

       f. Guidelines that ensure institutions use the existing incentive
          awards program, especially cash awards, to encourage and
          recognize BOP volunteer staff translators. The BOP also should
          consider developing additional incentives and awards to encourage
          BOP staff to volunteer for collateral translation duties.

4. The BOP should offer Spanish and other language training to staff, as
   dictated by translation needs.


U.S. Department of Justice                                           43
Office of the Inspector General
Evaluation and Inspections Division
The BOP’s intelligence capability to analyze the content of terrorist
inmates’ mail is not well developed.

      We found that the BOP lacks a sufficient intelligence capability to
adequately analyze inmate mail to detect terrorist activity. The SIS offices in
BOP institutions we visited have more experience with intelligence gathering
to detect and deter traditional criminal activity than terrorism. The SIS staff
have implemented investigative techniques and established relationships
with other law enforcement agencies that assist SIS staff in gathering and
analyzing information about criminal activity in BOP institutions, such as
drug introduction and gang violence. However, we found that the methods
used by SIS staff to analyze intelligence for traditional criminal activity are
not sufficient for detecting terrorism activity.

       The BOP incarcerates international terrorist inmates who require
sophisticated monitoring and analysis of their mail, conversations, and
activities. Adequate monitoring of these inmates requires SIS staff to
develop specialized capabilities, such as the ability to analyze mail and
telephone calls in uncommon foreign languages, understand extremist
ideology and radicalization, understand world-wide terror networks, perform
link analysis, and oversee the enforcement of SAMs. However, the BOP does
not provide the SIS staff with the intelligence training needed to adequately
undertake these tasks. Further, we found that the BOP does not always
take advantage of available intelligence resources, such as its Intelligence
Operations Officers (IO) and the FBI. 71

The BOP does not provide its SIS staff with the intelligence training needed
to adequately monitor terrorist inmate mail.

       SIS staff told us they do not receive sufficient training in intelligence
analysis and counterterrorism issues so that they can identify suspicious
content in the mail of terrorist inmates. The BOP has developed limited
training on intelligence and counterterrorism and has not made training
widely available to the SIS staff. BOP SIS Lieutenants attend a mandatory
4-day SIS course when first assigned to the SIS office, but this course is
focused on crime scene procedures and general criminal investigative topics
and contains only minimal counterterrorism information. No part of the

       71  The IO position exists at certain institutions such as the BOP’s Metropolitan
Correctional Centers and Metropolitan Detention Centers. This management-level position
is supervised by the Intelligence Operations Officer located at BOP Central Office in
Washington, D.C. The IO works with law enforcement agencies and the courts to obtain
information regarding inmates pending indictment or already in BOP custody. The
information is to be used for determining the inmate’s security risk to the BOP and the
public. BOP, Position Description for Correctional Program Specialist, Intelligence
Operations Officer, July 15, 2005.

U.S. Department of Justice                                                    44
Office of the Inspector General
Evaluation and Inspections Division
training specifically examines intelligence analysis. Similarly, other BOP
staff involved in monitoring inmate communications, particularly
Correctional Officers, do not receive training in intelligence analysis and
receive little training in counterterrorism.

       In addition to classes on general criminal investigative issues, the
BOP told us that the 4-day SIS training course contains six classes – a total
of 8 hours of training – that cover issues and procedures related to
counterterrorism and intelligence issues. When we requested the course
content of these six classes, the BOP provided us with six slide
presentations. We reviewed these presentations and found that only two
(approximately 2 hours) of the six classes focused specifically on terrorism
and provided little information that could be used to help assess the content
of terrorist inmate communications. None of the presentations included
information on how to conduct counterterrorism intelligence analysis for
assessing inmate communications.

      One of the presentations, “Terrorism,” provided a broad introduction
to both domestic and international terrorism, the history of terrorism, and
information on various terrorist groups. The presentation also included
information on terrorist threats to corrections, recommended management
strategies, how the BOP monitors terrorists, how to recognize radicalization,
and pictures of all international terrorist inmates at ADX Florence. The
other presentation, “Terrorism Awareness,” included information on the
BOP’s management and monitoring of terrorist inmates, as well as pictures
of some terrorist inmates.

       Two of the other slide shows the BOP provided focused on use of two
BOP automated database systems. Although the systems are used for
intelligence management and investigations by the SIS offices, the
presentations focused on familiarizing the staff with the systems’ features
and the procedures for accessing the databases and did not specifically
mention terrorism or how to use the systems’ data for monitoring inmates.
The remaining two presentations provided information on interviewing
inmates and legal issues. Neither presentation included information specific
to terrorism, although the subject of SAMs was presented in reference to
legal issues. We also reviewed a video, “7 Signs of Terrorism,” used in the
SIS training and found that it presented information on how to identify
terrorism activities in the local community that may indicate an attack is
being planned.

      The BOP also held a 3-day counterterrorism training session for SIS
supervisors in September 2005. This training session included the following
topics:


U.S. Department of Justice                                           45
Office of the Inspector General
Evaluation and Inspections Division
       •   Overview of radical Islamic groups,
       •   Behavioral mindset of a terrorist,
       •   Security designation and validation,
       •   Management of terrorist inmates,
       •   SAMs inmates,
       •   Correctional Intelligence Initiative,
       •   Protective custody investigation,
       •   Ion spectrometry,
       •   Religious issues,
       •   Analytic partnerships,
       •   Successful investigative strategies, and
       •   Labor management relations and Office of Internal Affairs issues.

A representative from the FBI presented the segment on building analytic
partnerships and discussed FBI and BOP information sharing and what the
FBI does with the information from the BOP.

       Even though this 3-day training course provided the attendees in-
depth information on international terrorist inmates, preventing prison
radicalization, and accessing intelligence resources from the FBI, the
training did not include information on how to conduct intelligence analysis
on international terrorist communications. The BOP reported that 52
Special Investigative Agents and SIS Lieutenants, as well as 13 BOP Central
Office staff, attended the September 2005 session. The BOP Assistant
Director for the Correctional Programs Division stated that the training
would be offered to the remaining Special Investigative Agents and SIS
Lieutenants in August 2006. However, the training was not available to
other SIS staff responsible for monitoring terrorist inmates’ mail and
telephone calls.

       In addition, the BOP has offered a 1-hour course called “Terrorism
Management and Response” during the Annual Refresher Training attended
by all BOP employees. The session covers the definition and history of
terrorism, types of terrorism, terrorist inmates, management strategies for
international terrorist inmates, and radicalization and recruitment.

      While the course lesson plan for the Annual Refresher Training
includes a general background and history of terrorism, as well as some
counterterrorism information related to the BOP or the institution
conducting the training, it does not include specifics on intelligence analysis
that would assist in assessing inmate communications for suspicious
content related to terrorism. The course covers prevention and detection of
radicalization and recruitment, but gives only general information on
monitoring and gathering intelligence. For example, the lesson plan states

U.S. Department of Justice                                           46
Office of the Inspector General
Evaluation and Inspections Division
that 100 percent of terrorist mail and telephone calls should be monitored
and that staff responsible for monitoring should be alerted to look for
specific words and phrases. No other information about specific words or
phrases to look for was provided. Also, the lesson plan states, “Gather
Intelligence – Gathering Intelligence has been shifted from a criminal activity
to proactive focus on terrorism activity,” but the presentation does not give
guidance on how to gather such intelligence other than the traditional
approach of observing inmate actions and behavior.

      Many BOP staff members, including Regional Directors, Wardens,
Associate Wardens, and SIS personnel, agreed that SIS staff need more
counterterrorism and intelligence analysis training so they can recognize
suspicious content in inmate mail and telephone calls. For example, we
received the following comments from three officials:

       We need to distinguish what we do with the international
       terrorist inmates as opposed to general population inmates.
       From a linguistic approach, even cultural diversity, we need to
       have basic training. There’s a Spanish immersion course,
       there should be something like that [to help staff translate the
       communications of] international terrorists.

       The BOP tried to give us some training, but we need a lot
       more. For international terrorists, there’s so many groups . . .
       we need to know what is the up-to-date stuff in the last 6
       months . . . any updated training to keep you on top of the
       game.

       Counterterrorism is a new area for the BOP and it is learning
       how to deal with terrorism inmates as it goes along.

       Although BOP personnel have extensive experience in dealing with
criminals and gangs, we found a lack of understanding and knowledge of
international terrorism and how terrorists operate that would allow BOP
staff to better analyze terrorist inmate mail. For example, one SIS
Lieutenant stated that he felt unprepared and ill-equipped to deal with
international terrorist inmates because he lacks knowledge about inmates’
language, culture, and history that would enable him to better collect
intelligence from their mail and telephone calls. Another BOP IO who
worked with the FBI’s Joint Terrorism Task Force (JTTF) described the need
for more counterterrorism intelligence training: “I don’t think people really
understand the seriousness and sophistication of [these inmates].”




U.S. Department of Justice                                             47
Office of the Inspector General
Evaluation and Inspections Division
       We found that this lack of understanding of terrorist inmates’ beliefs,
motivations, and actions affected the BOP’s information sharing with the
FBI. The FBI relies on the BOP
to inform it of any suspicious              Collaborative Intelligence Work
communication or activity that       We found examples of SIS staff who made
occurs within the prisons.           significant efforts to pursue terrorist
However, because of a lack of        intelligence relating to BOP inmates. For
training on terrorism issues, the    example, the SIS staff at the Allenwood
BOP does not always know when        Correctional Complex and FCI Sheridan
                                     have productive and collaborative working
a communication or activity is       relationships with the FBI Special Agents
suspicious enough to report it to    assigned to terrorism matters in these
the FBI. For example, when the       institutions.      These relationships have
SIS staff at ADX Florence learned    facilitated   intelligence   and information
that terrorist inmates had been      sharing.      The    FBI   agent assigned to
                                     Allenwood stated that the SIS staff were
corresponding with Islamic           “active     and       knowledgeable”    about
extremist inmates in Spanish         international terrorist inmates.          For
prisons, the SIS staff never         example, the SIS staff recently intercepted a
notified the FBI because the staff   letter to an extremist leader in Europe from
did not understand the               an international terrorist inmate housed at
                                     Allenwood. The FBI agent assigned to FCI
implications of the                  Sheridan stated that he regularly received
correspondence for furthering        intelligence and information from the SIS
terrorist activity. Many BOP staff staff on terrorist inmates, and that he
we interviewed told us that they     regularly monitors the communications of
do not believe they have the         these inmates. We also found that the MDC
                                     Brooklyn IO had a solid understanding of
training to adequately analyze       terrorism issues because of his past
intelligence from terrorist          membership on the FBI’s JTTF and could
inmates and therefore may not        identify potential terrorism security risks
recognize such threats to            and share this information with the FBI.
security.


The BOP does not take full advantage of existing access to information and
intelligence through its Intelligence Operations Officers.

       Although both MCC New York and MDC Brooklyn have IOs, neither
institution has taken advantage of the greater access to the intelligence,
information sharing, and resources that JTTF membership could provide
the BOP for better monitoring its terrorist inmates’ mail, telephone calls,
and activities. The BOP developed the IO position in 1999 to serve as the
BOP’s link with federal law enforcement task force operations “which are
engaged in operations which could provide meaningful intelligence
information regarding inmates already in BOP custody,” particularly the




U.S. Department of Justice                                               48
Office of the Inspector General
Evaluation and Inspections Division
FBI’s JTTF. 72 At BOP detention centers in metropolitan areas like New York
City where there is a constant population of new inmates arrested on
terrorism-related charges, we believe a consistent exchange of information
between the IOs and the JTTFs is vital to help BOP institutions determine
the appropriate level of monitoring for these inmates.

       For example, the MDC Brooklyn IO, a former member of the New York
JTTF, said he found out that two inmates at the MDC were terrorism
suspects by reading their arrest warrants at the FBI. The charge sheet the
MDC had received stated only, “Lying to a Federal Officer.” Because of the
information the IO gained from the JTTF, the MDC was able to plan for the
appropriate level of security and communications monitoring for the
inmates. However, the IO has not been permitted to participate on the JTTF
since January 2004 because of staffing shortages at the MDC and his
assignments covering vacant posts. At MCC New York, the IO is not a
member on the JTTF and therefore has not received background
information on incoming inmates, according to MCC New York management
staff.

       We interviewed Special Investigative Agents and SIS Lieutenants at six
other BOP detention centers (one MCC and five Federal Detention Centers
[FDC]) concerning the IO position and benefits of JTTF membership to the
BOP. Two of these IOs were full-time JTTF members, two were part-time
members, one IO was a liaison, and one FDC did not have an IO position. 73
At four of the five institutions with IOs, the staff told us that the IO position
had enhanced information sharing between the BOP and the FBI. For
example, an IO who was a JTTF member had access to FBI databases and
could access information about a subject prior to the subject’s arrest. The
BOP was then able to plan the appropriate security measures, such as mail
and telephone monitoring, prior to the inmate being placed in BOP custody.
The IO also could provide information to the JTTF based on intelligence
gathering in the prison and could assist the task force in planning
operations and utilizing investigative methods inside the prison. In addition
to information sharing, JTTF membership allows IOs to develop skills and
expertise in intelligence analysis and terrorism issues and to take advantage
of the terrorism and intelligence training that the FBI offers to its JTTF
members.


       72At the time of our site visit, 15 international terrorist inmates were incarcerated
at MCC New York and MDC Brooklyn.

        73 A member of the JTTF is supervised by and receives taskings from an FBI JTTF

squad leader. A JTTF liaison is not a participating member of the JTTF and acts only as a
point of contact.


U.S. Department of Justice                                                        49
Office of the Inspector General
Evaluation and Inspections Division
Developments and Future Plans

       In addition to the Counterterrorism Unit that will serve as a
clearinghouse for terrorism intelligence in the BOP, the BOP is pursuing the
following initiatives to improve its intelligence capability.

       •   Link Analysis Database. In June 2004, an Intelligence
           Management Analyst at the BOP Central Office created a database
           (which the BOP refers to as a link database) that enables the
           Analyst to conduct link analysis on terrorist inmates’ mail,
           telephone calls, and financial transactions. 74 In May 2005, the
           Analyst began sending monthly link analysis reports to all SIS
           offices, regional offices, and the National Joint Terrorism Task
           Force (NJTTF). He encouraged the SIS offices to share the report
           with their local JTTFs. The Analyst said that he had received
           positive feedback from BOP institutions and the FBI on his link
           analysis reports. As one example of the report’s value, he said that
           he detected a link between several BOP international terrorist
           inmates and a specific address and reported this to the FBI.
           According to the Analyst, the FBI initiated an investigation based
           on the information, which the Analyst believed eventually led to an
           arrest.

           To further expand its link analysis capability, the BOP is
           developing a web-based tool that will access the BOP’s existing
           inmate data systems. Staff will be able to conduct link analyses on
           all inmates, not just international terrorist inmates, without labor-
           intensive data entry into a separate database. Additionally, all SIS
           staff will be able to access the web-based link analysis tool at their
           institutions. The BOP expects this link analysis tool to be available
           in fall 2006.

       •   Consolidation of International Terrorist Inmates. The BOP is
           planning to consolidate all international terrorist inmates in
           approximately six institutions for enhanced management and
           monitoring. The approximately 146 international terrorist inmates
           will be re-classified under a new classification system as to their
           security designations and the resulting information will be used to
           determine where to house the inmates. In May 2006, BOP officials
           said the re-classifications were about half completed and should all

       74 The BOP’s database does not create links but rather extracts and organizes the

data in a manner that enables the analyst to identify relationships or links in phone
numbers, addresses, names, financial transactions, etc.


U.S. Department of Justice                                                     50
Office of the Inspector General
Evaluation and Inspections Division
          be completed by October. The BOP believes that this consolidation
          will allow it to achieve better counterterrorism coverage with its
          limited intelligence, counterterrorism, and translation resources,
          while allowing the remaining institutions to concentrate on gang-
          related activity and other prison-based issues.

Recommendations

5. The BOP should provide advanced and continuing counterterrorism
   intelligence training to its full-time SIS staff, Language Specialists, and
   Intelligence Operations Officers (IOs), especially in those institutions that
   house terrorist inmates.

6. The BOP should clarify the role of IOs regarding membership on the
   FBI’s JTTFs and ensure that the institutions support the IOs in carrying
   out their full-time task force coordination, intelligence gathering, and
   information sharing duties.




U.S. Department of Justice                                            51
Office of the Inspector General
Evaluation and Inspections Division
                               ADDITIONAL ISSUES


       The problems we identified regarding the monitoring of
       inmates’ mail also affected the monitoring of international
       terrorist and other high-risk inmates’ telephone calls,
       cellblock conversations, and social visits.      Because of
       staffing reductions and the limitations of BOP’s foreign
       language translation capability, the institutions we visited
       were not monitoring 100 percent of telephone calls of
       inmates on the telephone monitoring lists, including Alert
       calls.   For calls that were monitored, staff were not
       adequately    trained     in   intelligence   analysis  and
       counterterrorism to recognize suspicious content in the
       conversations.    We also found that the recording of
       cellblock conversations of SAMs inmates, although
       authorized, was occurring at only one BOP institution.
       Additionally, social visits of non-SAMs terrorist and other
       high-risk inmates were not audio monitored.

       Many of the BOP staff responsible for monitoring inmates’ mail also
are responsible for monitoring inmates’ verbal communications. Because of
the close association of mail monitoring to other types of inmate monitoring
(for example, an inmate on a mail monitoring list is usually on the telephone
monitoring list as well), we also reviewed the BOP’s monitoring activities for
verbal communications.

The BOP does not monitor a sufficient amount of inmate telephone
calls.

      We found that telephone calls from high-risk inmates are not always
monitored. The institutions we visited were not consistently meeting their
monthly goals of monitoring 100 percent of Alert telephone calls or 100
percent of telephone calls of other inmates on the regular telephone
monitoring lists. 75

       According to the SIS staff at 7 of the 10 institutions we visited, the
frequent rotation of staff in the telephone monitor position, as well as the
reallocation of other positions that monitor telephone calls, caused many

        75 Alert calls are a sub-set of the SIS-created telephone monitoring list. Alert calls

trigger a signal on the INTRUDR telephone system for staff to “live” monitor the calls.
Inmates placed on Alert telephone monitoring status by SIS staff are those inmates
identified as posing the greatest risk of being engaged in illegal or suspicious activity and
include terrorist inmates.

U.S. Department of Justice                                                          52
Office of the Inspector General
Evaluation and Inspections Division
calls to remain unmonitored. Additionally, telephone calls conducted in
foreign languages were often not translated and therefore not monitored,
including calls placed by inmates on the Alert and regular telephone
monitoring lists. SIS staff told us that, as a result, they believed important
intelligence information was missed. Although some institutions met or
exceeded their goals for random monitoring, institutions did not consistently
meet the 10 to 15 percent random monitoring goals set by Regional
Directors.

Alert telephone calls of                 Reduction of Telephone Monitoring at
                                                    MCC New York
terrorist and other
high-risk inmates are            We found the most serious example of a reduction in
not always monitored.            telephone monitoring at MCC New York. Because of
                                 the loss of 2 of 3 telephone monitor positions, only 3 of
                                 1,385 (0.2 percent) Alert calls were monitored in
       Despite the
                                 August 2005, leaving 99.8 percent of the calls
importance of telephone          unmonitored.
monitoring and the
requirement to monitor     At that time, John Gotti, Jr., a high-profile organized
                           crime figure, was incarcerated there while on trial for
100 percent of Alert
                           kidnapping, attempted murder, racketeering, and other
calls for high-risk        charges. According to MCC staff, Gotti made 50 calls
inmates, we found the      between August 20, 2005, and September 20, 2005 –
percentage of Alert calls  none of which were monitored.
monitored varied widely
                           The elimination of two telephone monitor positions in
by month and by
                           the MCC’s SIS office required the MCC to reprioritize
institution. 76 When we    the duties of the one remaining telephone monitor.
reviewed the               Previously, the three telephone monitors read mail,
institutions’ SIS records  monitored phone calls, monitored all the institution’s
and INTRUDR data for       surveillance cameras, and responded to subpoenas.
                           Once two positions were eliminated, the remaining
FY 2005, we found that
                           telephone monitor was told to focus on getting the mail
only 3 of the 10           out. When he arrived in the morning, he spent the first
institutions we visited    4 hours reading mail from inmates on the mail
consistently monitored     monitoring list, reading and copying SAMs letters and
close to 50 percent of     envelopes, and filling subpoenas.      When he was
                           finished with those activities, he could then monitor
Alert telephone calls
                           phone calls.
each month. Even the
country’s highest
security prison, ADX Florence, which houses the largest number of and
most dangerous terrorist inmates, did not monitor 50 percent of Alert calls


         76 During a December 2005 interview, the BOP Assistant Director for the

Correctional Programs Division told us that “the BOP expects 100-percent review and
reading of mail [of inmates on mail monitoring lists] and 100 percent of [Alert] telephone
calls listened to by staff.” Also, a BOP memorandum, Handling of Terrorist/Suspected
Terrorist Inmates, March 15, 2005, directs BOP institutions to monitor 100 percent of
international terrorist inmates’ mail and telephone calls.

U.S. Department of Justice                                                        53
Office of the Inspector General
Evaluation and Inspections Division
each month. Only 2 of 10 institutions monitored close to 100 percent of
Alert calls almost every month – USP Allenwood and USP Beaumont.

       Subsequent to our field work, we requested telephone monitoring data
from INTRUDR and SIS records from October 2005 to February 2006 for the
10 institutions we visited. We found that of the eight institutions that
monitored significantly less than 100 percent of Alert telephone calls during
FY 2005, six had markedly increased the percentage monitored after our
visits, and three of these institutions reached 100-percent monitoring
during these 5 months of FY 2006. SIS staff at the six institutions told us
that the rate of monitoring had improved either because they were ordered
by their Regional Director to increase their Alert monitoring numbers or
because their SIS office had focused on streamlining its Alert telephone call
list by ensuring that only appropriate inmates were included on the list.
Additionally, in December 2005, the BOP Central Office re-allocated a
telephone monitor position to the SIS offices who lost these positions earlier
in 2005 as a result of the mission critical roster.

Telephone calls of other inmates on telephone monitoring lists are not
consistently monitored.

       Although the BOP does not track and could not estimate how many
telephone calls were monitored for inmates on institutions’ regular
telephone monitoring lists, all SIS staff at the 10 institutions we visited told
us that 100 percent of these calls were not being monitored as required by
the BOP Assistant Director for the Correctional Programs Division. 77 SIS
staff told us that monitoring for these inmates was affected by the same
factors that affected the monitoring of Alert calls – frequent rotation of staff
in the telephone monitor position and staffing reallocations.

The frequent rotation of telephone monitors and the reallocation of some
positions in the SIS offices reduce intelligence gathering and analysis.

       As discussed in the mail monitoring section, many SIS telephone
monitor positions are filled on a rotational basis and have been subject to
staff reductions. We found that the loss of continuity caused by the rotation
of telephone monitors reduced intelligence gathering from inmate telephone
calls. Like most post assignments at BOP institutions, the telephone




       77 Only Alert telephone calls are registered in the INTRUDR system. The regular

telephone monitoring list is not registered in INTRUDR. Therefore, only Alert calls are
tracked.


U.S. Department of Justice                                                     54
Office of the Inspector General
Evaluation and Inspections Division
monitor is a “bid” post subject to quarterly rotation. 78 Frequent rotation of
telephone monitors reduces the SIS offices’ knowledge of inmate behavior
patterns and requires time-consuming training that reduces productivity.
Also, SIS offices at 5 of the 10 institutions we visited had lost at least 1
telephone monitor position, through the reallocation of this position, which
decreased the amount of telephone monitoring accomplished. One SIS
official at an institution where multiple terrorists were housed told us his
office lost two of three telephone monitor positions and all three intelligence
officer positions that also helped monitor telephone calls, due to the
reallocation of the positions elsewhere in the institution.

       SIS staff at each institution we visited told us that not all telephone
calls were being monitored adequately. For example, a Special Investigative
Agent at one institution told us that during a 3-month period when an
experienced telephone monitor was outbid for the position and a new staff
member rotated in, the new staff member could monitor only 45 to 50
percent of what the experienced staff member had monitored and wrote no
incident (misconduct) reports. The experienced telephone monitor
subsequently returned to the SIS office, and in his first month back he
monitored 100 percent of the telephone calls for inmates on the monitoring
list and issued eight incident reports to inmates. An FBI Special Agent who
conducted investigations in this same prison told us that “the key to
effective monitoring is continuity in the SIS department, which requires a
full-time, dedicated staff.”

       A reduction in telephone monitoring directly affects the amount of
intelligence gathered at an institution. SIS staff said they rely heavily on
this type of intelligence to keep them abreast of planned criminal and
other unauthorized activity in the institutions. At one SIS office, staff
stated that the BOP was “missing critical information from not monitoring
phone calls.” One Special Investigative Agent told us, “Phone calls are
SIS’s main source of intelligence.” Another Special Investigative Agent
said, “We’d be flying in the dark if not for mail and telephone monitoring.”

       The BOP Assistant Director for the Correctional Programs Division,
told the OIG that he supported a quarterly rotation in the telephone monitor
position because Correctional Officers should be “out walking around and
talking to the inmates” to bring a current knowledge of inmates and inmate
activity to the SIS office. However, the Assistant Director said he would
consider less frequent rotation of the telephone monitor position in SIS
offices after being briefed on the results of our review.


       78 A bid position is a post in which a Correctional Officer can make a request for

assignment. Post assignments are generally based on seniority.

U.S. Department of Justice                                                       55
Office of the Inspector General
Evaluation and Inspections Division
Translation of foreign language telephone calls is sporadic.

      The same concerns BOP staff expressed about the lack of guidance on
translating foreign language inmate mail apply to translating foreign
language telephone calls. The March 15, 2005, BOP memorandum that
discussed the Language Translation Services Project addressed only
translations of mail and telephone calls for specific international terrorist
inmates. The BOP has no foreign language translation guidelines for any
other group of inmates. Institution staff, primarily the SIS staff, decide
what priority will be placed on obtaining telephone translations for inmates
other than non-SAMs terrorists.

       We found that BOP staff often do not listen to or translate calls in a
foreign language from inmates on telephone monitoring lists (including Alert
calls). Or, in some cases, BOP staff listen to the calls but do not understand
the language. Staff who conducted telephone monitoring in 5 of the 10
institutions we visited informed us that if the institution did not have a staff
member readily available to translate a foreign language phone call, the call
was unlikely to get translated, even though the calls were recorded.

       Spanish is the foreign language most frequently spoken by BOP
inmates. Staff at 7 of the 10 institutions we visited told us that there were
not enough Spanish-speaking staff to translate telephone calls. The
telephone monitor in one SIS office told us that when he was monitoring
Alert calls and came across one in Spanish, he “just moves on to the next
one,” and the call does not get translated. The SIS Technician in that same
office stated, “I’m going to be honest with you, on mail and Alert phone
calls, 9 out of 10 times, Spanish goes untranslated.” We also found a
similar situation at a penitentiary we visited. An SIS Technician there told
us:

       If the call is in Spanish [and the tower officer does not
       understand Spanish], the officer notes in the [INTRUDR] system
       “not able to monitor.” If the call is not picked up by SIS, the
       call is probably not listened to. If it’s an Alert call, it may also
       fall through the cracks. We only have so many staff.

       At another penitentiary because of quarterly staff rotations, the SIS
office lost the telephone monitor who translated Spanish telephone calls
that could not be translated by the tower officers. Because the new
telephone monitor who rotated in did not speak Spanish, the calls went
untranslated. An SIS Lieutenant at another institution stated, “Foreign
language never gets translated – we operate on faith.”



U.S. Department of Justice                                              56
Office of the Inspector General
Evaluation and Inspections Division
Although some institutions meet or exceed their goals for random telephone
monitoring, random monitoring is still inconsistent.

       In addition to not meeting the BOP goal of monitoring 100 percent of
calls for inmates on Alert and regular telephone monitoring lists, we found
that only 3 of the 10 institutions we visited met or surpassed their goals for
randomly monitoring between 10 and 15 percent of all other monthly
telephone calls placed by inmates. While the BOP has a 5-percent goal for
random monitoring of inmate telephone calls, the Regional Directors require
institutions within their regions to randomly monitor a higher percentage of
all calls from inmates not on monitoring lists, percentages that vary by
region from 10 to 15 percent. Officials at several institutions we visited said
they strive to monitor 100 percent of all inmate phone calls. For example,
between October 2004 and February 2006 ADX Florence randomly
monitored 100 percent of inmate telephone calls for inmates not on
monitoring lists (except in December 2004, when 85.7 percent of calls were
randomly monitored). Also during this same period, USP Allenwood
consistently monitored between 90 and 100 percent of inmate telephone
calls for inmates not on monitoring lists. 79

       We found that in FY 2005, 7 of the 10 institutions we visited did not
consistently meet their Regional Directors’ random telephone monitoring
goals of between 10 to 15 percent. Four of these seven institutions never
reached their Regional Director’s goal for random monitoring of inmate
telephone calls during the entire fiscal year, and two of the seven
institutions met their Regional Director’s goal only 1 and 2 months of FY
2005. One of the institutions met the goals for only 6 months of the fiscal
year. Additionally, one of these seven institutions was unable to meet even
the minimum 5-percent random monitoring goal established by the Central
Office. 80 From October 2005 to February 2006, four of seven institutions
that previously were not meeting the Regional Director’s goals increased
their random telephone monitoring percentages and met the goals for each



       79  USPs and the ADX Florence can be more successful at randomly monitoring a
higher percentage of inmate calls than other BOP institutions because they have tower
officers on the 12 a.m. to 8 a.m. morning shift who can monitor phone calls (recorded on
the previous day) when there is limited activity in the facility. Institutions that have no
towers must rely on the small SIS staff to monitor inmate calls or allow other staff members
such as Unit Managers, Case Managers, or Associate Wardens to monitor phone calls from
their computers.

        80 FCI Beaumont failed to meet the Central Office goal of monitoring 5 percent of

random telephone calls in any month in FY 2005. MDC Brooklyn failed to meet the 5-
percent goal for 8 of 12 months, and MCC New York failed to meet the 5-percent goal for
7 of 12 months.

U.S. Department of Justice                                                       57
Office of the Inspector General
Evaluation and Inspections Division
of those 5 months. However, the other three institutions were still not
meeting the Regional Director’s goals during this 5-month period.

Developments and Future Plans

       In interviews with the OIG, the BOP Director and the Assistant
Director for the Correctional Programs Division emphasized their
commitment to 100-percent monitoring of telephone calls of inmates on
telephone monitoring lists. They acknowledged receiving feedback from
institution staff describing the negative effects of losing telephone monitor
positions on their monitoring and intelligence gathering. The Assistant
Director said that despite its budget limitations, in December 2005 the BOP
reallocated one telephone monitor position to all medium- and high-security
and administrative institutions that previously lost this position.

Recommendations

7.   The BOP should ensure that it monitors 100 percent of Alert telephone
     calls and translate all foreign language Alert calls.

8.   The BOP should ensure that it monitors 100 percent of the calls of
     inmates on the SIS telephone monitoring lists and translate all foreign
     language calls from inmates on this list.

9.   The BOP should review the frequency of the rotation and need for
     longer-term assignment of telephone monitor positions in SIS offices.

10. The BOP should ensure that foreign language telephone calls randomly
    selected for monitoring are translated either live or from the INTRUDR
    recordings.

Audio recording of cellblock conversations of SAMs inmates occurs at
only one institution.

       Although SAMs authorize the BOP to audio record SAMs inmates’
cellblock conversations, three of the four institutions we visited that house
SAMs inmates were not recording these conversations. 81 Only ADX
Florence was recording cellblock conversations for SAMs inmates, using


         81 The authority to audio record inmate cellblock conversations is outlined in the

SAMs as follows: “Pursuant to 28 C.F.R. § 501.3 . . . Recording Conversations Between
Cells . . . USMS/BOP/Detention Facility/FBI are hereby authorized to place microphones
in the hallways and elsewhere outside the inmate’s cell to record any statements made by
the inmate to other inmates or staff . . . . The Notice of SAM given to the inmate shall notify
the inmate that he is subject to such recording.”

U.S. Department of Justice                                                         58
Office of the Inspector General
Evaluation and Inspections Division
recording equipment available as part of the cellblock construction. The
BOP has not issued guidance for when or under what circumstances
cellblock conversations of SAMs inmates should be recorded. The BOP
Director told us he does not see the value of putting recording devices in all
cellblocks where SAMs inmates are housed. He stated that the BOP is
capable of audio recording on a case-by-case basis when intelligence
indicates a need.

       All Special Investigative Agents and SIS Lieutenants at the
institutions we visited which house SAMs inmates informed us that they
would like to listen to cellblock conversations of SAMs inmates but were
unable to do so because they lacked specialized recording equipment and
the SIS staff and translators to listen to the recordings. A manager at MCC
New York told us that it would be helpful to monitor what terrorist inmates
were saying, particularly when they were incarcerated during their trials.
He said terrorist inmates under SAMs were conversing with other inmates at
the facility and he believes the FBI would be interested in these
conversations. However, neither the FBI nor the USAOs at the sites we
visited had ever asked the BOP to record the cellblock conversations of
SAMs inmates.

Recommendation

11. The BOP should consider implementing audio recording of cellblock
    conversations of all SAMs inmates and establish guidelines regarding
    when and under what circumstances to record these conversations.

The BOP has limited capability to monitor conversations of terrorist
and other high-risk inmates during social visits.

       The BOP does not audio record the social visits of non-SAMs terrorist
and other high-risk inmates for monitoring purposes. As a result, despite
the challenges of recording in a visiting room setting, the BOP may be
missing opportunities to detect terrorist or criminal activity. 82 Additionally,
the BOP has not issued guidance for when or under which circumstances
social visits of non-SAMs inmates should be recorded. As with cellblock
conversations, the BOP Director stated that the BOP has the authority and


       82  The BOP has the authority to audio record social – but not legal – visits of
inmates. In December 2005, ADX Florence informed us that it had begun recording some
non-contact social visits of non-SAMs inmates. All social visits for SAMs inmates are non-
contact and are monitored contemporaneously by the FBI as well as recorded for later
monitoring and analysis. All other inmates, including terrorist and other high-risk
inmates, may have contact social visits in a large, open visiting room. These contact visits
are not recorded.

U.S. Department of Justice                                                        59
Office of the Inspector General
Evaluation and Inspections Division
tools to audio monitor specific visits with special advance preparation when
intelligence indicates the need.

       None of the 10 institutions we visited had the capability to routinely
audio record conversations in the institution’s large contact visiting room.
Many of the non-SAMs international terrorist and other high-risk inmates
are housed in the general population of BOP institutions and are allowed
contact visits. All visiting room staff we interviewed at each of the 10
institutions said the capability to listen to the visiting room conversations of
selected inmates to detect planned terrorist and criminal activities or
inappropriate behavior would be helpful. SIS staff told us that because
inmates realized their telephone conversations and mail were monitored,
they directed their family and friends to visit because they knew the
conversations would not be audio monitored. 83

       Most SIS staff members we interviewed said that while recording visits
would be beneficial for intelligence gathering purposes, it would be
extremely difficult to carry out. Correctional Officers told us that the
visiting room gets very noisy during peak visiting hours, making it almost
impossible to listen “live” to a specific conversation without special
equipment. Limited staff resources within the SIS offices would be further
stretched by the additional responsibility of listening to recordings of social
visits, and translation of some of these conversations would be required.
Additionally, all of the visiting rooms we observed were staffed with the
minimum number of Correctional Officers to process the visits (i.e., search
and escort inmates, escort visitors, and visually monitor the visiting room).
Consequently, operating and monitoring audio recording equipment in these
visiting rooms with the current staff contingent would not be viable.

Recommendation

12. The BOP should consider periodically audio recording social visits of
    non-SAMs terrorist inmates and other selected high-risk inmates in
    institution visiting rooms.




       83 The BOP can audio record inmates in non-contact visiting booths in only 8 of

more than 100 BOP institutions nation-wide.

U.S. Department of Justice                                                     60
Office of the Inspector General
Evaluation and Inspections Division
       The Department does not have a mandatory review
       process that requires all international terrorist inmates
       to be considered for SAMs upon initial incarceration and
       after conviction.   In addition, the FBI’s intelligence
       gathering and information sharing with BOP institutions
       on terrorist inmates are inconsistent. Moreover, the FBI
       and U.S. Attorneys do not adequately share information
       about newly incarcerated (pretrial) terrorists with MCC
       New York, which increases the security risk to the
       institution.

The Department does not have a mandatory review process to require
that all international terrorist inmates are considered for SAMs upon
initial incarceration and after conviction.

       We found that the Department has no policy requiring that all
inmates arrested for international terrorism-related crimes are reviewed to
determine whether they should be placed under SAMs. 84 Unless a review is
required, there is no guarantee that international terrorist inmates will be
considered for SAMs. Consequently, terrorist inmates who pose a risk for
continuing their terrorist activities while incarcerated may not receive the
heightened security and communications monitoring they require during
pretrial and post-conviction incarceration.

       Several documents provide information about the criteria and
procedures for requesting SAMs for inmates – the Code of Federal
Regulations, the U.S. Attorneys’ Manual, and Criminal Division guidelines.
However, none of these documents requires that all international terrorist
inmates be considered for SAMs. For example, the Code of Federal
Regulations states that requests for SAMs may be submitted in writing to
the Attorney General, through the Criminal Division’s OEO, by the head of a
federal law enforcement agency (e.g., the prosecuting USAO) or the head of
an agency in the U.S. intelligence community. The U.S. Attorneys’ Manual
includes a section on Procedures for Special Confinement Conditions, dated
October 1997, which defines SAMs and provides brief guidance about where
a written request is to be sent (OEO) and what information to include in the
request. It also states that the USAO, if requesting SAMs, should first
contact and discuss the request with FBI field personnel familiar with the
inmate.


        84 Title 28 of the Code of Federal Regulations authorizes the BOP Director, upon the

direction of the Attorney General, to implement the restrictive housing and communications
monitoring conditions known as SAMs for national security reasons or to prevent acts of
terrorism or violence.

U.S. Department of Justice                                                      61
Office of the Inspector General
Evaluation and Inspections Division
      In March 2006, the Criminal Division’s Counterterrorism Section, in
coordination with OEO, distributed SAMs guidance to coordinators of the
USAOs’ Anti-Terrorism Advisory Councils (ATACs). 85 This document states
in part:

       Consideration of the appropriate use of SAMs is the
       responsibility of every Assistant U.S. Attorney handling a
       terrorism or terrorism-related matter and should be part of the
       overall planning and case strategy at the pre-charging stage.
       Even where SAMs are not sought or obtained at the detention
       hearing or other initial stage of the prosecution, they may
       become appropriate at later stages, during trial or post
       conviction, for example. Thus prosecutors must remain vigilant
       as to appropriate circumstances which would call for the
       imposition of SAMs at any stage of the prosecution. 86

       The guidance encourages USAOs to discuss the proposed SAMs with
the FBI (or other involved law enforcement or intelligence agencies) and also
encourages the USAO to consult with the Criminal Division. We consider
these guidelines, which are detailed and informative, to be a positive
development, but they are not mandatory Department requirements. We
believe that policy issued by the Attorney General or Deputy Attorney
General requiring a SAMs review process and coordination among the
USAOs, FBI, Criminal Division, and the Department’s newly formed
National Security Division when inmates charged with international
terrorism-related crimes are incarcerated initially and after they are
convicted would better ensure that inmates who require the highest level of
communications monitoring will receive it.

The FBI’s intelligence gathering on terrorist inmates and information
sharing with BOP institutions are inconsistent.

      We found that the FBI’s interaction with the BOP for intelligence
gathering and information sharing on incarcerated terrorists varied widely
among FBI field offices at the sites we visited. We also found that the FBI
was not always timely in translating the foreign language communications
of SAMs inmates, which could contain valuable sources of intelligence.

       85  The purpose of the ATACs is to facilitate the exchange of information at the
federal, state, and local levels and between the public and private sectors; conduct
counterterrorism training; and coordinate terrorism prosecutorial and investigative
strategies within the Department. There is one ATAC Coordinator, who is an Assistant
U.S. Attorney, for each of the 93 Judicial Districts.

      86 Criminal Division, Guidance on Special Administrative Measures (SAMs),

February 14, 2006.

U.S. Department of Justice                                                       62
Office of the Inspector General
Evaluation and Inspections Division
       The FBI assigns a Special Agent to each BOP institution from the field
office or resident agency office with geographic jurisdiction for the
institution. The Special Agent is responsible for investigating inmate-related
criminal incidents that occur at the BOP institution. 87 Depending on the
size of the FBI office and the number of terrorist inmates housed at
institutions in its jurisdiction, the Special Agent also may be responsible for
handling terrorism-related inmate issues, or a second agent may be
assigned to that task. 88

        We found that two of the five FBI offices at sites we visited conducted
little to no proactive intelligence gathering regarding the activities of the
terrorist inmates or inmates described as terrorist associates. The ADX
Florence SIS staff told us that the FBI showed little interest in the 17
international terrorist inmates held at ADX until August 2004, when the FBI
was told by Spanish authorities that three of those inmates – the 1993
World Trade Center bombers – had been corresponding with Islamic
extremists in Spanish prisons and with a fugitive wanted for questioning in
a planned courthouse bombing in Madrid. After discovery of the World
Trade Center bombers’ letter writing, these three inmates were placed under
SAMs, and the FBI assigned two Special Agents from its resident agency
office in Pueblo, Colorado, to handle terrorist issues at the Florence
complex.

       The three FBI agents we interviewed who were responsible for both
terrorism and criminal matters at the Beaumont Federal Correctional
Complex in Texas were unaware that two inmates at the USP were
incarcerated for international terrorism crimes. The SIS staff informed us
that the local FBI office did not coordinate or proactively gather intelligence,
share information, or monitor the activities of any terrorist inmate or those
inmates described as terrorist associates at the complex.

      Backlogs in SAMs translations can result in missed intelligence. The
FBI is required by SAMs provisions to complete translations of SAMs inmate
communications within 60 days. However, staff in at least three of the

       87  Inmate-on-inmate crimes are normally investigated by the FBI. The Department
of Justice OIG, however, is responsible for investigating allegations of abuse, civil rights
violations, bribery, fraud, and other violations by Department employees, contractors, and
grantees, including allegations regarding BOP employees. The OIG does not have the
authority to investigate violence by one inmate against another, unless it was done with the
involvement of a BOP employee.

       88 In two of the four BOP facilities we visited, the FBI had assigned one agent for

criminal issues and another agent for terrorist issues. MCC New York and MDC Brooklyn
each had one FBI agent assigned to criminal issues, while terrorism inmates each had a
separate case agent assigned.

U.S. Department of Justice                                                       63
Office of the Inspector General
Evaluation and Inspections Division
institutions we visited experienced delays of 6 to 18 months in obtaining
Arabic translations of SAMs inmate communications from the FBI. 89 For
example, staff at the Allenwood complex in Pennsylvania sent nine letters to
the FBI in New York for translation between April 2004 and August 2005
that were not translated until November 2005. Officials from MCC New
York said they waited 12 to 18 months for translations of SAMs inmates’
letters they sent to the FBI. Although the FBI is responsible for monitoring
SAMs inmates, the FBI and the BOP must work together and use
information from inmate mail and calls to detect and deter activities by
SAMs inmates that pose a security risk to the institution and to the public.
When asked about the delay in translation, the FBI stated that it does not
have enough Arabic translators to meet the demand for translations for all
its ongoing counterterrorism efforts. 90 Consequently, the FBI said it must
prioritize the translation workload, which leads to delays in providing some
translations. Additionally, the lengthy delays in FBI translations create a
management problem for the BOP because the SAMs inmates are not
permitted to send out or receive their mail until it is translated. We believe
that a delay of 6 to 18 months to send and receive mail is unreasonable,
and it causes numerous complaints from the inmates. In one case, after a
BOP Special Investigative Agent inquired to the FBI about a delay in mail
translation for a SAMs inmate, he was verbally told by the FBI agent to
release the mail to the inmate even though the FBI had not yet translated
the mail and the contents were unknown.

      Examples of positive collaboration between the BOP and FBI. The
Assistant Director of the Counterterrorism Division at FBI headquarters told
us that the level of communication between the BOP and FBI is “very good,
open, and fluid.” He believed the level of monitoring for terrorist inmates
depends on the individual, the charges, the individual’s role in the crime,
and on the FBI’s available resources. He stated that while the FBI has
limited resources, the inmates have an unlimited ability to correspond.
According to this FBI official, the FBI tries to “pick and choose those
[inmates]” for monitoring and translation that can yield intelligence to “help
the U.S. government.”

     During our site visits, we found instances where the FBI Special
Agents assigned to BOP institutions were actively working with the BOP and

       89  The BOP keeps copies of all SAMs inmates’ mail and forwards the originals to the
FBI for translation.

       90 The FBI’s challenges in securing reliable translation resources were addressed in

two OIG reports, Federal Bureau of Investigation’s Foreign Language Translation Follow-up,
Audit Report 05-33, July 2005, and the Federal Bureau of Investigation’s Foreign Language
Program – Translation of Counterterrorism and Counterintelligence Foreign Language
Material, Audit report 04-25, July 2004.

U.S. Department of Justice                                                      64
Office of the Inspector General
Evaluation and Inspections Division
collecting intelligence on terrorist inmates. For example, the FBI Special
Agents assigned to the Allenwood Correctional Complex and FCI Sheridan
are proactively gathering intelligence, monitoring international terrorist
inmates’ activities, and communicating with the SIS staff at the institutions
on a regular basis. These FBI agents stated that their relationships with the
SIS staff were excellent. Both agents were knowledgeable about the terrorist
inmates’ communications, visits, associations, and movements inside and
outside the prisons. These agents also referred leads and passed on
information to other FBI field offices regarding potential terrorism activity in
those jurisdictions that resulted from intelligence collected within the
prisons.

Developments and Future Plans

       The FBI Assistant Director for Counterterrorism stated that during
FY 2005 the FBI had sought to identify more systematically where terrorist
inmates are incarcerated, as well as monitor their activities and with whom
they were communicating. Toward that end, the FBI, through the National
Joint Terrorism Task Force’s (NJTTF) Correctional Intelligence Initiative,
directed all FBI field offices to open intelligence case files on any
incarcerated international terrorist inmates within the field offices’
jurisdictions. 91 Before this change in policy, the FBI case agent who
arrested an inmate was responsible for monitoring that inmate, no matter
where the inmate was incarcerated. For example, many international
terrorists are investigated and prosecuted in the Southern District of New
York but are sent to prisons all over the country to serve their sentences.
Therefore, an FBI Special Agent in New York City was still responsible for an
international terrorist inmate incarcerated in ADX Florence in Colorado.
The FBI Assistant Director said he expected this policy change to increase
communication and information exchange between the FBI and the BOP
because the jurisdiction and responsibility for monitoring the international
terrorist inmates is now transferred to the local FBI office where the prison
is located. Case monitoring for inmates housed at, for example, ADX
Florence is now conducted by the FBI Resident Agency Office located in
Pueblo, Colorado. Closer proximity of the monitoring agent to the
international terrorist inmate should assist the FBI in proactively gathering
intelligence available within the BOP.



        91 The FBI has two BOP staff working full time at the NJTTF, a multi-agency task

force with representatives from the intelligence, law enforcement, defense, diplomatic,
public safety, and homeland security communities. The NJTTF provides administrative,
logistical, policy, financial, and training support and guidance to the JTTFs. According to
the FBI, the NJTTF serves as the “point of fusion” for terrorism intelligence for the JTTFs,
member agencies, and others in the intelligence community.

U.S. Department of Justice                                                         65
Office of the Inspector General
Evaluation and Inspections Division
MCC New York does not receive adequate information about newly
incarcerated terrorist inmates to determine required monitoring.

       Management staff at the MCC New York reported that they routinely
receive “remarkably little” information other than a single page synopsis of
charges when they receive terrorist inmates. 92 The BOP depends on the
arresting agency and the prosecuting USAOs to provide information on the
inmates’ background, criminal history, and security threat to determine the
level of security monitoring for newly incarcerated inmates. However, we
found that the FBI and USAOs do not always communicate this information
to the BOP. MCC staff told us that the lack of information about pretrial
inmates, who are unclassified as to their security level, prevents them from
doing their job effectively and also puts the security of staff and the
institution at risk.

       For example, MCC staff discovered in a news article, rather than from
the FBI or USAO, that an international terrorist inmate housed at the MCC,
and currently under SAMs, was a high-ranking member of al Qaeda, had
martial arts and urban warfare training, and had trained to be a bodyguard
for Osama bin Laden. Staff stated that when a new inmate is received, they
have to generate a call to the FBI or USAO to ask, “What’s the story? [We]
shouldn’t have to call them – they should call us. They’re very reluctant to
give specifics . . . .” Staff told us that they need this information to plan for
appropriate security monitoring, which includes monitoring mail, telephone
calls, visitors, and inmate-to-inmate communications.

      As mentioned previously, an institution’s participation in the FBI’s
JTTF and other task forces may affect the level of information sharing
between the FBI and the BOP. All MCCs and MDCs have an Intelligence
Operations Officer (IO) whose primary function is to oversee information
gathering and sharing. The SIS staff we interviewed from five additional
FDCs and MCCs where IOs were members of the JTTF cited a high level of
information sharing. At MCC New York, however, the IO is not a member of
the JTTF and therefore does not receive background information on
incoming inmates.




        92 After an inmate’s conviction, the BOP receives a presentence investigation report

containing information on the inmate’s offense, sentence, case background information,
and personal information, including previous criminal history. Based on the information
from the presentence investigation, the BOP determines each inmate’s security
classification.

U.S. Department of Justice                                                       66
Office of the Inspector General
Evaluation and Inspections Division
Recommendations

13. The Criminal Division and the National Security Division, on behalf of
    the Department, should develop a coordinated and mandatory review
    process for each newly incarcerated pretrial or convicted inmate
    associated with terrorism to determine the applicability of SAMs. This
    process should ensure, at a minimum, that the FBI, the prosecuting
    USAOs, the Criminal Division, and the National Security Division each
    review these inmates for SAMs applicability.

14. The FBI should continue to develop and reinforce procedures for
    interacting with the BOP regarding international terrorist inmates,
    including monitoring of inmates, intelligence gathering, and sharing of
    information and intelligence.

15. The BOP should review the information sharing procedures at the MCC
    New York and work with the FBI and the USAO to establish protocols
    for providing required inmate information about incoming terrorist and
    other high-risk inmates. The BOP should consider similar protocols at
    all MCCs and MDCs.




U.S. Department of Justice                                         67
Office of the Inspector General
Evaluation and Inspections Division
                                  CONCLUSION


       We concluded that the BOP’s procedures for monitoring inmate mail
and verbal communications are deficient and limit the ability of BOP staff to
detect terrorist and other criminal activities. The BOP does not adequately
read the mail or listen to the telephone calls, visitor communications, or
cellblock conversations of terrorist and other high-risk inmates.
Furthermore, the BOP does not have sufficient resources to translate inmate
communications in foreign languages and lacks staff adequately trained in
intelligence analysis techniques to properly assess terrorist
communications.

       Historically, the BOP’s monitoring efforts have been predominantly
focused on detecting and deterring traditional criminal activities (such as
inmate gang violence and drug trafficking) rather than terrorist activities.
However, the BOP incarcerates international terrorist inmates who require
sophisticated monitoring and analyses of their communications and
activities. The BOP’s monitoring procedures, intelligence analysis, and
foreign language capabilities have not evolved to that level. Consequently,
serious lapses in security can occur, such as the letter writing incident at
ADX Florence – the BOP’s highest security prison.

        Although the BOP has significant experience with high-risk inmates
incarcerated for crimes unrelated to terrorism, its monitoring of these
inmates also needs improvement. The BOP does not consistently monitor
all of the written and verbal communications for high-risk inmates on
monitoring lists, including foreign language communications. Therefore, the
value of monitoring lists as a security and intelligence gathering technique
is diminished.

       The random reading of inmate mail – another important security and
intelligence gathering technique – is under-emphasized in the BOP. Unlike
random telephone monitoring, which has improved in part through
implementation of monitoring goals, the BOP has not set goals for the
random reading of inmate mail. At the 10 institutions we visited, random
reading varied widely and was a lesser priority than delivering the mail
within BOP time frames. Giving too little attention to the random reading of
inmate mail may prevent the BOP from identifying information that is
important to the security of its institutions and the public.

      We also concluded that the BOP may be missing opportunities to
gather intelligence about terrorist and other high-risk inmates by
monitoring their conversations with visitors in the visiting rooms and with


U.S. Department of Justice                                          68
Office of the Inspector General
Evaluation and Inspections Division
other inmates in the cellblocks. Monitoring verbal exchanges in these
settings poses challenges to the BOP, but inmates may plan and conduct
illegal activities during visits or in the housing units if they know their mail
and telephone calls are being monitored.

       We concluded that intelligence gathering and information sharing
between some Department agencies and the BOP should be improved. The
FBI was not consistently conducting proactive intelligence gathering at BOP
institutions housing terrorist inmates. Also, the FBI and the USAOs did not
consistently share information about newly incarcerated terrorist inmates so
that appropriate monitoring and other security precautions could be
determined by the BOP. This limited intelligence gathering and information
sharing raises the risk of security incidents.

      Additionally, we concluded that after the ADX Florence incident, the
BOP took proactive steps to improve its monitoring of terrorist and other
high-risk inmates. For example, the BOP hired full-time Arabic language
translators, established a Counterterrorism Unit, started planning to
consolidate terrorist inmates into a few institutions, and continued to
develop policies to limit the communications of these inmates.

       We also concluded that the Department should assess whether SAMs
are applicable to each international terrorist inmate. Although the Criminal
Division and the USAOs have guidance about the use of SAMs and how to
submit a SAMs request, the Department does not have a mandatory process
to ensure that every international terrorist has been reviewed for SAMs and
that the Department’s components agree to forgo or apply SAMs for any
particular inmate. Currently, the Department’s Office of Enforcement
Operations reviews only the appropriateness of SAMs requests for terrorist
inmates that USAOs, law enforcement agencies, or intelligence agencies
choose to submit. If no requests are received, no Department-level
evaluation of SAMs applicability occurs. We believe the Department must
have a coordinated approach to decision-making about each terrorist
inmate’s potential for continued terrorism activity while incarcerated and
the level of monitoring required.

      To assist in the improvement of monitoring mail and verbal
communications of terrorist and high-risk inmates, this report makes 15
recommendations. Most of the recommendations address BOP issues, but
several recommendations address other component or Department issues.
We believe that if our recommendations are pursued to correct deficiencies
in monitoring inmates, the security of BOP institutions and the public can
be enhanced.



U.S. Department of Justice                                             69
Office of the Inspector General
Evaluation and Inspections Division
      APPENDIX I: BOP PROGRAM STATEMENT 5265.11,
     POLICY FOR REJECTING INMATE CORRESPONDENCE


       The Warden may reject correspondence sent by or to an inmate if it is
determined detrimental to the security, good order, or discipline of the
institution, to the protection of the public, or if it might facilitate criminal
activity. Correspondence which may be rejected by a Warden includes, but
is not limited to, correspondence containing:

       •   Matter which is nonmailable under law or postal regulations;

       •   Matter which depicts, describes, or encourages activities which
           may lead to the use of physical violence or group disruption;

       •   Information of escape plots, of plans to commit illegal activities, or
           to violate Bureau rules or institution guidelines;

       •   Direction of an inmate’s business. An inmate, unless a pretrial
           detainee, may not direct a business while confined;

       •   Threats;

       •   A code;

       •   Sexually explicit material (for example, personal photographs)
           which by its nature or content poses a threat to an individual’s
           personal safety or security, or to institution good order; or

       •   Contraband (A package without prior authorization by the Warden
           is considered to be contraband).




U.S. Department of Justice                                              70
Office of the Inspector General
Evaluation and Inspections Division
           APPENDIX II: JOB DUTIES OF SIS POSITIONS



      Position                                    Major Job Duties
 Special                  •       Acts as lead investigator in SIS operations,
 Investigative Agent      •       Supervises daily activities of SIS office:
 (GS-12)                                 Investigations of staff misconduct, criminal or
                                            administrative
                                         Investigations of inmate misconduct,
                                            administrative or criminal
                                         Phone monitoring
                                         Mail monitoring
                                         Intelligence gathering
                                         Security threat analyses
                                         Urinalysis testing
                          •       Serves as law enforcement liaison for the institution
                          •       Serves as intelligence officer for the institution (in the
                                  absence of an Intelligence Operations Officer)
                          •       Provides staff training in investigative issues, crime scenes,
                                  high-risk inmates
                          •       Maintains Administrative files on:
                                         Staff
                                         High-risk inmates
                                         Use of force
 SIS Lieutenant               •     In the absence of an Special Investigative Agent, serves as
 (GS-9/11)                          lead investigator in SIS operations and assumes all the
                                    duties as listed under the Special Investigative Agent
                                    above
                              •     Where a Special Investigative Agent is assigned, serves as
                                    the subordinate Lieutenant to the Special Investigative
                                    Agent
 SIS Technician               •     Serves as assistant to the Special Investigative Agent or
 (GS-8)                             SIS Lieutenant
                              •     Provides assistance during investigations, developing
                                    reports, preparing correspondence, maintaining evidence,
                                    and computer support
                              •     Assists in case preparation for presentation to the
                                    Disciplinary Hearing Officer, Office of Inspections, or the
                                    U.S. Attorney for possible prosecution
                              •     Loads, manages, and maintains advanced computer
                                    database systems and conducts computer searches within
                                    databases; trains SIS staff in operation of computer
                                    databases systems
                              •     Publishes automated computer reports
                              •     Performs standard and evidence photography, and
                                    maintains evidence files
                              •     Aids in evidence testing, handling, labeling, packaging
                                    and submission to federal crime labs
                              •     Serves as drug testing coordinator for inmate population


U.S. Department of Justice                                                           71
Office of the Inspector General
Evaluation and Inspections Division
      Position                                       Major Job Duties
 Intelligence            Located only in select metropolitan areas at MDCs, MCCs and
 Operations Officer      similar facilities
 (GS-12)*
                         •           Actively serves as the agency liaison with all local Federal
 * Reports directly to               law enforcement task force operations, such as the Joint
 the Intelligence                    Terrorism Task Force (JTTF) and others which are engaged
 Officer at the BOP                  in operations that could provide meaningful intelligence
 Central Office,                     information regarding offenders in BOP custody
 Washington, D.C.,           •       In the capacity of team leader:
 and works closely                            serves as the corrections expert in inmate
 with the Captain of                           activities within the institution
 the assigned                                 manages the local intelligence collection and
 institution                                   dissemination plan
                                              conducts databases research for task force
                                               dissemination and other law enforcement agencies
                                              assists with criminal investigations
                                              provides meaningful intelligence information
                                               regarding offenders already in BOP custody or
                                               projected as entering BOP custody in the future
                                 •    Actively gathers intelligence regarding the identity of
                                       individual high-risk inmates entering custody
                                 •    Obtains law enforcement documents on inmates pending
                                       indictment or in BOP custody. Particular attention is
                                       given to high-risk inmates.
                                 •    Serves as subject matter expert for specific high-risk
                                       inmates in assigned geographic area; conducts detailed
                                       intelligence debriefs of high-risk inmates wishing to “drop
                                       out” of gangs – or provides interview strategies and
                                       background intelligence to those conducting the interview
                                 •    Provides gang seminars and training on high-risk inmates




U.S. Department of Justice                                                              72
Office of the Inspector General
Evaluation and Inspections Division
      Position                                Major Job Duties
 Telephone Monitor         •   Responsible for maintaining security of institution
                           •   Regularly performs as a law enforcement officer during
                               specifically appointed times
                           •   Will provide the Special Investigative Agent with gathered
                               intelligence retrieved from the Inmate Telephone System
                           •   Information involving drug trafficking, involvement in
                               other illicit activities, and linked communications relative
                               to inappropriate behavior will be monitored on a daily
                               basis
                           •   Responsible for maintaining information gathered from the
                               remote listening sites (towers), analyzing this information,
                               providing follow-up, and determining its content. Any
                               information obtained will be reported to Special
                               Investigative Agent/SIS
                           •   Responsible for identifying inmates who are making
                               excessive telephone calls. Identification of the telephone
                               number called, any other inmate using the telephone
                               number, and if an inmate has been identified as making
                               an excessive number of calls
                           •   Responsible for researching inmate’s assigned schedule,
                               and if the inmate is using the telephone system when he is
                               assigned to be at work, reporting this to the Special
                               Investigative Agent/SIS
                           •   Responsible for maintaining profiles on specific high-risk
                               inmates.
                           •   Responsible for assisting the Special Investigative
                               Agent/SIS in referring criminal cases to the FBI, U.S.
                               Marshals Service, U.S. Secret Service, or similar law
                               enforcement agency
                           •   Assists the Special Investigative Agent/SIS during the
                               investigation of complex criminal investigations
                           •   Assists the Special Investigative Agent/SIS in collecting,
                               analyzing, and disseminating strategic intelligence as it is
                               related to high-risk inmates
                           •   Assists in conducting counterintelligence operations
                           •   Responsible for information and intelligence exchange with
                               other institutions
                           •   Must be familiar with BOP Program Statements, manuals,
                               and general principles of investigation




U.S. Department of Justice                                                      73
Office of the Inspector General
Evaluation and Inspections Division
      Position                                Major Job Duties
 Intelligence              •   Assigned only in select metropolitan areas and serves as a
 Research Specialist           member of a team led by the Intelligence Operations
                               Officer (IO)
                           •   Serves as the link between the IO and local institution
                               staff to gather/share raw information and intelligence
                               derived from the assigned IO’s collection activities into
                               intelligence databases, summaries, briefing papers, threat
                               assessments, training materials, and similar intelligence
                               products for BOP-wide use
                           •   As a member of the intelligence team:
                                    serves as a corrections expert on inmate activities
                                        within the institution
                                    conducts BOP database research for task forces
                                        and other agencies
                                    assists with criminal investigations
                                    provides meaningful intelligence information
                                        regarding offenders already in BOP custody or
                                        projected as entering BOP custody in the future
                           •   Performs analysis of materials obtained by the IO as well
                               as other documents (such as indictments, arrest warrant
                               affidavits, sentencing memoranda, pretrial detention
                               reports, and similar sensitive original source law
                               enforcement documentation) regarding inmates pending
                               indictment, or already being held in BOP custody to use
                               for operational intelligence purposes and for intelligence
                               forecasting. Also directly collects “open source” materials
                               from the press, broadcast media, internet, and similar
                               sources which will aid in the analysis of issues of security
                               concern to the BOP
                           •   Assists in developing interdiction strategies to include
                               telephone monitoring strategies, work assignments,
                               housing, and special accountability controls
                           •   Assist the IO in coordinating the release and sharing of
                               BOP intelligence with law enforcement agencies
                           •   Is the alternate BOP Subject Matter expert for specific
                               high-risk inmates home based in the assigned BOP
                               geographical area
                           •   Assists in providing training




U.S. Department of Justice                                                       74
Office of the Inspector General
Evaluation and Inspections Division
           APPENDIX III: INMATE RESTRICTIONS AND FBI
                 RESPONSIBILITIES RELATED TO
               SPECIAL ADMINISTRATIVE MEASURES



       Issue             SAMs Restriction                     FBI Responsibilities
  Telephone         •   Non-legal calls limited to        •   To contemporaneously
  Calls                 immediate family members              monitor the phone call.
                    •   One non-legal call a month        •   To analyze the recorded
                    •   Calls will be recorded                phone call (recording
                                                              provided by the BOP)
                                                          •   To confirm relationship of
                                                              immediate family members
  Mail              •   Non-legal mail restricted to      •   To review and analyze all
                        immediate family members              non-legal mail
                    •   Will be copied, forwarded to      •   To return any English
                        the FBI, and analyzed by              language mail within 14
                        the FBI                               business days and non-
                                                              English mail within 60
                                                              business days to allow for
                                                              translation
                                                          •   To return any mail where
                                                              there is suspicion of a code
                                                              within 60 business days to
                                                              allow for decoding
                                                          •   To confirm relationship of
                                                              immediate family members
  Visits            •   Non-legal visits limited to       •   Contemporaneously
                        immediate family members              monitor the non-legal visit
                    •   All non-legal visits will be in   •   Analyze translation of visit
                        English, unless a fluent FBI,     •   To confirm relationship of
                        U.S. Marshals Service                 immediate family members
                        (USMS), BOP, or Detention
                        Facility (DF)-approved
                        translator can
                        contemporaneously monitor
                        the visit
                    •   Minimum of 14 calendar
                        days in advance written
                        notice to the USMS, BOP, or
                        DF
                    •   No physical contact
                    •   One adult visitor at a time
                        (FBI-verified children may
                        visit with pre-approved
                        adult visitor)




U.S. Department of Justice                                                        75
Office of the Inspector General
Evaluation and Inspections Division
       Issue             SAMs Restriction                     FBI Responsibilities
  Periodicals,      •   May have access to                •   Review and determine
  Newspapers,           publications determined not           which publications inmate
  Television            to facilitate criminal activity       may have access to
  and Radio             or be detrimental to              •   Determine which parts of
                        national security                     publication to remove
                    •   Shall have access to                  before giving to inmate
                        publications after a delay of     •   Translate any publications
                        at least 30 days                      and review/analyze the
                    •   Not allowed to share                  translations
                        publications with other
                        inmates
                    •   Restricted from access to
                        channels/stations which
                        primarily broadcast news
   Source: BOP




U.S. Department of Justice                                                       76
Office of the Inspector General
Evaluation and Inspections Division
               APPENDIX IV: THE FEDERAL BUREAU OF
                     PRISONS’ RESPONSE




U.S. Department of Justice                          77
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            78
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            79
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            80
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            81
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            82
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            83
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            84
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            85
Office of the Inspector General
Evaluation and Inspections Division
         APPENDIX V: OIG’S ANALYSIS OF THE FEDERAL
             BUREAU OF PRISONS’ RESPONSE


     On August 18, 2006, the OIG sent a copy of the draft report to the
Federal Bureau of Prisons (BOP) with a request for written comments on
Recommendations 1 through 12 and 15. The BOP responded to the OIG in
a memorandum dated September 19, 2006. The BOP concurred with all the
recommendations.

       Recommendation 1: The BOP should ensure that all mail of inmates
on its mail monitoring lists is read, including translating and reading of
foreign language mail, and that the institutions’ monitoring of this mail is
tracked.

       Status. Resolved – Open.

       Summary of the BOP’s Response. The BOP concurred with the
recommendation stating that inmates placed on mail monitoring status
should be held to a higher correctional management standard based on
identified risk factors, and that these inmates’ communications should be
reviewed by appropriately trained staff as soon as practical. Toward that
end, the BOP is exploring procedural modifications and technology aides to
develop uniform standards and tracking of inmate communications. The
BOP anticipates completing this initiative by December 2007.

       The OIG’s Analysis. The actions planned by the BOP are responsive
to the recommendation. Please provide a status report on the development
of the procedural modifications and tracking system by December 1, 2006.

       Recommendation 2: The BOP should set minimum target
percentages of incoming and outgoing mail for random reading, including
translating and reading foreign language mail, and track the institutions’
efforts to comply with these goals.

       Status. Resolved – Open.

       Summary of the BOP’s Response. The BOP stated that it has some
concerns about implementing this recommendation because the resources
needed to raise the level of current random reading of mail would be
significant. Instead, the BOP proposed delaying targets for random reading
until it fully implements a new electronic messaging system called the Trust
Fund Limited Inmate Communication System (TRULINCS). TRULINCS,
which is in the pilot testing stage at 11 BOP facilities, allows inmates to

U.S. Department of Justice                                         86
Office of the Inspector General
Evaluation and Inspections Division
communicate with family and friends through the use of electronic
messaging via a secure work station. The BOP stated that it intends to
implement TRULINCS Bureau-wide in the next several months and expects
the amount of incoming and outgoing inmate mail through the U.S. postal
system to be greatly reduced. The BOP believes use of TRULINCS along
with reading all mail for inmates on mail monitoring lists will ensure that a
high percentage of inmate mail is read daily.

       The OIG’s Analysis. The BOP’s implementation of TRULINCS as a first
step in improving random reading of inmate mail is responsive to the
recommendation. However, TRULINCS may not preclude the need for
setting targets for random reading of inmate mail written in English and
foreign languages. Inmates are not required to use TRULINCS instead of the
U.S. postal system, and the amount of hardcopy inmate correspondence
may remain significant. Therefore, mailroom and housing unit staff may
still be required to randomly read a meaningful percentage of hardcopy
incoming and outgoing mail for inmates not on mail monitoring lists. The
BOP’s response also does not state whether TRULINCS is to be used by
inmates who communicate in foreign languages. By December 1, 2006,
please provide the results of the pilot tests, which should include data about
TRULINCS’s effect on intelligence gathering and the amount of U.S. mail as
well as TRULINCS’s applicability to foreign language communication, and a
status report on the implementation of TRULINCS Bureau-wide.

      Recommendation 3: The BOP should develop a policy for in-house
translation services that includes:

       a. Guidelines for when and how translations are to be conducted (e.g.,
          when word-for-word translation or a summary is required),
          including translations of communications to and from international
          terrorist inmates;

       b. Guidelines for the random verification of the accuracy of staff
          translations;

       c. Guidelines on the minimum proficiency levels for volunteer BOP
          staff who translate communications for terrorist inmates, inmates
          on mail or phone monitoring lists, or other high-risk inmates;

       d. Guidelines requiring supervisors to support collateral translation
          duties, and when work conflicts exist, to seek resolution with the
          Associate Warden or Warden;




U.S. Department of Justice                                           87
Office of the Inspector General
Evaluation and Inspections Division
       e. Guidelines that require BOP staff who volunteer as translators to
          track the number of hours and the languages for which they
          perform translation services as a collateral duty to allow future
          resource needs to be determined; and

       f. Guidelines that ensure institutions use the existing incentive
          awards program, especially cash awards, to encourage and
          recognize BOP volunteer staff translators. The BOP also should
          consider developing additional incentives and awards to encourage
          BOP staff to volunteer for collateral translation duties.

       Status. Resolved – Open.

     Summary of the BOP’s Response. The BOP concurred with the
recommendation.

       a. The BOP stated that the Special Investigative Supervisor (SIS)
          Manual is undergoing review and revision and will include
          language about timely completion of summary translations for all
          forms of foreign communication for all international terrorist
          inmates. Verbatim translations will be required for suspicious
          content.

       b. The BOP stated that staff working as volunteer translators require
          sufficient language proficiency to recognize noteworthy intelligence
          for further analysis. The BOP stated that it has formed a work
          group to develop language competency criteria for BOP staff
          serving as volunteer translators or full-time translators and has
          developed a Reimbursable Agreement between agencies for
          language testing that is pending approval for fiscal year (FY) 2007.
          The BOP anticipated implementing language proficiency guidelines
          by January 2008.

       c. The BOP referred to its response for item b above.

       d. The BOP stated that it will issue a procedural directive in
          December 2006 mandating local support for staff performing
          approved collateral language translation services.

       e. The BOP stated that monitoring of foreign language telephone calls
          is tracked automatically through the INTRUDR system. The BOP
          will consider uniform tracking of translations performed for inmate
          correspondence.



U.S. Department of Justice                                           88
Office of the Inspector General
Evaluation and Inspections Division
        f. The BOP stated that it will reiterate existing incentive awards
           policy to wardens to ensure staff volunteer translators are
           recognized for their efforts. The BOP also will consider developing
           additional incentives and awards to encourage staff to volunteer for
           collateral translation duties. The BOP will issue guidance to
           wardens by December 2006.

      The OIG’s Analysis. The actions planned by the BOP are generally
responsive to the recommendation. We believe the BOP’s translation policy
requires some additional steps for items a, b, and e.

        a. The policy should include directions on whether outside contract
           services or volunteer staff (whose language proficiency levels have
           been untested in the past) should be used for translating foreign
           language communications of international terrorist inmates.

        b. The policy should include procedures for randomly verifying the
           accuracy of staff translations.

        e. The policy should require staff to track the time spent translating
           correspondence and telephone calls and the languages translated.
           It is unclear whether INTRUDR automatically tracks this type of
           information for inmate calls.

        Please provide a status report on the translation policy by December 1,
2006.

     Recommendation 4: The BOP should offer Spanish and other
language training to staff, as dictated by translation needs.

        Status. Resolved – Open.

       Summary of the BOP’s Response. The BOP concurred with the
recommendation. The BOP stated that a contractor is providing Arabic
language training to BOP’s full-time translators at ADX Florence. The BOP
is exploring the use of this contractor for in-house language training at
other institutions. Additionally, the BOP is reviewing courses at the Defense
Language Institute, which provides a variety of language training to federal
agencies. The BOP scheduled three Spanish Language Training Program
courses during FY 2007 and will explore development of an advanced
Spanish language course. The BOP anticipates the completion of these
initiatives by October 2008.




U.S. Department of Justice                                            89
Office of the Inspector General
Evaluation and Inspections Division
       The OIG’s Analysis. The actions planned by the BOP are responsive
to the recommendation. By December 1, 2006, please provide the dates for
the scheduled Spanish courses and the status of the BOP’s decisions on
developing an advanced Spanish course and using the contractor and the
Defense Language Institute as sources for other language training.

      Recommendation 5: The BOP should provide advanced and
continuing counterterrorism intelligence training to its full-time SIS staff,
Language Specialists, and Intelligence Operations Officers (IO), especially in
those institutions that house terrorist inmates.

       Status. Resolved – Open.

       Summary of the BOP’s Response. The BOP concurred with the
recommendation. The BOP stated that in August 2006, the Central Office
Intelligence Section provided Terrorist Management Training for SIS staff
that had not previously attended the course. The BOP further stated that
the Federal Bureau of Investigation (FBI) agreed to conduct an ongoing 40-
hour course on intelligence gathering and analysis and that the first class
will occur the week of December 4, 2006. The FBI also agreed to provide an
abridged form of this training to newly appointed SIS staff. Select BOP staff
will become certified as trainers and will train the remaining BOP
intelligence and SIS staff. The BOP also is evaluating a variety of computer-
based training programs. The BOP anticipates completing these initiatives
by October 2007.

       The OIG’s Analysis. The actions planned by the BOP are responsive
to the recommendation. By December 1, 2006, please provide a copy of the
40-hour course content, number of planned participants, dates scheduled
for the course, and plans for providing training to other intelligence and SIS
staff.

      Recommendation 6: The BOP should clarify the role of Intelligence
Operations Officers (IO) regarding membership on the FBI’s Joint Terrorism
Task Forces (JTTF) and ensure that the institutions support the IOs in
carrying out their full-time task force coordination, intelligence gathering,
and information sharing duties.

       Status. Resolved – Open.

      Summary of the BOP’s Response. The BOP concurred in part with the
recommendation. The BOP stated that many IOs participate on task forces
other than JTTFs and therefore cannot participate full time on JTTFs.
However, by November 2006, the BOP stated that it will issue guidance to


U.S. Department of Justice                                           90
Office of the Inspector General
Evaluation and Inspections Division
wardens that requires every institution to identify at least one staff member
to be a certified liaison with the local JTTF.

       The OIG’s Analysis. The actions planned by the BOP are responsive
to the recommendation. Please provide a copy of the guidance to wardens
by December 1, 2006.

       Recommendation 7: The BOP should ensure that it monitors 100
percent of Alert telephone calls and translates all foreign language Alert
calls.

       Status. Resolved – Open.

      Summary of the BOP’s Response. The BOP concurred with the
recommendation and stated that it will revise its policy to ensure all
communications for inmates on monitoring lists are properly translated, if
applicable, and reviewed by trained staff. The BOP anticipates completing
the policy revision by July 2008.

       The OIG’s Analysis. The action planned by the BOP is responsive to
the recommendation. However, the anticipated completion date is untimely.
By December 1, 2006, please provide an earlier completion date or an
explanation for the delayed date and the BOP’s interim plans to ensure that
telephone calls for inmates on telephone monitoring lists (which include
Alert calls) are translated and monitored during the policy revision period.

      Recommendation 8: The BOP should ensure that it monitors 100
percent of the calls of inmates on the SIS telephone monitoring lists and
translates all foreign language calls from inmates on this list.

       Status. Resolved – Open.

     Summary of the BOP’s Response. The BOP concurred with the
recommendation and referred to Recommendation 7 for its planned actions.

       The OIG’s Analysis. Please see our analysis for Recommendation 7.

       Recommendation 9: The BOP should review the frequency of the
rotation and need for longer-term assignment of telephone monitor positions
in SIS offices.

       Status. Resolved – Open.




U.S. Department of Justice                                          91
Office of the Inspector General
Evaluation and Inspections Division
      Summary of the BOP’s Response. The BOP concurred with the
recommendation and stated that it will review the roster rotation for the
telephone monitor position because of the position’s importance in providing
timely and proficient monitoring of telephone communications. The BOP
anticipates a decision on the rotation policy by May 2007.

      The OIG’s Analysis. The action planned by the BOP is responsive to
the recommendation. Please provide a status report on the roster rotation
review by December 1, 2006.

      Recommendation 10: The BOP should ensure that foreign language
telephone calls randomly selected for monitoring are translated either live or
from the INTRUDR recordings.

       Status. Resolved – Open.

      Summary of the BOP’s Response. The BOP concurred with the
recommendation. The BOP is conducting an internal assessment of
language translation procedures and will decide whether to include random
sampling or selection of foreign language telephone calls. The BOP
anticipates a decision on translating foreign language telephone calls by
June 2008.

      The OIG’s Analysis. The action planned by the BOP is responsive to
the recommendation. However, the anticipated completion date of the
internal assessment and decision on randomly translating foreign language
telephone calls is untimely. By December 1, 2006, please provide an earlier
completion date or an explanation for the delayed date and your interim
plans for ensuring that a meaningful percentage of foreign language
telephone calls for inmates not on telephone monitoring lists will be
translated during the internal assessment period.

      Recommendation 11: The BOP should consider implementing audio
recording of cellblock conversations of all Special Administrative Measures
(SAMs) inmates and establish guidelines regarding when and under what
circumstances to record these conversations.

       Status. Resolved – Open.

      Summary of the BOP’s Response. The BOP concurred with the
recommendation. The BOP stated that it will consult with the FBI to assess
the current recording practices to determine if discretionary recording would
be beneficial. The BOP will convey its final decision by May 2007.



U.S. Department of Justice                                          92
Office of the Inspector General
Evaluation and Inspections Division
      The OIG’s Analysis. The action planned by the BOP is responsive to
the recommendation. Please provide the status of the assessment of
recording practices by December 1, 2006.

      Recommendation 12: The BOP should consider periodically audio
recording social visits of non-SAMs terrorist inmates and other selected
high-risk inmates in institution visiting rooms.

       Status. Resolved – Open.

       Summary of the BOP’s Response. The BOP concurred with the
recommendation. The BOP stated that it will assess the non-contact
visitation process at ADX Florence. The BOP expects to provide the
assessment, final decision, and implementation plan, if applicable, by
March 2007.

      The OIG’s Analysis. The action planned by the BOP is responsive to
the recommendation. Please provide the status of the assessment by
December 1, 2006.

      Recommendation 15: The BOP should review the information
sharing procedures at Metropolitan Correctional Center (MCC) New York
and work with the FBI and the U.S. Attorney’s Office (USAO) to establish
protocols for providing required inmate information about incoming terrorist
and other high-risk inmates. The BOP should consider similar protocols at
all MCCs and Metropolitan Detention Centers (MDC).

       Status. Resolved – Open.

      Summary of the BOP’s Response. The BOP concurred with the
recommendation. The BOP stated that the Warden of MCC New York will
work with the local FBI and USAO to develop protocols for sharing
information about terrorist and other high-risk inmates. The Assistant
Director of the Correctional Programs Division will review the protocols for
possible application at the national level.

       The OIG’s Analysis. The actions planned by the BOP are responsive
to the recommendation. Please provide the status of the protocols by
December 1, 2006.




U.S. Department of Justice                                           93
Office of the Inspector General
Evaluation and Inspections Division
              APPENDIX VI: THE CRIMINAL DIVISION’S
                         RESPONSE




U.S. Department of Justice                           94
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            95
Office of the Inspector General
Evaluation and Inspections Division
    APPENDIX VII: OIG’S ANALYSIS OF THE CRIMINAL
                 DIVISION’S RESPONSE


     On August 17, 2006, the OIG sent a copy of the draft report to the
Criminal Division with a request for written comments on Recommendation
13. The Criminal Division responded to the OIG in a memorandum dated
August 28, 2006. The Criminal Division concurred with the
recommendation but proposed minor language changes.

       Recommendation 13: The Criminal Division and the National
Security Division, on behalf of the Department, should develop a
coordinated and mandatory review process for each newly incarcerated
pretrial or convicted inmate associated with terrorism to determine the
applicability of SAMs. This process should ensure, at a minimum, that the
FBI, the prosecuting USAOs, the Criminal Division, and the National
Security Division each review these inmates for SAMs applicability.

       Status. Resolved – Open.

       Summary of Criminal Division’s Response. The Criminal Division
concurred with the recommendation that the Department should develop a
coordinated and mandatory review process for each newly incarcerated
pretrial or convicted inmate associated with terrorism to determine the
applicability of SAMs. The Criminal Division stated that since its
Counterterrorism, Counterespionage, and Office of Intelligence Policy and
Review sections will be moving to the Department’s newly created National
Security Division, the new Division should share the responsibility with the
Criminal Division in developing this coordinated and mandatory review. In
March 2006, the National Security Division of the Department was
authorized in the USA Patriot Improvement and Reauthorization Act of
2005. The Division will be formed once the nominated Assistant Attorney
General for this new Division is confirmed.

      The Criminal Division plans to implement this recommendation by
proposing a change to provisions of the U.S. Attorneys’ Manual and is
currently drafting the text for this change, which will eventually be
submitted to the Attorney General Advisory Committee for its approval. The
Criminal Division anticipates the entire process will take 6 months.

      The OIG’s Analysis. The action planned by the Criminal Division to
update the U.S. Attorneys’ Manual with language that requires a coordinated
and mandatory SAMs review process for each newly incarcerated pretrial or
convicted inmate associated with terrorism is responsive to the

U.S. Department of Justice                                          96
Office of the Inspector General
Evaluation and Inspections Division
recommendation. Please provide us with a status report on the updated
U.S. Attorneys’ Manual language reflecting this requirement by December 1,
2006.




U.S. Department of Justice                                       97
Office of the Inspector General
Evaluation and Inspections Division
             APPENDIX VIII: THE FEDERAL BUREAU OF
                 INVESTIGATION’S RESPONSE




U.S. Department of Justice                          98
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            99
Office of the Inspector General
Evaluation and Inspections Division
         APPENDIX IX: OIG’S ANALYSIS OF THE FEDERAL
          BUREAU OF INVESTIGATION’S RESPONSE


      On August 17, 2006, the OIG sent a copy of the draft report to the
Federal Bureau of Investigation (FBI) with a request for written comments
on Recommendation 14. The FBI responded to the OIG in a memorandum
dated September 22, 2006. The FBI concurred with the recommendation.

       Recommendation 14: The FBI should continue to develop and
reinforce procedures for interacting with the BOP regarding international
terrorist inmates, including monitoring of inmates, intelligence gathering,
and sharing of information and intelligence.

       Status. Resolved – Open.

       Summary of the FBI’s Response. The FBI concurred with the
recommendation and stated that it will continue to reinforce and improve its
Correctional Intelligence Initiative (CII), which facilitates coordination of
terrorism issues between the FBI, the BOP, and state and local correctional
agencies. The FBI will continue its training of CII Coordinators in each field
office, who in turn help train correctional personnel. Further, the FBI will
continue to grant BOP representatives to the Joint Terrorism Task Forces
full access to FBI counterterrorism resources.

       The OIG’s Analysis. The actions planned by the FBI are responsive to
the recommendation. Please provide the status of the FBI’s improvements
to the CII and its training of CII Coordinators and BOP personnel by
December 1, 2006.




U.S. Department of Justice                                          100
Office of the Inspector General
Evaluation and Inspections Division
